VA Office of Inspector General

                                     Veterans Health
                                     Administration 

                                           Review of 

                                    Alleged Patient Deaths, 

                                    Patient Wait Times, and 

                                   Scheduling Practices at the 

                                 Phoenix VA Health Care System




                                                      August 26, 2014
                                                       14-02603-267
                              ACRONYMS 

CBOC          Community Based Outpatient Clinic
CBT           Cognitive Behavioral Therapy
COPD          Chronic Obstructive Pulmonary Disease
CPRS          Computerized Patient Record System
CSTAT         Consultation Stabilization Triage Assessment Team
CT            Computerized Tomography
DBT           Dialectical Behavioral Therapy
ED            Emergency Department
EHR           Electronic Health Record
EWL           Electronic Wait List
FY            Fiscal Year
GAO           Government Accountability Office
HAS           Health Administration Service
HRC           Health Resource Center
HVAC          House Committee on Veterans’ Affairs
ICD           Implantable Cardioverter Defibrillator
LPN           Licensed Practical Nurse
NEAR          New Enrollee Appointment Request
OEF/OIF/OND   Operation Enduring Freedom/Operation Iraqi Freedom/Operation New Dawn
OIG           Office of Inspector General
PCP           Primary Care Provider
PDF           Portable Document Format
PET           Positron Emission Tomography
PSA           Prostate-Specific Antigen
PTSD          Post-Traumatic Stress Disorder
PVAHCS        Phoenix VA Health Care System
RSA           Replacement Scheduling Application
SPC           Suicide Prevention Coordinator
VA            Department of Veterans Affairs
VAMC          Veterans Affairs Medical Center
VHA           Veterans Health Administration
VISN          Veterans Integrated Service Network
VistA         Veterans Health Information Systems and Technology Architecture
VSSC          Veterans Health Administration Support Service Center
WIG           Wildly Important Goal
The VA OIG Hotline is the responsible office for complaints of fraud, waste,
abuse, and mismanagement within the Department of Veterans Affairs. Using the
VA OIG Web page, at www.va.gov/oig, will facilitate the processing of your input.

Federal regulations require that VA employees must report criminal matters
involving felonies to the OIG. Complainants are protected under the Inspector
General (IG) Act of 1978, which requires IGs to protect the identity of agency
employees who complain or provide other information to the IG. In addition, the
IG Act makes reprisal against an employee contacting the IG a prohibited
personnel practice.


                                   --------------

       To Report Suspected Wrongdoing in VA Programs and Operations: 

                         Email: vaoighotline@va.gov

                           Telephone: 1-800-488-8244 

                  (Hotline Information: www.va.gov/oig/hotline) 

(This Page Left Intentionally Blank)
                            EXECUTIVE SUMMARY 



The VA Office of Inspector General (OIG) reviewed allegations at the Phoenix VA Health Care
System (PVAHCS) that included gross mismanagement of VA resources, criminal misconduct
by VA senior hospital leadership, systemic patient safety issues, and possible wrongful deaths.
We initiated this review in response to allegations first reported to the VA OIG Hotline. We
expanded our work at the request of the former VA Secretary and the Chairman of the House
Committee on Veterans’ Affairs (HVAC) following an HVAC hearing on April 9, 2014, on
delays in VA medical care and preventable veteran deaths. Since receiving those requests, we
have received other Congressional requests including those submitted by the Chair and Ranking
Members of the following Committees and Subcommittees. A complete list of requestors is
located in Appendix J.

	 House Committee on Veterans’ Affairs
	 HVAC Subcommittee on Oversight and Investigations
	 House Appropriations Committee
	 House Appropriations Subcommittee on Military Construction, Veterans Affairs, and Related
   Agencies
	 Senate Committee on Veterans’ Affairs
	 Senate Appropriations Committee
	 Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
   Related Agencies

On May 28, 2014, we published a preliminary report, Review of Patient Wait Times, Scheduling
Practices, and Alleged Patient Deaths at the Phoenix Health Care System – Interim Report, to
ensure all veterans received appropriate care and to provide VA leadership with
recommendations for immediate implementation. This report updates the information previously
provided in the Interim Report to reflect the final results of our review. We focused this report
on the following five questions and identified serious conditions at the PVAHCS and throughout
the Veterans Health Administration (VHA).

	 Were there clinically significant delays in care?
	 Did PVAHCS omit the names of veterans waiting for care from its Electronic Wait List
   (EWL)?
	 Were PVAHCS personnel following established scheduling procedures?
	 Did the PVAHCS culture emphasize goals at the expense of patient care?
	 Are scheduling deficiencies systemic throughout VHA?


                                                i
Due to the multitude and broad range of issues, we assembled a multidisciplinary team
comprising board-certified physicians, special agents, auditors, and health care inspectors to
evaluate the many allegations, determine their validity, and assign individual accountability if
appropriate. The team interviewed numerous individuals to include the principal complainants,
Dr. Samuel Foote, a retired PVAHCS physician, and Dr. Katherine Mitchell, the Medical
Director of the PVAHCS Operation Enduring Freedom/Operation Iraqi Freedom/and Operation
New Dawn (OEF/OIF/OND) clinic. In addition:

	 We obtained and reviewed VA and non-VA medical records of patients who died while on a
   wait list or whose deaths were alleged to be related to delays in care.
	 We reviewed two statistical samples of completed primary care appointments to determine
   the accuracy of patient wait times based on our assessment of the earliest indication a patient
   desired care.
	 We reviewed over 1 million email messages, approximately 190,000 files from 11 encrypted
   computers and/or devices, and over 80,000 converted messages from Veterans Health
   Information Systems and Technology Architecture emails.

The patient experiences described in this report revealed that access barriers adversely affected
the quality of primary and specialty care at the PVAHCS. In February 2014, a whistleblower
alleged that 40 veterans died waiting for an appointment. We pursued this allegation, but the
whistleblower did not provide us with a list of 40 patient names. From our review of PVAHCS
electronic records, we were able to identify 40 patients who died while on the EWL during the
period April 2013 through April 2014. However, we conducted a broader review of
3,409 patients identified from multiple sources, including the EWL, various paper wait lists, the
OIG Hotline, the HVAC and other Congressional sources, and media reports.

OIG examined the electronic health records (EHRs) and other information for the 3,409 veteran
patients, including the 40 patients reflected above in PVAHCS’s records, and identified
28 instances of clinically significant delays in care associated with access to care or patient
scheduling. Of these 28 patients, 6 were deceased. In addition, we identified 17 care
deficiencies that were unrelated to access or scheduling. Of these 17 patients, 14 were deceased.
We also found problems with access to care for patients requiring Urology Services. As a result,
Urology Services at PVAHCS will be the subject of a subsequent report. The 45 cases discussed
in this report reflect unacceptable and troubling lapses in follow-up, coordination, quality, and
continuity of care.

During our review of EHRs, we considered the responsibilities and delivery of medical services
by primary care providers (PCPs) versus specialty care providers (such as urologists,
endocrinologists, and cardiologists). Our analysis found that the majority of the veteran patients
we reviewed were on official or unofficial wait lists and experienced delays accessing primary
care—in some cases, pressing clinical issues required specialty care, which some patients were
already receiving through VA or non-VA providers. For example, a patient may have been
seeing a VA cardiologist, but he was on the wait list to see a PCP at the time of his death. While
the case reviews in this report document poor quality of care, we are unable to conclusively
assert that the absence of timely quality care caused the deaths of these veterans.

                                                ii
Supplementing data gathered from the EHR, we also analyzed information, when available, from
sources that included Medicare, non-VA health records, death certificates, media reports, and
interviews with VA staff. Approximately 23 percent of the patients we reviewed received
private sector medical care funded by Medicare or Medicaid, and 35 percent had insurance
coverage beyond VA.

We identified several patterns of obstacles to care that resulted in a negative impact on the
quality of care provided by PVAHCS. Patients recently hospitalized, treated in the emergency
department (ED), attempting to establish care, or seeking care while traveling or temporarily
living in Phoenix often had difficulty obtaining appointments. Furthermore, although we found
that PVAHCS had a process to provide access to a mental health assessment, triage, and
stabilization, we identified problems with continuity of mental health care and care transitions,
delays in assignment to a dedicated health care provider, and limited access to psychotherapy
services.

As of April 22, 2014, we identified about 1,400 veterans waiting to receive a scheduled primary
care appointment who were appropriately included on the PVAHCS EWL. However, as our
work progressed, we identified over 3,500 additional veterans, many of whom were on what we
determined to be unofficial wait lists, waiting to be scheduled for appointments but not on
PVAHCS’s official EWL. These veterans were at risk of never obtaining their requested or
necessary appointments. PVAHCS senior administrative and clinical leadership were aware of
unofficial wait lists and that access delays existed. Timely resolution of these access problems
had not been effectively addressed by PVAHCS senior administrative and clinical leadership.

From interviews of 79 PVAHCS employees involved in the scheduling process, we identified the
following types of scheduling practices not in compliance with VHA policy. Some schedulers
identified multiple inappropriate scheduling practices.
	 Thirty staff stated they used the wrong desired date of care, resulting in appointments
   showing a false 0-day wait time.
	 Eleven staff stated they “fixed” or were instructed to “fix” appointments with wait times
   greater than 14 days. They did this by rescheduling the appointment for the same date and
   time but with a later desired date.
	 Twenty-eight staff stated they either printed out or received printouts of patient information
   for scheduling purposes. Staff said they kept the printouts in their desks for days or
   sometimes weeks before the veterans were scheduled an appointment or placed on the EWL.

PVAHCS executives and senior clinical staff were aware that their subordinate staff were using
inappropriate scheduling practices. In January 2012 and later in May 2013, the Veterans
Integrated Service Network 18 Director issued two reports that found PVAHCS did not comply
with VHA’s scheduling policy. Our review also determined PVAHCS still did not comply with
VHA’s scheduling policy. As a result of using inappropriate scheduling practices, reported wait
times were unreliable, and we could not obtain reasonable assurance that all veterans seeking
care received the care they needed.



                                               iii
The emphasis by Ms. Sharon Helman, the Director of PVAHCS, on her “Wildly Important Goal”
(WIG) effort to improve access to primary care resulted in a misleading portrayal of veterans’
access to patient care. Despite her claimed improvements in access measures during fiscal year
(FY) 2013, we found her accomplishments related to primary care wait times and the third-next
available appointment were inaccurate or unsupported. After we published our Interim Report,
the Acting VA Secretary removed the 14-day scheduling goal from employee performance
contracts.

Inappropriate scheduling practices are a nationwide systemic problem. We identified multiple
types of scheduling practices in use that did not comply with VHA’s scheduling policy. These
practices became systemic because VHA did not hold senior headquarters and facility leadership
responsible and accountable for implementing action plans that addressed compliance with
scheduling procedures. In May 2013, the then-Deputy Under Secretary for Health for
Operations Management waived the FY 2013 annual requirement for facility directors to certify
compliance with the VHA scheduling directive, further reducing accountability over wait time
data integrity and compliance with appropriate scheduling practices. Additionally, the
breakdown of the ethics system within VHA contributed significantly to the questioning of the
reliability of VHA’s reported wait time data. VHA’s audit, directed by the former VA Secretary
in May 2014 following numerous allegations, also found that inappropriate scheduling practices
were a systemic problem nationwide.

Since the PVAHCS story first appeared in the national media, we received approximately
225 allegations regarding PVAHCS and approximately 445 allegations regarding manipulated
wait times at other VA medical facilities through the OIG Hotline, from Members of Congress,
VA employees, veterans and their families, and the media. The VA OIG Office of Investigations
opened investigations at 93 sites of care in response to allegations of wait time manipulations. In
particular, we focused on whether management ordered schedulers to falsify wait times and
EWL records or attempted to obstruct OIG or other investigative efforts. Investigations
continue, in coordination with the Department of Justice and the Federal Bureau of Investigation.
While most are still ongoing, these investigations confirmed wait time manipulations were
prevalent throughout VHA. As of August 2014, among the variations of wait time
manipulations, our ongoing investigations at the 93 sites have, thus far, found many medical
facilities were:

   Using the next available date as the desired date to “0-out” appointment wait times.
   Canceling appointments and rescheduling appointments to make wait times appear to be less
    than they actually were. We substantiated that management at one facility directed
    schedulers to do this.
   Using paper wait lists rather than official EWLs.
   Canceling consultations (consults) without appropriate clinical review.
   Altering clinic utilization rates to make it appear the clinic was meeting utilization goals.

Wherever we confirm potential criminal violations, we will present our findings to the
appropriate Federal prosecutor. If prosecution is declined, we will provide documented results
of our investigation to VA for appropriate administrative action. We will do the same if our
                                              iv
investigations substantiate manipulation of wait times but do not find evidence of any possible
criminal intent. Finally, we have also kept the U.S. Office of Special Counsel apprised of our
active criminal investigations as they relate to the U.S. Office of Special Counsel’s numerous
referrals to VA of whistleblower disclosures of allegations relating to wait times and scheduling
issues.

This report cannot capture the personal disappointment, frustration, and loss of faith of
individual veterans and their family members with a health care system that often could not
respond to their mental and physical health needs in a timely manner. Immediate and substantive
changes are needed. If headquarters and facility leadership are held accountable for fully
implementing VA’s action plans for this report’s 24 recommendations, VA can begin to regain
the trust of veterans and the American public. Employee commitment and morale can be rebuilt,
and most importantly, VA can move forward to provide accelerated, timely access to the
high-quality health care veterans have earned—when and where they need it.

The VA Secretary concurred with all 24 recommendations and submitted acceptable corrective
action plans. We will establish a rigorous follow up to ensure full implementation of all
corrective actions. The VA Secretary acknowledged that VA is in the midst of a very serious
crisis and will use the OIG’s recommendations to hone the focus of VA’s actions moving
forward. The VA Secretary also apologized to all veterans and stated VA will continue to listen
to veterans, their families, Veterans Service Organizations, and VA employees to improve access
to the care and benefits veterans earned and deserve.




RICHARD J. GRIFFIN 

Acting Inspector General 





                                               v
                                        TABLE OF CONTENTS 


Executive Summary ...................................................................................................................... i-v
 
Results and Recommendations ........................................................................................................1
 
    Question 1            Were There Clinically Significant Delays in Care? ............................................1
 
                         Recommendations .............................................................................................33
 
    Question 2            Did PVAHCS Omit the Names of Veterans Waiting for Care From Its 

                          Electronic Wait List? ........................................................................................34
 
                         Recommendations .............................................................................................47
 
    Question 3            Were PVAHCS Personnel Following Established Scheduling 

                          Procedures? .......................................................................................................49
 
                         Recommendations .............................................................................................53
 
    Question 4            Did the PVAHCS Culture Emphasize Goals at the Expense of Patient 

                          Care? .................................................................................................................55
 
                         Recommendations .............................................................................................63
 
    Question 5            Are Scheduling Deficiencies Systemic Throughout VHA?..............................65
 
                         Recommendations .............................................................................................74
 
Appendix A               Background .......................................................................................................76
 
Appendix B               Scope and Methodology....................................................................................79
 
Appendix C               Statistical Sampling Methodology ....................................................................84
 
Appendix D               Phoenix Outreach Campaign, Health Resource Center.....................................86
 
Appendix E               Chronology of OIG Oversight of Patient Wait Times ......................................90
 
Appendix F               OIG Oversight Reports on VA Patient Wait Times ..........................................94
 
Appendix G               VHA Directive 2010-027: VHA Outpatient Scheduling Processes and 

                         Procedures, June 9, 2010...................................................................................96
 
Appendix H               Memorandum From the Deputy Under Secretary for Health for 

                         Operations and Management, April 26, 2010, Titled: Inappropriate 

                         Scheduling Practices........................................................................................107
 
Appendix I               OIG Testimony on VA Patient Wait Times ....................................................114
 
Appendix J               Congressional Requests...................................................................................117
 
Appendix K               VA Secretary Comments.................................................................................119
 
Appendix L               Office of Inspector General Contact ...............................................................132
 
Appendix M               Report Distribution..........................................................................................133
 
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    RESULTS AND RECOMMENDATIONS
Question 1          Were There Clinically Significant Delays in Care?

                    The patient experiences described in this report revealed that various access
                    barriers adversely affected the quality of primary and specialty care at the
                    Phoenix VA Health Care System (PVAHCS). In the course of patient case
                    reviews, we also identified other quality of care issues unrelated to delays.
                    Patients recently hospitalized, treated in the emergency department (ED),
                    attempting to establish care, or seeking care while traveling or temporarily
                    living in Phoenix often had difficulty obtaining appointments.

                    In February 2014, a whistleblower alleged that 40 veterans died waiting for
                    appointments. We pursued this allegation, but the whistleblower did not
                    provide us with a list of 40 patient names. From our review of PVAHCS
                    electronic records, we were able to identify 40 patients who died while on
                    the EWL during the period April 2013 through April 2014. However, we
                    conducted a broader review of 3,409 patients identified from multiple
                    sources, including the EWL, various paper wait lists, the OIG Hotline, the
                    HVAC and other Congressional sources, and media reports.

                    OIG examined the Electronic Health Records (EHRs) and other information
                    for the 3,409 veteran patients, including the 40 patients, and identified
                    28 instances of clinically significant delays in care associated with access or
                    scheduling. Of these 28 patients, 6 were deceased. In addition, we identified
                    17 cases of care deficiencies that were unrelated to access or scheduling. Of
                    these 17 patients, 14 were deceased. We also found problems with access to
                    care for patients requiring Urology Services. As a result, Urology Services
                    at PVAHCS will be the subject of a subsequent report. The 45 cases
                    discussed in this report reflect unacceptable and troubling lapses in follow-
                    up, coordination, quality, and continuity of care.

                    During our review of EHRs, we considered the responsibilities and delivery
                    of medical services of primary care providers (PCPs) versus specialty care
                    providers (such as, urologists, endocrinologists, and cardiologists). Our
                    analysis found that the majority of the veteran patients we reviewed were on
                    official or unofficial wait lists and experienced delays accessing primary
                    care; in some cases, pressing clinical issues required specialty care, which
                    some patients were already receiving through VA or non-VA providers. For
                    example, a patient may have been seeing a VA cardiologist, but he was on
                    the wait list to see a PCP at the time of his death. While the case reviews in
                    this report document poor quality of care, we are unable to conclusively
                    assert that the absence of timely quality care caused the deaths of these
                    veterans.

VA Office of Inspector General                                                                     1
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Supplementing data gathered from the EHRs, we also analyzed information,
                    when available, from sources that included Medicare, non-VA health
                    records, death certificates, media reports, and interviews with VA staff.
                    Approximately 23 percent of the patients we reviewed received private
                    sector care funded by Medicare or Medicaid, and 35 percent had insurance
                    coverage beyond VA.

Clinically          Clinically significant delays were found in the medical and/or surgical care
Significant         or mental health care of 28 patients, including 6 patients who were deceased,
Delays
                    4 patients with newly diagnosed conditions, 17 patients with chronic
                    conditions, and 1 patient considered to be a risk to the public.

Deceased            Case 1
Patients
(Cases 1–5, 27)     A man in his late 60s had a history of homelessness, diabetes, head injury,
                    hepatitis, and low back pain. He had been seen at multiple VA health care
                    facilities across the United States during 2011–2013. He presented to the
                    PVAHCS ED with a minor injury and requested a place to stay. He was
                    found to have markedly elevated blood glucose (477 milligrams/deciliter
                    [mg/dl]) and was treated with insulin and intravenous fluids.

                    The patient stated that he did not want to take insulin, an injectable
                    medication, and was therefore started on metformin, an oral blood
                    sugar-lowering medication. The ED physician requested that he have a
                    follow-up appointment with Primary Care within 24 hours. The patient was
                    not given an appointment to be seen in Primary Care; multiple visits to
                    non-VA EDs ensued, and he was hospitalized at two different non-VA
                    hospitals. A death certificate obtained from the State of Arizona indicates
                    the patient died at a local non-VA hospital 8 weeks after the PVAHCS ED
                    visit.

                    Given the patient’s homelessness and uncontrolled diabetes, hospitalization
                    would have been optimal. In that he was not admitted, a more urgent
                    scheduling effort than a “Schedule an Appointment” consultation (consult)
                    was required.

                    Case 2

                    A man in his late 60s had a history of homelessness, hypertension, diabetes,
                    cirrhosis, congestive heart failure, and emphysema.         He had been
                    hospitalized at a New England VA Medical Center (VAMC) and at a Texas
                    VAMC. He presented to the PVAHCS ED with 1 week of generalized
                    weakness and diarrhea. He had recently moved to the Phoenix area from
                    New England.



VA Office of Inspector General                                                                    2
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    A Schedule an Appointment consult for a new patient primary care
                    appointment was placed on the day of the ED visit and again 2 days later.
                    After an additional 2 days, the patient was hospitalized at a non-VA hospital
                    for abdominal swelling and weakness. Eleven weeks after that admission, he
                    was hospitalized at a different non-VA hospital for hepatic encephalopathy.

                    More than 3 months after the patient’s death, PVAHCS staff attempted to
                    call the patient to schedule a primary care appointment.

                    Although unlikely to change the overall outcome for this patient with severe
                    liver disease and other medical problems, primary care management could
                    have improved symptom control and assisted with specialty care
                    coordination.

                    Case 3

                    A man in his mid-60s had a history of diabetes, hypertension,
                    hyperlipidemia, cigarette smoking, and post-traumatic stress disorder
                    (PTSD). He transferred his care from a Midwest VAMC and registered for
                    care at PVAHCS. The patient’s family reported that he was having flu-like
                    symptoms and that they attempted to get him an appointment at PVAHCS
                    several times after registration without success.

                    Four months after registering at PVAHCS, the patient sought care for flu-like
                    symptoms and shortness of breath at a non-VA medical facility, where he
                    was diagnosed and treated for pneumonia. A computerized tomography
                    (CT) scan performed at that facility revealed a large left pulmonary mass and
                    enlarged lymph nodes suggesting “local spread of malignancy.” The patient
                    was advised to follow up with his PCP to have a positron emission
                    tomography (PET) scan.

                    Two weeks later, the patient called PVAHCS and explained that he had been
                    recently discharged from a local hospital and needed “another test.” He was
                    advised to “walk-in,” which he did, and was seen that same day. On
                    examination, a provider noted an “enlarged, firm lymph node in the
                    supraclavicular [above the collarbone] area on the left side” and ordered a
                    CT scan of the chest. The CT scan, completed 1 month later, revealed a
                    large left hilar mass and bilateral mediastinal and hilar adenopathy. Four
                    weeks after the CT scan, the patient underwent “diagnostic bronchoscopy
                    with endobronchial biopsy & lavage + axillary needle biopsy.” A diagnosis
                    of lung cancer was made, and a PET scan confirmed widely metastatic
                    disease. Arrangements were made to enroll the patient in hospice. The EHR
                    contained no information indicating where the patient died, or whether
                    hospice care was actually provided prior to his death.



VA Office of Inspector General                                                                    3
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    There are two concerns in this case. First, the patient never received a
                    primary care appointment as requested when he registered at PVAHCS,
                    although this does not mean that the patient’s lung cancer would have been
                    detected sooner. The second concern is that once malignancy was suspected,
                    at least 9 weeks elapsed before a definitive diagnostic procedure was
                    performed.

                    Given the size and location of the tumor at the time of diagnosis, the delay in
                    care for this patient was unlikely to have had a negative effect on his overall
                    prognosis. However, his care might have been improved if palliative care
                    had been implemented sooner.

                    Case 4

                    A man in his late 70s had a history of hypertension, chronic alcohol abuse,
                    and obesity. In late 2011, the patient was seen in the PVAHCS ED for
                    “bronchitis vs early pneumonia.” He was not seen again at PVAHCS until
                    the summer of 2013, when he presented to the PVAHCS ED with lower
                    extremity edema. He was found to have deep vein thrombosis, was briefly
                    hospitalized, and discharged home with anticoagulant medications. At the
                    time, a Schedule an Appointment consult was entered for an urgent Primary
                    Care appointment.

                    The patient was seen again in the ED 2 weeks later for back pain. The
                    treating provider’s note included the statement, “Follow up with assigned
                    clinic or primary care physician within 72 hrs [hours] from this emergency
                    room visit today.” At that time the patient was noted to be anemic
                    (hematocrit 28 percent; normal is greater than 37).

                    The patient presented again to the ED 1 month later with a nosebleed, and a
                    nasal balloon was placed. He was seen in the ED 2 days later for removal of
                    the nasal balloon, and at that time, another Schedule an Appointment consult
                    was entered for Primary Care; an appointment “Within 1 week” was
                    requested.

                    One month later, the patient presented again to the PVAHCS ED with
                    weakness and decreased urine output, and he was admitted to the hospital.
                    He was noted to have a history of uncontrolled hypertension and was
                    considered to be volume depleted. Laboratory testing revealed acute renal
                    injury, hypoalbuminemia (low blood albumin), and nephrotic range
                    proteinuria (large amount of protein in the urine). Following a 1-week
                    hospitalization, he was discharged to a skilled nursing facility for
                    rehabilitation. He died 5 weeks later.

                    This patient had delayed Primary Care follow-up after several ED visits.
                    With anticoagulation, anemia, hypertension, and kidney disease, earlier

VA Office of Inspector General                                                                     4
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    primary care management could have expedited treatment of anemia and
                    hypertension and facilitated coordination of his specialty care.

                    Case 5

                    A man in his mid-50s had a history of pancreatitis, three cerebrovascular
                    accidents (strokes), hypertension, and polysubstance abuse. He moved to the
                    Phoenix area from the East Coast in early 2014. He had received treatment
                    at another VAMC as well as from non-VA providers prior to his relocation
                    to Phoenix.

                    The patient presented to the PVAHCS ED with abdominal pain, was given
                    medications for nausea and pain, instructed to follow up with a PCP “within
                    72 hours,” and discharged home. According to an entry on the Schedule an
                    Appointment consult record, the consult was canceled the next day and a
                    note was put in the EHR documents that a message was left for the patient to
                    call and schedule an appointment.

                    Ten days later the patient again presented to the ED because of persistent
                    pain and he had run out of pain medication. According to the nursing triage
                    note, “Pt [The patient] states he forgot to take his lisinopril [a blood pressure
                    lowering medication] today.” His blood pressure was 209/107 millimeters of
                    mercury (mm Hg). He requested methadone and Percocet [oxycodone and
                    acetaminophen] but was prescribed only a limited supply of oxycodone and a
                    medication for nausea. The plan outlined by the ED physician stated that the
                    patient should follow up with Primary Care within 2 days. The patient died
                    12 days later at a non-VA hospital. The cause of death given on the death
                    certificate was “multiple prescription medication intoxication.”

                    Despite this patient’s need for blood pressure monitoring and treatment, as
                    well as management of other chronic conditions, he never received an
                    appointment with Primary Care.

Patients With       Case 6
Newly Diagnos
ed Conditions       A man in his mid-50s presented to the PVAHCS ED with shortness of
                    breath, excessive sweating, thirst, and numbness in both hands. His blood
                    glucose level was markedly elevated (516 mg/dl), and he was prescribed
                    metformin and advised to see his PCP within 1 week. He was not seen by a
                    PCP, ran out of medication, and returned to the ED 1 month later with
                    symptoms of uncontrolled diabetes. His medications were renewed, and a
                    diabetes teaching appointment was made. Twelve weeks later he was seen in
                    Primary Care.




VA Office of Inspector General                                                                     5
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    This symptomatic patient with newly diagnosed diabetes was not scheduled
                    to see a PCP for almost 4 months after an ED visit at which significant
                    symptoms and laboratory abnormalities were noted.

                    Case 7

                    A man in his late 60s was evaluated in the PVAHCS ED for a subcutaneous
                    cyst on his back and treated with an antibiotic. Eight months later, he was
                    seen in the ED for chest pain.                  His blood pressure was
                    180/124 mm Hg, and an electrocardiogram showed an abnormality. After
                    his hypertension was treated and testing showed no myocardial infarction, he
                    was discharged with blood pressure medication and advised to follow up
                    with a PCP within 2 weeks. No Cardiology appointment was made, but a
                    Primary Care appointment was scheduled for 7 months later. A PVAHCS
                    physician who became aware of this patient’s situation evaluated him
                    5 months after the ED visit and entered a referral to cardiology. The patient
                    subsequently underwent coronary artery bypass surgery.

                    Although this patient had a favorable outcome, the delay in scheduling
                    follow-up care after an ED visit exposed him to unnecessary risk.

                    Case 8

                    A man in his early 40s presented to the PVAHCS ED concerned that he
                    might have melanoma, a potentially fatal form of skin cancer.
                     The ED provider note described skin lesions on each arm and the left ankle,
                    “present for about a year, recently getting larger, changing shape and
                    darker…could be melanoma, needs further evaluation.”

                    A referral to general surgery was requested by the ED provider, but this
                    consultation was canceled by a general surgeon the next day with a notation
                    that the patient should be evaluated and treated by dermatology.
                    Approximately 10 months later, the patient was evaluated in Primary Care,
                    and a consult was placed to Dermatology. The lesions were determined to be
                    benign.

                    Failure of basic consult management and coordination of care could have led
                    to serious consequences had these lesions ultimately been diagnosed as
                    melanoma.

                    Case 9

                    A man in his 60s was treated in the past at PVAHCS for substance abuse,
                    depression, and PTSD. After 15 years, he presented to the PVAHCS Mental
                    Health Clinic, and a psychiatrist wrote that he had PTSD, depression, alcohol
                    abuse, and multiple problems with his “primary support system.” At that

VA Office of Inspector General                                                                    6
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    visit, the patient’s blood pressure was 191/102 mm Hg and a repeat
                    measurement was 175/102 mm Hg; a Schedule an Appointment consult for
                    routine Primary Care follow-up was entered. One week later the patient was
                    added to the EWL for a PCP appointment, and an appointment was made
                    for 15 weeks after the Mental Health Clinic visit. The patient was seen again
                    in the Mental Health Clinic 5 weeks after the initial visit, but his blood
                    pressure was not recorded.

                    This patient’s hypertension warranted expeditious evaluation and treatment,
                    which did not occur.

Patients With       Case 10
Chronic
Conditions          A man in his 40s had a history of hypertension, traumatic brain injury, and
                    alcohol abuse. He reported to the OIG Hotline that he called PVAHCS for
                    an appointment to have his blood pressure checked and was told that an
                    appointment would not be available for 6 months. He stated that 3 months
                    after calling PVAHCS, he awoke with vertigo, nausea, and slurred
                    speech. These symptoms resolved within a day, and he did not seek medical
                    attention for them.       After an additional 2 months, he was in an
                    all-terrain vehicle accident and began having more frequent symptoms of
                    slurred speech and dizziness.

                    When he was seen for his scheduled Primary Care appointment, his blood
                    pressure was 163/107 mm Hg, and he was started on antihypertensive
                    medications, counseled on alcohol use, and asked to follow up in 2 weeks.
                    However, 1 week later he returned to the ED complaining of stuttering and
                    slurred speech, and brain imaging was performed that revealed a large tumor.
                    He subsequently underwent craniotomy and chemoradiation with no
                    apparent recurrence of tumor.

                    This patient waited 6 months for a PCP appointment, during which time
                    symptoms occurred that were attributed by the patient to hypertension.
                    Although timely Primary Care management might have led to an earlier
                    diagnosis of the patient’s brain tumor, his overall prognosis was probably
                    unchanged.

                    Case 11

                    A man in his early 60s had a history of alcohol abuse and untreated
                    hypertension. At the end of 2013, he presented to the Phoenix ED
                    complaining of 2 weeks of shortness of breath. He was admitted overnight,
                    diagnosed with “decompensated heart failure,” and scheduled for an
                    outpatient echocardiogram. A Schedule an Appointment consult was placed
                    for Primary Care. The echocardiogram was performed 3 weeks later.


VA Office of Inspector General                                                                    7
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    He returned to the ED after another 3 weeks with extreme shortness of breath
                    and vomiting, was admitted to the hospital, and soon transferred to the
                    Intensive Care Unit. The result of the recent echocardiogram was not readily
                    available because the interpretation had not yet been entered into the EHR.

                    After evaluation by cardiology, he was transferred emergently to a non-VA
                    hospital where a defibrillator and pacemaker were placed. The EHR reveals
                    that on the date of that transfer, the echocardiogram was interpreted as
                    showing severely decreased cardiac function (left ventricular ejection
                    fraction, 10 percent).

                    The Schedule an Appointment consult was closed, and the patient was placed
                    on the EWL with a comment stating that the “wait time is approximately
                    143 days for a new patient appointment.”

                    This patient had severely impaired heart function identified by
                    echocardiography. Prompt medical management might have prevented his
                    subsequent deterioration.

                    Case 12

                    A man in his 70s was found to have an elevated prostate-specific antigen
                    (PSA) and was referred by a PCP to the Urology Service. However, the
                    consult was amended as “needs another psa.” A Urology appointment was
                    scheduled for 3 months later, but this appointment was canceled by the
                    Urology Clinic 1 week before the scheduled date because “provider not
                    available”; the appointment was not rescheduled.

                    The PCP entered a referral for non-VA urology care 4 months after the
                    original request, but this was denied on the basis that “the facility provides
                    this service.” After an additional 4 months, the facility closed the Urology
                    Service consult request, indicating “no longer accepting consults.” A request
                    for non-VA urology care was again submitted, and the patient was seen by a
                    non-VA urologist more than 11 months after the initial request. Prostate
                    biopsy revealed prostate cancer.

                    This patient had a prolonged delay between the time his abnormal blood test
                    was noted and a diagnosis was made.

                    Case 13

                    A man in his late 60s had an extensive cardiac history, including a
                    myocardial infarction and placement of multiple coronary artery stents at
                    non-VA facilities. After experiencing financial difficulties and unable to
                    afford his medications, he was admitted to PVAHCS after presenting to the



VA Office of Inspector General                                                                    8
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    ED complaining of palpitations. Tests revealed no new abnormalities, and
                    he had marked symptomatic improvement after medications were resumed.

                    During his hospitalization, an outpatient cardiology appointment was
                    scheduled, but that appointment was canceled because “provider sick.” The
                    appointment was rescheduled for the following month, but that appointment
                    was canceled due to a “change in profile.” The consult was ultimately
                    discontinued as “too old.”

                    Four months after his initial ED presentation, during a routine Primary Care
                    appointment, another Cardiology Service consult was entered. However, the
                    consult was discontinued with the notation “cardiac work-up negative,
                    symptoms due to non-compliance.”

                    One month later, the patient presented to the ED with chest pain and
                    palpitations and was admitted to the hospital. Another Cardiology Service
                    consult was requested and the patient was seen as an outpatient the following
                    month.

                    This patient with significant cardiac disease experienced repeated delays in
                    establishing follow-up care with Cardiology. Although no negative clinical
                    consequences are certain, appropriate cardiology care may have prevented
                    re-hospitalization.

                    Case 14

                    A man in his 60s was found to have a nodular prostate. This finding
                    prompted his PCP to place a referral to the PVAHCS Urology Service. An
                    appointment was made for 3 months later, and the patient was seen and
                    referred to an outside facility for a prostate biopsy.

                    Approximately 6 weeks later, after the biopsy was completed, the patient
                    delivered a pathology report describing prostate cancer to the PVAHCS
                    Urology Clinic, and a VA urologist called the patient to inform him that
                    surgery would be arranged at a non-VA hospital.

                    In a complaint received by the OIG Hotline, the patient described a
                    frustrating group of events over the next 2 months in which PVAHCS
                    allegedly had no record of the non-VA referral for the procedure, the VA
                    urologist who called the patient left PVAHCS, outside pathology and/or
                    laboratory reports were misplaced, and multiple messages were not returned
                    from the Patient Advocate’s office. In mid-November, the Patient
                    Advocate’s office called the patient to state he had been approved for the
                    outside surgical procedure and four follow-up visits. Eight months after the
                    initial referral to Urology, the patient had an uneventful surgery.


VA Office of Inspector General                                                                    9
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    This patient with biopsy-proven prostate cancer experienced repeated
                    scheduling delays and poor coordination of care with non-VA providers.

                    Case 15

                    A man in his late 50s was seen in the PVAHCS ED for toe pain. Because of
                    an elevated blood glucose level (206 mg/dl), he was considered to possibly
                    have a new diagnosis of diabetes. He was subsequently seen in the
                    Ambulatory Clinic and received foot care.

                    The patient was seen in Primary Care 3 months after the ED visit and
                    hospitalized after he was found to have markedly elevated blood glucose
                    level (739 mg/dl). The patient reported multiple symptoms consistent with
                    uncontrolled diabetes, including weight loss, excessive urination, and
                    excessive drinking. He was discharged from the hospital on insulin and
                    metformin (an oral blood sugar-lowering medication).

                    The elapsed time between the patient’s ED visit and his initial appointment
                    to be seen in Primary Care was excessive. Had the patient been scheduled
                    more timely to be seen in Primary Care, it is likely that medications,
                    education, and risk-appropriate screenings could have prevented his later
                    inpatient admission.

                    Case 16

                    A man in his mid-30s had a history of anxiety and suicidal ideation. He
                    called PVAHCS for an appointment and was placed on the EWL. Five
                    weeks later, he was called by the facility and told he had a Primary Care
                    appointment in another 4 weeks.

                    The patient had been hospitalized at an East Coast VAMC for 1 week during
                    the prior year for suicidal ideation and anxiety. At discharge, he declined
                    further treatment, saying that he was moving to Phoenix. The East Coast
                    VAMC Suicide Prevention Coordinator (SPC) wrote a note in the EHR
                    indicating that PVAHCS SPC was alerted by a voice mail about this patient,
                    but there was no documentation from the PVAHCS SPC that acknowledged
                    receipt of that message.

                    The patient was seen in a PVAHCS Primary Care Clinic as scheduled,
                    and a referral was made to the Mental Health Clinic. Three weeks later, the
                    patient was contacted by the Mental Health Clinic to arrange an intake
                    appointment.

                    For this patient with a history of hospitalization for suicidal ideation and
                    anxiety, continued outpatient mental health treatment was important. The



VA Office of Inspector General                                                                  10
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    delay in scheduling an initial Primary Care appointment led to a delayed
                    referral to Mental Health.

                    Case 17

                    A man in his 50s had a history of chronic tobacco use, chronic obstructive
                    pulmonary disease (COPD), diabetes, and anxiety. In mid-December
                    2013, he presented to the PVAHCS ED with symptoms suggestive of an
                    upper respiratory infection and COPD. The patient was treated and
                    discharged with medications. Through a Schedule an Appointment consult,
                    Primary Care follow-up was requested within 1 month.

                    About 1 month later, the patient returned to the ED because he ran out of his
                    medications. He had not been scheduled to be seen in Primary Care. In
                    early February, he returned to the ED with symptoms suggestive of another
                    COPD flare. About 1 month later, he returned to the ED requesting
                    medication refills. In early May, he was seen for his first scheduled
                    appointment in Primary Care.

                    This case reveals a missed opportunity to treat a patient with a chronic
                    disease in an outpatient setting and demonstrates why some patients use the
                    ED for “primary care.” At least one of the patient’s COPD exacerbations
                    may have been averted if the patient had been seen in Primary Care sooner.

                    Case 18

                    A man in his late 80s lives in the Midwest for half the year and in Arizona
                    the other half. He receives both private care and VA care, and is registered
                    with and followed by Primary Care at a Midwest VAMC.

                    In late December 2013, the patient presented to the PVAHCS ED with
                    symptoms suggestive of a urinary tract infection, and blood tests revealed
                    evidence of kidney disease. He was prescribed an antibiotic, and
                    adjustments were made to his anti-hypertension regimen.

                    In early January 2014, the patient walked in to Primary Care for repeat labs
                    and a blood pressure check, as instructed by the ED physician. His blood
                    pressure was found to be 165/82 mm Hg. He had a new patient appointment
                    pending for about 3 weeks later at PVAHCS. When he arrived for that
                    appointment, he was not triaged, but rather, a licensed practical nurse (LPN)
                    informed him that he cannot have two Primary Care teams (that is, in
                    Phoenix and the Midwest). The patient left after choosing the Midwest
                    VAMC as his home base.

                    While VHA policy discourages the practice of assigning more than one
                    Primary Care team, it is not prohibited in all circumstances. VHA policy

VA Office of Inspector General                                                                  11
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




                    allows for the assignment of two Primary Care teams when veterans split
                    their time between different residences located in different geographic
                    areas.1 The patient could have had a Primary Care team assigned at
                    PVAHCS, while maintaining his care in the Midwest.

                    This was an elderly patient with a change in his blood pressure medication
                    regimen and significantly reduced renal function. The patient, after being on
                    his new regimen for 1 week, had persistent hypertension and might have
                    benefited from a medication adjustment. The patient presented for a
                    scheduled appointment but left after being given misinformation regarding
                    VHA management of veterans who split their residence between two
                    different locations.

                    Case 19

                    A man in his late 50s who had a history of methamphetamine abuse
                    presented to PVAHCS in early May 2013 complaining of new blurry vision
                    and was found to have a blood pressure of 224/124 mm Hg. He was
                    evaluated that day by Ophthalmology and referred to Primary Care. The
                    ophthalmologist who saw the patient in the following week attributed his
                    visual changes to hypertension.

                    Four months after his initial ED visit, the patient went to the ED requesting a
                    refill of medications he had been prescribed a few days earlier at a non-VA
                    hospital. He reported that he had been diagnosed with a stroke there. The
                    ED physician who saw him submitted another consult request for Primary
                    Care follow-up.

                    In early October, the patient contacted the facility requesting a new Primary
                    Care appointment “as soon as possible.” The first successfully scheduled
                    Primary Care appointment was made for 1 month later. In early December,
                    the patient completed an appointment in Primary Care. About a month later,
                    the patient was admitted to a non-VA hospital for a new stroke, which
                    resulted in significant loss of vision in both eyes.

                    The patient was an amphetamine abuser and had dangerously elevated blood
                    pressure during his initial visit. His wait for Primary Care was excessive,
                    and while waiting, he suffered a stroke. A timelier Primary Care visit could
                    have improved his blood pressure control and allowed for treatment of his
                    substance abuse which could have reduced his risk for stroke.




                    1
                        VHA Directive 2007-016, Coordinated Care Policy for Traveling Veterans, May 9, 2007.

VA Office of Inspector General                                                                            12
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Case 20

                    A man in his mid-50s was seen in the PVAHCS ED in late
                    January 2014, 2 weeks after his release from incarceration. He stated that his
                    blood pressure was 180/120 mm Hg while incarcerated and that he had not
                    been taking his medications after being released. In the ED, his blood
                    pressure was 162/128 mm Hg, and his urine tested positive for
                    amphetamines and cocaine. He was prescribed two medications for his
                    blood pressure and instructed to follow up with a PCP, even if outside the
                    VA system, or at an ED if his blood pressure readings remained markedly
                    elevated.

                    With blood pressure readings so high in a patient with significant heart
                    disease, any delay in follow-up and primary care is concerning. The EHR
                    did not reflect a sufficiently aggressive approach.

                    Case 21

                    A man in his early 60s had a history of diabetes, COPD, obstructive sleep
                    apnea, and obesity. He had been seen regularly at a PVAHCS Primary Care
                    Clinic from 2007 through 2011. He had no further encounters until early
                    March 2014 when he presented as a “walk-in” complaining of swelling and
                    shortness of breath. He said that he had recently lost his private insurance
                    and no longer had any medication. A nurse noted that his oxygen saturation
                    was reduced (89 percent; normal is greater than 95 percent). After
                    consulting with the physician on staff, the nurse advised the patient that she
                    was going to call Emergency Medical Services so that patient could be
                    transported to the nearest ED. The patient refused but did agree to drive
                    himself to the PVAHCS ED.

                    After an evaluation at the PVAHCS ED, the patient was admitted to the
                    medicine ward. He was restarted on his medications, pulmonary function
                    and other tests were scheduled, and a Schedule an Appointment consult was
                    placed for Primary Care. Six weeks later pulmonary function tests were
                    performed, revealing significant COPD.               Nineteen weeks after
                    hospitalization, the patient had not been scheduled with a PCP.

                    Despite discharge instructions indicating a need for Primary Care follow-up
                    within 2 weeks, this patient with significant pulmonary disease had not been
                    scheduled for Primary Care.

                    Case 22

                    A man in his late 60s was seen at the PVAHCS ED for right knee pain. In
                    the course of his evaluation, the patient was also found to have a markedly
                    elevated blood pressure (241/137 mm Hg). The ED provider treated his

VA Office of Inspector General                                                                  13
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    hypertension and requested that the patient be seen by Primary Care within a
                    week. Seven months later, the patient had not been scheduled for a Primary
                    Care appointment nor had he made other visits to PVAHCS.

                    This patient’s blood pressure elevation warranted treatment in the immediate
                    weeks after his ED visit, but no treatment was documented for the next
                    7 months.

                    Case 23

                    A man in his early 40s had a history of major depressive disorder, diabetes,
                    hyperlipidemia, and hypertension. His initial contact with PVAHCS was in
                    October 2013, when he was hospitalized for a major depressive disorder. At
                    that time laboratory values indicated very poor diabetes control and marked
                    cholesterol elevation (total cholesterol, 470 mg/dl; LDL cholesterol,
                    307 mg/dl). His medical regimen at discharge included drugs for diabetes
                    and hypercholesterolemia, including insulin, glyburide, metformin, and
                    atorvastatin.

                    The discharge summary specified, “please schedule for a new patient
                    Primary Care appointment.” The patient was not scheduled in Primary Care
                    for 6 months. When he was seen, his diabetes control was even worse and he
                    had blurred vision.

                    This patient, with very poorly controlled            diabetes   and   extreme
                    hyperlipidemia, had substantially delayed care.

                    Case 24

                    This patient is a man in his early 40s who registered for care at PVAHCS in
                    September 2012, and his first primary care appointment was 8 months later.
                    At that appointment, he revealed a history of hypertension, hyperlipidemia,
                    severe alcohol abuse, anxiety, and depression. He was later diagnosed with
                    steatohepatitis. The patient subsequently underwent successful treatment for
                    alcohol abuse.

                    This patient with significant mental and physical health issues waited
                    8 months for initiation of treatment.

                    Case 25

                    A man in his 60s presented to the PVAHCS ED in late January 2014 with
                    chest pain and shortness of breath. He reported that he had recently been
                    treated at a non-VA hospital for coronary artery disease and had a stent
                    placed. In the ED, an electrocardiogram showed no abnormalities, and blood
                    tests were negative for acute myocardial infarction. He was considered to


VA Office of Inspector General                                                                  14
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    have “atypical chest pain,” and a Schedule an Appointment consult was
                    placed. An appointment for Primary Care was made for 2 months later.
                    When he presented for that appointment, he was sent to the ED, where he
                    was admitted with a cough and shortness of breath. He was subsequently
                    evaluated by a pulmonologist and his symptoms were attributed to
                    gastroesophageal reflux.

                    This patient with known significant coronary artery disease had a delay in
                    initial primary care that might have exposed him to unnecessary risk.

                    Case 26

                    This man in his early 40s has a history of polysubstance abuse, panic
                    disorder, and homelessness.

                    In early December 2013, he was seen in the ED for a rash, and an ED
                    physician placed a consult for a PCP assignment. Throughout January
                    2014, the patient repeatedly sought care in the ED, frequently requesting
                    narcotics, and multiple references were made as to the need for “follow-up
                    with PCP.” In late January, an ED physician again entered a consult
                    requesting PCP services.

                    This high-risk patient with polysubstance abuse was utilizing the ED for
                    basic health care needs. As of June 3, 2014, the patient had not been seen in
                    Primary Care.

Patient Who         Case 27
Committed
Suicide             A man in his late 50s had a history of bipolar disorder, alcohol dependence,
(Case 27)
                    and four suicide attempts. He moved to Phoenix from Texas where he had
                    been followed by both Mental Health and Primary Care. His last visit with
                    his mental health provider in Texas was in late July 2013, with plans for a
                    follow-up in 4 months, which the patient did not attend.

                    In early December, the patient registered with PVAHCS and applied for an
                    outpatient medical appointment. He was placed on the EWL 3 days later. In
                    early April 2014, the patient contacted PVAHCS about the status of his
                    appointment and reported he was having “ongoing issues.” A medical
                    services assistant informed the patient that he could come into any clinic as a
                    “walk-in.”

                    On two occasions in mid-April, PVAHCS staff unsuccessfully attempted to
                    call the patient to set up a new appointment and left voice messages. In late
                    April, the patient called to schedule an appointment; he was informed that
                    someone would contact him. In early May, the facility made another



VA Office of Inspector General                                                                   15
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    unsuccessful attempt to contact the patient and also sent a letter to the patient
                    with the facility’s contact information.

                    Three days later, the patient committed suicide by gunshot. His brother told
                    the suicide prevention social worker that the patient had been depressed for a
                    long time.

                    This patient was at increased risk of suicide. A timely Primary Care
                    appointment was not available at the time of initial contact, and the patient
                    was placed on the facility’s EWL. Better availability of an appointment for
                    this patient might have changed the outcome.

Patient for         Case 28
Whom Risk to
the Public Was      This man in his early 60s had a history of schizophrenia. He was released
a Concern
                    from prison after being incarcerated for 16 years following a conviction for
                    manslaughter. One year later, he registered for care at PVAHCS at a “Stand
                    Down” (a homeless veteran outreach event), and he was given an
                    appointment for primary care for 4 months later. He was seen in Primary
                    Care 2 weeks before his scheduled appointment, and hallucinations and
                    suicidal ideation were discussed. He was referred to Mental Health.

                    Although it is unclear what PVAHCS knew about his history at the time of
                    registration, this patient was a potential threat to himself and others. He had
                    schizophrenia and a history of violence and was without medication and
                    having auditory hallucinations and suicidal ideation. A timely appointment
                    at the time of registration should have been provided.

Other Quality       In addition to the 28 cases discussed earlier that had clinically significant
of Care Issues      delays, OIG identified deficiencies unrelated to delays in the care of
                    17 patients, including 14 who were deceased.

Deceased            Case 29
Patients
(Cases 29–42)       A man in his early 60s had a history of severe cardiomyopathy (disease of
                    the heart muscle), hypertension, poorly controlled diabetes, hepatitis B,
                    hepatitis C, and tobacco use. An echocardiogram performed in late summer
                    2013 showed the patient’s cardiac function was severely depressed,
                    indicating severe heart failure and increased risk for abnormal heart rhythms
                    and sudden death.

                    The patient was followed in PVAHCS’s Primary Care and Cardiology
                    Clinics. Two days following the echocardiogram, a cardiologist entered a
                    consult to the Tucson, AZ, VAMC’s Cardiology-Electrophysiology Service
                    for consideration of an implantable cardioverter defibrillator (ICD) with or
                    without cardiac resynchronization. The patient had an ICD placed

VA Office of Inspector General                                                                    16
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    approximately 5 years previously, but it was removed because of
                    complications caused by either infection or metal allergy.

                    Two weeks after the consult to the Tucson VAMC was entered, a Cardiology
                    nurse practitioner at the Tucson VAMC called the patient. During that
                    conversation, the patient stated that he wanted allergy testing before any new
                    device was placed.

                    Five weeks later, an allergy patch test revealed no reaction to metals. The
                    PVAHCS cardiologist sent a note attached to the consult to the Tucson
                    VAMC’s Cardiology-Electrophysiology Service stating that the patient “can
                    now be scheduled for CRT-D [cardiac resynchronization therapy with
                    defibrillator].” The cardiologist recommended that the procedure be done in
                    the next 4 to 5 weeks.

                    One month later, the patient was seen by a PVAHCS cardiologist. The
                    cardiologist    added     another note     to    the    Tucson     VAMC
                    Cardiology-Electrophysiology consult stating that the patient needed to be
                    seen for device implantation.

                    In early 2014, the patient had a routine follow-up appointment at PVAHCS
                    in Primary Care. One week later PVAHCS was informed of his death.

                    Medical records from a local non-VA hospital indicated that 3 days prior to
                    his death, the patient’s family witnessed him collapse in his kitchen. Upon
                    arrival, Emergency Medical Services notes indicated that the patient was
                    pulseless and in ventricular fibrillation.

                    According to PVAHCS records, the patient was on an EWL for an
                    Endocrinology Service consult that had been placed in late spring of 2013 for
                    management of the patient’s poorly controlled diabetes. The patient
                    reportedly agreed to an appointment 1 month later, but he did not go to that
                    appointment.

                    The ICD should have been placed within a few months of the most current
                    plan. This patient’s severe cardiac disease placed him at risk for sudden
                    death at any time. ICD placement might have forestalled that death.

                    Case 30

                    A man in his mid-50s had a history of hypertension and chronic pain due to
                    degenerative joint disease involving his neck. He was followed by Primary
                    Care, and his pain management plan consisted of physical therapy and
                    limited use of hydrocodone. He was awaiting a Neurosurgery evaluation of
                    his neck to determine if a surgical intervention could help with his pain.



VA Office of Inspector General                                                                  17
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    In mid-2013, the patient called his PCP requesting stronger pain medication,
                    as his usual medication was not helping his “torso pain.” Two days later, the
                    provider documented that the patient could pick up an alternative pain
                    medication at the outpatient pharmacy. There is no documentation in the
                    EHR that the provider evaluated the patient by phone or in person.

                    Two days after starting the new medication, the patient presented to the ED
                    complaining of severe abdominal pain. He was noted to have “10/10” (worst
                    possible) abdominal pain, a temperature of 95 degrees Fahrenheit, and a
                    pulse of 111 beats per minute. He was evaluated by an ED physician within
                    20 minutes. A CT scan of his abdomen, completed 2 hours later, showed a
                    perforated bowel (a hole in the wall of the bowel that can quickly lead to
                    life-threatening infection and/or sepsis). A surgical consult was requested
                    4 hours after the CT scan, and another hour passed before a surgery resident
                    evaluated the patient. The patient was taken to the operating room for an
                    exploratory laparotomy (a surgery that opens the abdominal cavity) within
                    2 hours of the surgeon’s evaluation. The patient remained on pressors
                    (intravenous medications used to elevate blood pressure in the setting of
                    shock) and ventilator support postoperatively. Two days later, the family
                    removed life support and the patient died.

                    This patient being treated for chronic neck pain described a new location of
                    pain, and this description should have prompted a telephone or face-to-face
                    assessment. At his final presentation to the ED, hypothermia and tachycardia
                    warranted prompt and intensive interventions. Earlier diagnosis and
                    treatment might have altered the outcome in this case.

                    Case 31

                    A man in his mid-60s had a history of prostate cancer, diabetes, PTSD, and
                    morbid obesity. He was followed routinely in Primary Care at PVAHCS.

                    The patient was diagnosed with prostate cancer at another VA facility in the
                    fall of 2010. He was treated with radiation therapy followed by leuprolide
                    injections.

                    His last normal recorded PSA was at the “undetectable” level, noted at a
                    2012 Urology Clinic follow-up appointment. The patient was instructed by
                    the urologist to return in 6 months for an examination and repeat PSA.
                    According to the patient’s EHR, that follow-up appointment was canceled by
                    Urology staff 3 months before the appointment was to occur. There was no
                    evidence in the EHR indicating that staff attempted to contact the patient to
                    reschedule this appointment.

                    Three months after the “canceled” appointment, during a Compensation and
                    Pension examination, another PSA level was ordered. The result showed a

VA Office of Inspector General                                                                  18
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    value of 0.90 ng/ml. (In a patient with a history of prostate cancer and a
                    history of post-treatment undetectable PSA levels, any measurable PSA
                    suggests recurrence of disease.) Seven months later, as part of a routine
                    appointment, the patient’s PCP ordered laboratory tests, including a PSA.
                    The value was then 98 ng/ml. A Urology Service consult was placed.

                    Later that month, the patient was seen at the PVAHCS ED complaining of
                    2 months of back pain. X-rays revealed lytic (bone destructive) lesions in his
                    lumbar spine, presumably from metastatic prostate cancer. Urology
                    evaluated the patient that same day, and treatment was initiated. In early
                    2014, the patient was admitted to hospice; he died 2 months later.

                    At one of this patient’s canceled Urology Service appointments, providers
                    might have identified or confirmed the patient’s rising PSA, which could
                    have prompted an earlier initiation of aggressive treatment.

                    Case 32

                    A man in his late 50s was hospitalized at PVAHCS in late 2013 after liver
                    nodules were found on a CT scan obtained at a non-VA hospital. A liver
                    biopsy was required for a definitive diagnosis, and this was anticipated to be
                    done after discharge from PVAHCS. Two Schedule an Appointment
                    consults were entered during that inpatient stay—both for Primary Care and
                    both were routine. Two days after discharge, a post-hospitalization call was
                    made to the patient, but staff were unable to make contact with the patient, as
                    his listed contact information was incorrect. Two additional attempts to
                    reach the patient and discuss biopsy scheduling were also documented.

                    A week after discharge the patient was seen in the PVAHCS ED. He was
                    under the impression that he was to return that day to be admitted for a liver
                    biopsy. He was sent home and advised to contact his PCP; he was seen in
                    Primary Care 3 days later at an initial visit to establish care.

                    One week later, the patient was readmitted to PVAHCS for severe groin pain
                    and worsening edema. He was evaluated by the Hematology/Oncology
                    Service the following day, but because of his advanced disease,
                    chemotherapy was not advised. He died 3 days later in the PVAHCS
                    Community Living Center hospice unit.

                    In the care of this patient, there was significant confusion surrounding when
                    or if the patient would have a liver biopsy. Given his clinical state, when the
                    patient returned to the ED with intractable abdominal pain and probable
                    metastatic disease, an admission for pain control should have been
                    considered. Ultimately, a biopsy was not performed due to impaired blood
                    coagulation, making the risk of bleeding complications too great to safely
                    undergo the procedure.

VA Office of Inspector General                                                                   19
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Case 33

                    A man in his mid-60s had a history of aortic valve replacement and was
                    being treated with an anticoagulant medication. He also had a history of
                    coronary heart disease, hypertension, and iron deficiency anemia. He was
                    followed routinely at PVAHCS and was admitted from the ED in the
                    summer of 2013 for an abnormality in his bloodwork that suggested his
                    anticoagulant dosage needed adjusting. At that time, he reported symptoms
                    of fatigue and blood in his stool, received iron infusions, and was discharged
                    with plans to get a colonoscopy and upper gastrointestinal endoscopy as an
                    outpatient. The patient was contacted 5 days after discharge to set up an
                    appointment with gastroenterology, but he informed the caller that he
                    planned to get his care “outside the VA.” For the following 3 months, the
                    patient’s only contact with PVAHCS was with the Anticoagulation Clinic
                    staff.

                    Six weeks after discharge from the hospital, the patient reported to the
                    Anticoagulation Clinic pharmacist that he had dizziness and a low home
                    blood pressure reading (93/47 mm Hg). The pharmacist advised the patient
                    to hold his blood pressure medications, come to the clinic for an evaluation,
                    and contact his provider. On the following day, the patient’s PVAHCS PCP
                    acknowledged receipt of the pharmacist’s note. The final note in the EHR
                    was approximately 5 weeks later when the patient’s wife called to inform
                    facility staff of his death.

                    This patient had symptomatic hypotension that was brought to the attention
                    of a PCP. There is, however, no indication that anyone from Primary Care
                    attempted to contact the patient. Though it appears in the record that the
                    patient was getting private medical care, a patient reporting symptomatic
                    hypotension should have been immediately contacted by a staff member to
                    ensure an appropriate evaluation.

                    Case 34

                    A man in his mid-60s had a history of tobacco use and persistent cough. He
                    presented to the PVAHCS ED in the spring of 2013 with symptoms
                    suggestive of an acute stroke.         He was admitted, and during the
                    hospitalization, a chest X-ray revealed a large density in the right lung. The
                    radiologist recommended a CT scan of the chest for further evaluation of this
                    lesion. The discharge summary from that admission cited the lung
                    abnormality and advised that the patient make an appointment in Primary
                    Care, and obtain a CT scan of his chest in 2 months.

                    Six weeks later, the patient presented to the ED complaining of shortness of
                    breath. He was admitted to the facility and diagnosed with advanced


VA Office of Inspector General                                                                  20
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    non-small cell lung cancer. The patient was discharged to home hospice and
                    died several days later.

                    This was a patient with a newly described lung mass who required further
                    diagnostic evaluation. If the CT scan could not have been performed during
                    the patient’s hospitalization, an acceptable alternative would have been to
                    discharge the patient with a scheduled appointment in radiology. The
                    hospital discharge plan specified that the patient should schedule an
                    appointment in Primary Care in 1–2 weeks and “obtain a CT scan of the
                    chest in two months”; this is an unacceptable follow-up recommendation for
                    a large lung mass in a patient with a history of cough and tobacco use.

                    Case 35

                    A man in his late 40s with a history of depression presented to the PVAHCS
                    ED in July of 2013. He had been living on the West Coast, getting private
                    psychiatric care, when he began having paranoid delusional thoughts. He
                    called his parents in Arizona asking for help. They traveled to his home and
                    brought him immediately to the PVAHCS ED.

                    The patient was evaluated by a mental health nurse in the ED. The patient
                    reported to the nurse that he had been started on sertraline 5 days earlier.
                    Additionally, he commented that 6 years prior, he had been prescribed
                    paroxetine but had to stop taking this medication when he began having
                    suicidal thoughts. He denied any history of suicide attempts and also denied
                    any current suicidal or homicidal ideation. He declined hospital admission
                    but did agree to stay with his parents and report to the Mental Health Clinic
                    the following morning. At approximately 11 a.m. the following morning, the
                    patient committed suicide.

                    This patient’s symptoms at presentation were consistent with a
                    depression-induced psychosis.       Given his previous reaction to an
                    antidepressant medication, as well as the fact that he was recently started on
                    another antidepressant, hospital staff should have pursued processes for
                    involuntary admission.

                    Case 36

                    A man in his late 60s had a history of multiple medical problems with
                    depression and chronic pain. He was hospitalized at PVAHCS after
                    presenting to the facility’s Mental Health Clinic in the spring of 2012. He
                    continued to be followed by Primary Care, with some limited involvement of
                    the Pain Clinic. His last primary care visit was in the spring of 2013 for pain
                    control follow-up; at that time his pain medications were adjusted, his
                    sleeping medication dose was increased, and he was instructed to return in
                    6 months.

VA Office of Inspector General                                                                   21
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    Three days later, the patient presented to the ED complaining of ongoing
                    pain that was unresponsive to treatment. Though the patient denied suicidal
                    or homicidal ideation at this visit, the ED physician documented that the
                    patient stated, “the pain is so frustrating, it might make him suicidal.” The
                    patient was described as “despondent” when he left the ED after being given
                    a cervical collar and pain medication.

                    Several days later, the patient presented unscheduled to the Primary Care
                    Clinic and was evaluated by a registered nurse. He denied suicidal or
                    homicidal ideation. According to the EHR, “Vet states is in ‘so much pain
                    right now I could cry’.” The nurse documented that she suggested he report
                    to the Mental Health Walk-In Clinic, but the patient declined.

                    On the same day, the patient called the National Suicide Prevention Hotline.
                    He complained of severe and chronic pain unresponsive to treatment, but no
                    response is recorded regarding questions about suicidal ideation or intent.
                    According to the EHR, the “Veteran stated his doctor is not calling him
                    back.” A consult was sent to the local SPC at PVAHCS, but the consult was
                    closed with a comment from the local SPC: “Call not related to SDV
                    [self-directed violence]. Will forward to Veteran's PACT team. Please close
                    consult.” Six days later, the patient committed suicide.

                    Because of his past hospitalization for suicidal ideation, his voicing of ideas
                    about suicide in the ED, and his call to the National Suicide Prevention
                    Hotline, this patient should have been identified and managed as a patient at
                    high risk for suicide.

                    Case 37

                    A man in his 60s moved to Phoenix in August 2010 to care for his elderly
                    mother. He reported a history of chronic cough and occupational exposure to
                    asbestos to a PVAHCS provider 2 months later. A chest X-ray showed a
                    suspicious lesion, and the patient underwent a CT-guided lung biopsy in
                    early December. The biopsy did not reveal malignancy, but it was noted that
                    the tissue may not “represent the lesion” and close follow-up was
                    recommended. A request for a CT scan to be done 3 months later was
                    entered, but the scan was never scheduled, and the order was canceled with a
                    comment from the radiology staff to “resubmit if needed.”

                    The patient was seen for a routine appointment 5 months after the biopsy, but
                    there was no documented discussion of the CT scan and the scan was not
                    reordered. The patient was seen 5 months later, and X-rays were obtained to
                    evaluate knee pain. About 3 weeks later, he was seen in the ED with
                    persistent leg pain.



VA Office of Inspector General                                                                   22
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    Eleven months after the lung biopsy, a PVAHCS social worker documented
                    a phone call from a non-VA hospital indicating that the patient had a
                    craniotomy and was diagnosed with metastatic malignant melanoma. He
                    subsequently received comprehensive palliative care at the PVAHCS prior to
                    his death 6 months later.

                    This patient had poor follow-up care following a lung biopsy. Although the
                    cause of this patient’s death was metastatic melanoma and may not have
                    been related to the lung mass, management of the mass was inadequate.

                    Case 38

                    A man in his late 20s was seen by PVAHCS Mental Health and Primary
                    Care beginning in 2010. He had a history of PTSD, bipolar disorder, and
                    polysubstance abuse. In early 2012, he was hospitalized for suicidal
                    behavior and a psychotic episode related to substance abuse. He completed a
                    sobriety program and was followed by Mental Health every 1 to 2 months for
                    the next several months. His last visit with Mental Health was in the
                    summer of 2012, and his psychiatrist recommended follow-up in
                    “1-2 months, or sooner as needed.” The patient did not keep the follow-up
                    appointment scheduled for 6 weeks after that last appointment, and an
                    attempt to contact him was not made until 12 weeks later. The patient
                    contacted the facility 3 days after the missed appointment and spoke with a
                    nurse about a worsening skin lesion. He was instructed to go to the ED for
                    evaluation, but there were no further encounters with PVAHCS documented.
                    He died 5 weeks later, and the death certificate obtained by OIG states that
                    the cause of death was accidental “acute heroin toxicity.”

                    This patient was at high risk given recent suicidal behavior and
                    hospitalization with psychosis. He was lost to follow-up after he did not
                    appear for an appointment. More timely attempts to contact the patient
                    should have occurred.

                    Case 39

                    A man in his 30s was first seen at PVAHCS in mid-2011. He had transferred
                    his care from another VAMC, where he had been treated for schizoaffective
                    disorder with disorganized thinking, paranoid ideation, and hallucinations; he
                    also had a history of PTSD. The patient had made three suicide attempts,
                    requiring hospitalization, in the prior 2 years. He was admitted to the
                    inpatient mental health unit at PVAHCS in the spring of 2012 and transferred
                    to a non-VA hospital after assaulting a staff member on the unit.

                    He presented to the PVAHCS ED 2 months later after calling the crisis line.
                    He reportedly called 911 and said that he was suicidal because he could not
                    afford to stay at his motel. He told the triage nurse that he “hates life and it

VA Office of Inspector General                                                                   23
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    is so stressful he doesn’t want to be in it.” He was evaluated by a mental
                    health consultant, and his risk for suicide was considered to be low. The
                    patient reported that he “would feel okay if he gets some place to live.” In
                    the ED, he was treated with new medications (loxapine and mirtazapine)
                    with a plan to follow up with his private mental health provider or the
                    PVAHCS Mental Health Walk-In Clinic. The following day the patient
                    committed suicide.

                    Because this patient had a history of multiple suicide attempts, psychosis,
                    and an unstable housing situation, an admission to monitor initiation of
                    antipsychotic and antidepressant medications would have been a more
                    appropriate management plan.

                    Case 40

                    A man in his 20s had been evacuated from Afghanistan in 2009 because of
                    shrapnel injuries and loss of consciousness. He had a history of seven
                    mental health hospitalizations while in the military and a history of
                    self-injurious behavior. He presented to PVAHCS in September 2012 with
                    anxiety and several weeks later was admitted to a non-VA hospital following
                    a suicide attempt. He was subsequently admitted to the PVAHCS inpatient
                    mental health unit after presenting to the ED complaining of feeling angry all
                    the time. He reported suicidal ideation, thoughts of harming his brother, and
                    his sense that once enraged, he did not know if he could stop himself.

                    The following day, a team had a conference, to which the patient presented
                    as upset. His mother stated that the patient told his brother that “all I would
                    have to do when I get out is point a gun at a cop and they would shoot me. I
                    won’t have to kill myself.” The patient’s mother expressed concerns
                    regarding the safety of the patient. Documentation noted the patient “is not
                    exhibiting signs of SI/HI [suicidal or homicidal ideation] or medication
                    withdrawal. Veteran’s mother verbalized she was unwilling to petition
                    [pursuit of involuntary admission] him at this time.” He was discharged.
                    Two days later, he was found dead in his apartment of a possible overdose on
                    medication.

                    There was not a delay in care, but this case raised a quality of care concern.
                    In the context of his presentation the day before and at the conference, his
                    prior mental health history, and the fact that he had not been stabilized on
                    medication, it would have been prudent to either observe or stabilize the
                    patient for a longer period, or for the providers to pursue a petition of
                    involuntary admission, if the patient was unwilling to stay.




VA Office of Inspector General                                                                   24
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                    Case 41

                    A man in his 70s had a history of significant dementia. The case
                    management notes stated, that for a period of time the veteran lived “off the
                    grid,” with no electricity or telephone at his residence. He was followed in a
                    PVAHCS Primary Care Clinic since 2008, at which time he had not been
                    seen by a medical provider for over 4 years. The patient was seen several
                    times in 2008 with his case manager present but then only for an ED visit in
                    May of 2009, at which time he opted not to wait after being triaged for “flu
                    like” symptoms.

                    The medical record noted that the patient had been scheduled for three
                    appointments in 2010 and 2011, all of which were canceled by the clinic
                    staff without any notation explaining the reason for cancelation. In addition,
                    there is no documentation that attempts were made to reschedule these
                    canceled appointments. A death certificate obtained from the State of
                    Arizona indicated that the patient was found dead in April 2014. The cause
                    of death was listed as “hypertensive and arteriosclerotic cardiovascular
                    disease.”

                    In a patient with such severe cognitive impairment, his remote and isolated
                    living conditions would have made his care management challenging;
                    however, it is concerning that three appointments were scheduled and
                    subsequently canceled by PVAHCS staff without a documented effort to
                    reschedule. Such a pattern would likely discourage any patient from relying
                    on this facility for his or her health care, but in a patient with such significant
                    cognitive impairment, it is unlikely that he could have initiated the process of
                    rescheduling these canceled appointments.

                    Case 42

                    A man in his mid-50s had a history of hypertension, stroke, chronic
                    hepatitis C, and alcohol and polysubstance abuse disorders. His first
                    presentation to the VA system was when he visited the PVAHCS ED with a
                    complaint of dizziness. He was prescribed medications for nausea and
                    dizziness and discharged. The plan was for the patient to follow up with
                    Primary Care within 1 week.

                    The patient was admitted to the PVAHCS Substance Abuse Residential
                    Rehabilitation Treatment Program 3 weeks later. He completed the
                    treatment program after approximately 1 month and was discharged, taking
                    only blood pressure medications. A suicide risk assessment completed prior
                    to discharge found the patient’s suicide risk to be “low or nil.” Discharge
                    instructions included that the patient was “to go to eligibility to get a Primary
                    Care physician assigned for further follow up.” Three days after discharge,


VA Office of Inspector General                                                                      25
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    an appointment to establish care with a PCP was made for 12 weeks later,
                    but the patient committed suicide 2 weeks before the appointment.

                    Although any relation to the patient’s death is unlikely, this patient should
                    have had follow-up established with a PCP or mental health provider sooner
                    than the 12 weeks that were planned.

Other Patients      Case 43

                    A man in his mid-60s had a history of asthma and COPD. He presented to
                    the PVAHCS ED after having been recently discharged from a non-VA
                    hospital with several medications that needed to be filled. A Schedule an
                    Appointment consult was placed that requested Primary Care follow-up
                    “within one week.” Two weeks later, the patient was hospitalized at another
                    non-VA hospital for pneumonia. Three months later, he was again
                    hospitalized for an asthma exacerbation.

                    He presented to PVAHCS Primary Care approximately 1 week later as a
                    “walk-in,” seeking to have his prescriptions from an outside hospitalization
                    filled. At that time, he received both prescriptions as well as a new patient
                    appointment for 10 days later. The patient completed that appointment and
                    is currently followed as an outpatient.

                    With the history of asthma and COPD as well as a recent hospitalization, this
                    patient should have received primary care follow-up soon after his initial
                    ED visit. It is possible that earlier management and monitoring within
                    Primary Care may have prevented subsequent hospitalizations.

                    Case 44

                    A man in his mid-50s had a past history of hyperlipidemia. He registered for
                    care at PVAHCS in the spring of 2012, requesting a routine appointment in
                    Primary Care. The patient was given an appointment for 4 months later. In
                    mid-June, the appointment was canceled by the “clinic” and not rescheduled.
                    The patient was not made aware of the cancelation and he reported that he
                    showed for the appointment only to discover it had been canceled. There is
                    no evidence in the EHR that the patient was offered another appointment
                    time. At the end of 2013, the patient reported to an outside ED with chest
                    pain and was taken the following day to the cardiology lab for left heart
                    catheterization with stent placement.

                    A week later, the patient reported to a PVAHCS Primary Care Clinic
                    requesting medications and cardiology follow-up at PVAHCS. The patient
                    was seen by a physician that day, and at that time, a consult for cardiology
                    was placed, as the patient could not afford to “pay out-of-pocket” for a
                    post-procedure cardiology office visit.

VA Office of Inspector General                                                                  26
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    The patient also reported that when he submitted all the medical bills from
                    his outside hospital care to the PVAHCS business office, he was denied
                    reimbursement, as “he was not enrolled in a Primary Care Clinic within the
                    VA.”

                    The delay between the patient’s registration and initial request for care and
                    an actual appointment was excessive, and when that appointment was
                    inexplicably canceled, PVAHCS staff did not attempt to reschedule the
                    patient. In addition, managing the patient’s post-procedure cardiology
                    follow-up and reimbursing him for life-saving interventions at an outside
                    facility failed to happen in a timely and coordinated manner.

                    Case 45

                    A man in his late 60s was followed in a PVAHCS Primary Care Clinic. He
                    had a history of diabetes, hypertension, COPD, coronary artery disease,
                    PTSD, depression, and gastroesophageal reflux. He underwent a barium
                    swallow X-ray at a non-VA facility, and 2 days later, home telemetry
                    recorded a blood pressure of 82/67 and that “he’s been terrible sick the past
                    two day since he had his barium swallow … he’s had a terrible headache,
                    chest pain, abdominal pain and constipation.” The patient and his wife
                    presented to his PCP as instructed and were advised to “push fluids, 7 cups
                    water daily,” as the patient’s wife admitted his fluid intake had been low.
                    The patient’s temperature was not taken, no abdominal exam was recorded,
                    and no diagnostic studies were obtained. Two days later, the patient’s wife
                    took him to a non-VA hospital where he was febrile and admitted for
                    urosepsis.

                    The quality of care concern in this case relates to an incomplete evaluation of
                    an ill hypotensive patient, including the lack of a temperature recording or
                    examination of the abdomen. Earlier treatment could have been initiated if
                    an appropriate evaluation had been conducted.

Access to           Although we found a process to provide ready access to mental health
Mental Health       assessment, triage, and stabilization had been in place at PVAHCS, we
Care at
PVAHCS
                    identified issues with continuity of care, care transitions, delays in
                    assignment to a dedicated psychiatrist/mental health nurse practitioner in the
                    outpatient mental health clinic, and impaired access to specific types of
                    evidence-based psychotherapies.      Mental health leadership had been
                    addressing these issues at the time of our April–May 2014 visits to the
                    facility.




VA Office of Inspector General                                                                   27
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




Access,             For several years, PVAHCS has increasingly used a mental health
Continuity of       consultation stabilization triage assessment team (CSTAT) to address access
Care, and
Provider
                    for mental health patients. The CSTAT essentially serves as a daily walk-in
Assignment          clinic. New patients presenting for assessment, patients discharged from the
                    hospital, and patients in need of a follow-up appointment but who could not
                    get a timely appointment with their assigned provider in the mental health
                    outpatient clinic, were told to go to CSTAT. On one hand, sending patients
                    to a CSTAT clinic can provide ready and potentially critical access to mental
                    health care, especially for outpatients in need of timely assessment and/or
                    stabilization interventions, and can enhance timely follow-up when a mental
                    health outpatient service is short-staffed. However, when a facility becomes
                    reliant on a CSTAT-like clinic to increasingly provide daily routine or
                    ongoing mental health services because of diminished access to the regular
                    outpatient mental health clinic, issues with provider continuity, care
                    transitions, and provider assignment arise.

                    One issue raised during our interviews was that if a new mental health
                    patient could not be seen for a scheduled appointment with an assigned
                    mental health provider in a mental health clinic, they would be seen in
                    CSTAT instead. If provider availability was still an issue, additional
                    follow-up appointments would occur in CSTAT until assignment to a
                    provider could be accommodated. Although patients could readily access
                    mental health care, actual assignment to a provider might not occur or could
                    be delayed several months. Some new patients might receive a timely initial
                    visit but not a full comprehensive multidisciplinary evaluation until a few
                    months later. In addition, since CSTAT appointments were not with a
                    particular provider, at each CSTAT visit, patients might see different
                    clinicians, an arrangement that lacks continuity of care and the inherent
                    benefits of being assessed and treated by a consistently assigned provider and
                    treatment team.

                    Two additional concerns expressed were: (1) when a mental health provider
                    leaves the facility, the process has been to send the provider’s former patients
                    to CSTAT instead of redistributing or reassigning the patients among
                    existing mental health outpatient clinicians, and (2) transfer patients are sent
                    for walk-in appointments instead of being scheduled for regular
                    appointments.

                    Further, if an assigned patient’s provider did not have availability for a
                    patient to be seen for follow-up in the clinician’s recommended time frame,
                    the patient might also be sent to CSTAT, again raising continuity of care
                    issues.

                    Although CSTAT enabled patients to be seen, broader qualitative issues,
                    such as continuity of care and delayed assignment to a dedicated mental


VA Office of Inspector General                                                                   28
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    health provider, are not addressed by overreliance on this alternative clinic
                    structure.

Care                Patients discharged from the inpatient Mental Health Service, especially but
Transitions         not exclusively those without an assigned Mental Health provider, were often
                    sent to CSTAT for their 14-day follow-up appointment, which is required by
                    VHA policy.2 CSTAT, by design, was a walk-in clinic to provide ready
                    access. However, because it was a walk-in clinic, depending on the patient
                    volume and acuity, the day a recently discharged patient presented for
                    follow-up, the patient might experience a several hour wait to be seen.

                    Patients recently discharged from inpatient mental health care are at
                    increased risk, which in part is the rationale for VHA’s goal to maintain at
                    least phone contact with these patients within 7 days of discharge and
                    face-to-face contact within 14 days of discharge. A concern raised during an
                    interview was that some recently discharged patients would become
                    frustrated and opt to leave CSTAT before being seen by a clinician because
                    of long waits in this walk-in clinic. Though certainly better than a situation
                    where access is not available, the arrangement is not ideal when compared
                    with having a traditional scheduled appointment with an assigned provider in
                    a mental health clinic.

Changes             Since coming to PVAHCS in October 2013, the new Chief of Psychiatry
Instituted by the   successfully recruited 13 additional mental health-prescribing clinicians to
Chief of
Psychiatry
                    the facility within a 7-month period and has begun reorganizing the service.
                    Nine of the new providers are presently on board (several we interviewed in
                    early June had started within the prior 2–3 months), one was due to start the
                    first week in June, and three were in the credentialing process. The influx in
                    new psychiatrists has provided an ability to assign patients to a mental health
                    provider and an availability of new and established patient appointments.

                    As part of a reorganization process, starting in April 2014, the facility has
                    begun implementing a team-based model whereby each day the walk-in
                    clinic will be arranged around teams comprising three to four prescribing
                    clinicians (psychiatrists and nurse practitioners), one psychologist, one social
                    worker, and nursing staff. Each of the new teams were rolled out in 2-week
                    intervals. In place of CSTAT, each team has been assigned a clinic day
                    during which clinicians will see both new patients with scheduled
                    appointments in addition to walk-in patients. The new patients and walk-in
                    patients (who do not already have an assigned Mental Health provider) who
                    are seen that day will then become assigned to one of that team’s providers
                    and be followed by that provider in his or her regular Mental Health
                    Outpatient Clinic. As of July 10, 2014, all five teams were operational with

                    2
                     VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and
                    Clinics, September 11, 2008.

VA Office of Inspector General                                                                   29
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    some prescribing providers covering 2 days and use of a locum tenens
                    (temporary) physician as part of the Friday team. Newly hired providers
                    who came on board in mid-July were to complete the teams allowing one
                    distinct team of providers per day. The new structure should help provide
                    both enhanced access and continuity of care.

Delayed Access      VHA has disseminated different evidence-based psychotherapies during
to Individual       recent years including cognitive behavioral therapy (CBT) and acceptance
and Specialized
Psychotherapy
                    and commitment therapy for depression, cognitive processing therapy and
Services            prolonged exposure therapy for PTSD, and dialectical behavioral therapy
                    (DBT) for issues with regulation and modulation of emotions.

                    Within the general mental health clinic there are CBT-based groups for
                    depression, anxiety, and mindfulness that were described to us as “tier 1”
                    groups. These groups meet for 4 weeks, and patients can participate in these
                    groups more than once. PVAHCS has fairly ready access to these groups.
                    The anger management group, which begins every other month; the CBT
                    coping skills group, which begins every 5 weeks; and the pathfinders group
                    (“DBT lite”) comprising three 5-week modules, were described to us as
                    “tier 2” groups. Reportedly, these groups are geared toward stabilizing
                    patients to a level at which they would be ready for individual psychotherapy
                    if indicated and desired. Intensive DBT therapy group, which runs from
                    6 to 12 months in duration, and individual psychotherapies were described as
                    “tier 3” groups.

                    Several clinicians and clinic staff reported that depending on the
                    circumstances, access to tier 2 groups might be delayed at least 2 months,
                    while access to individual psychotherapy and the intensive DBT group was
                    impaired and involved prolonged, several-month-long waits.              Some
                    clinicians expressed frustration that patients referred for individual or
                    intensive therapies were screened using rigorous threshold criteria and
                    deemed inappropriate for these therapies. Psychology leadership reported
                    that some patients referred for these therapies are not stable enough for the
                    level of intensity. Psychology leadership also reported that by 2011, the
                    division had lost a significant number of clinical staff and was not allowed
                    by the prior PVAHCS director to fill the vacancies. As of early
                    June 2014, Psychology leadership reported 11 vacancies for which
                    9 candidates had been selected and were pending offer acceptance,
                    credentialing, privileging, and/or on-boarding.

                    We obtained a list of patients waiting for individual therapy or specialized
                    mental health therapy services. These services are unrelated to PVAHCS
                    facility leadership performance evaluation metrics. The list contained
                    171 patient names with the longest wait dating back to November 2013. In
                    early May 2014, the facility had begun working to provide services to these
                    patients through the Non-VA Medical Care program. In June 2014, we

VA Office of Inspector General                                                                  30
                                             Review of Alleged Patient Deaths, Patient Wait Times, and 

                                            Scheduling Practices at the Phoenix VA Health Care System 




                    reviewed patient EHRs. None of the patients on the list were deceased. We
                    found some of the patients on the list were being seen internally at the
                    PVAHCS for the requested individual or specialized therapy. A few were
                    being seen by an outside vendor. Some of the patients had either declined or
                    opted to wait to receive therapy internally rather than through Non-VA Care.

                    For the majority of patients, however, Non-VA Care consults had been
                    authorized, but appointments had not yet been scheduled.               Of the
                    128 patients for whom the EHR indicated authorization but scheduling of an
                    appointment via TriWest was still pending, status updates via the TriWest
                    portal indicated that for 96 patients, the authorizations were erroneously sent
                    directly to the patients instead of to TriWest.3 A few of these patients used
                    this “vendor of choice” authorization and initiated Non-VA Care with a
                    provider of choice in the community. Among the other 32 patients,
                    9 authorizations sent to TriWest were either never received or loaded by the
                    TriWest staff into its system; 8 of the patients had completed initial
                    appointments or had upcoming appointments as of July 9, 2014; 8 other
                    patients had not yet been scheduled by TriWest with a provider; and
                    7 patients declined appointments/services when contacted by TriWest.

                    Upon discovery in early July that authorizations had been sent to patients
                    instead of directly to TriWest or had not been received by TriWest,
                    PVAHCS purchased care leadership promptly informed fee basis
                    management so its staff could re-upload or re-send authorizations
                    immediately in order not to further delay care.

Suicides            OIG physicians reviewed the EHRs for 77 patients who committed suicide
                    from January 1, 2012, to May 2014. Chronic pain conditions and relational
                    discord were issues in several cases. Table 1 summarizes the findings.

                                         Table 1. Veterans on PVAHCS EWL
                                                                         Clinically        Other
                                          Physician       Delays in
                           Suicides                                      Significant     Quality of
                                          Reviewed         Care
                                                                           Delays        Care Issues
                                 77            77              9              1                5
                        Source: VA OIG

                    A clinically significant delay was identified for one patient related to primary
                    care. Details of this case were described in a previous section of this report.
                    Quality of care issues and non-clinically significant delays were related to
                    Mental Health, Primary Care, and the ED.

                    3
                      In 2013, TriWest Healthcare Alliance was awarded a 5-year contract by VA to administer
                    the VA Patient-Centered Community Care program to serve nearly half of the veterans
                    eligible for care in the country.

VA Office of Inspector General                                                                           31
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




                    According to the most recent PVAHCS Governing Council Quarterly
                    Suicide Prevention Report, from October 2013 to May 2014, 27 suicides
                    were known to the suicide prevention coordinator (SPC). According to the
                    PVAHCS Governing Council Quarterly Suicide Prevention Report, among
                    these patients, 48 percent were followed by a PCP at the facility, 37 percent
                    were seen by the mental health service, 18.5 percent had chronic pain issues,
                    and 29.6 percent had contact with a clinic or program (for example,
                    Audiology) at the facility within 30 days of death. Twenty-six percent of the
                    patients were not under VA care (that is, they were seen exclusively outside
                    of VA).

                    The Council’s report recommended an action plan that included:

                    	 Hiring a family services coordinator with specialized training in marital
                       and family therapy and two additional family services clinicians with
                       specialized training in marital and family therapy, as PVAHCS does not
                       presently have a clinician specialized in marital and family therapy and
                       family services programs are beginning to be implemented at some other
                       VAMCs to provide couples and family counseling, OEF/OIF/OND
                       family support, and suicide prevention education.
                    	 Mandatory suicide prevention training for employees that is tracked and
                       expanding the VHA SAVE4 training at orientation from 15 minutes to
                       1 hour.
                    	 Completion of safety plans for all patients seen in mental health, not just
                       those rated moderate risk or above.
                    	 Suicide risk assessments to be completed on all patients seen by a social
                       worker in the ED.

Conclusion          Patients at PVAHCS experienced access barriers that adversely affected the
                    quality of primary and specialty care provided for them. They frequently
                    encountered obstacles when they or their providers attempted to establish
                    care, when they needed outpatient appointments after hospitalizations or ED
                    visits, and when seeking care while traveling or temporarily living in
                    Phoenix. The cases discussed in this report reflect unacceptable and
                    troubling lapses in follow-up, coordination, quality, and continuity of care.

                    Although we found that a process to provide access to mental health
                    assessment, triage, and stabilization was in place at PVAHCS, we identified
                    problems with the continuity of mental health care and care transitions,
                    delays in assignment to a dedicated provider, and limited access to
                    psychotherapy.
                    4
                      Training developed by VHA on steps in suicide prevention. The acronym stands for:
                    Signs of suicidal thinking, Ask questions, Validate the person’s experience, Encourage
                    treatment, and Expedite getting help.

VA Office of Inspector General                                                                               32
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    In addition, we found substantial problems with access to care for patients
                    requiring Urology Services. Urology Services at PVAHCS will be the
                    subject of a subsequent OIG report.

                    Recommendations

                    1.	   We recommended the VA Secretary direct the Veterans Health
                          Administration to review the cases identified in this report to determine
                          the appropriate response to possible patient injury and allegations of
                          poor quality of care. For patients who suffered adverse outcomes, the
                          Phoenix VA Health Care System should confer with Regional Counsel
                          regarding the appropriateness of disclosures to patients and families.

                    2.	   We recommended the VA Secretary require the Phoenix VA Health
                          Care System to ensure the continuity of mental health care, improve
                          delays in assignments to a dedicated provider, and expand access to
                          psychotherapy services.

                    3.	   We recommended the VA Secretary require the Phoenix VA Health
                          Care System to reevaluate and make the appropriate changes to its
                          method of providing veterans primary care to ensure they provide
                          veterans timely and quality access to care.

                    4.	   We recommended the VA Secretary direct the Veterans Health
                          Administration to establish a process that requires facility directors to
                          notify, through their chain of command, the Under Secretary of Health
                          when their facility cannot meet access or quality of care standards.

Management          The VA Secretary concurred with our findings and recommendations and
Comments            stated that VHA would implement Recommendations 1, 2, and 3 by
                    August 2015 and that VHA had already implemented Recommendation 4.
                    The Secretary’s entire verbatim response is located in Appendix K.

OIG Response        The VA Secretary’s planned corrective actions are acceptable. We will
                    monitor VA’s progress and follow up on the implementation of our
                    recommendations until all proposed actions are completed. Based on VA’s
                    actions, we consider Recommendation 4 closed.




VA Office of Inspector General                                                                   33
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




Question 2          Did PVAHCS Omit the Names of Veterans Waiting for
                    Care From Its Electronic Wait List?

Veterans            PVAHCS did not include all veterans on its EWL. As a result, we identified
Waiting for         serious conditions at PVAHCS that resulted in delays, some significant, in
Care
                    veterans’ access to health care services. As of April 22, 2014, we identified
                    about 1,400 veterans waiting to be scheduled for a Primary Care appointment
                    and who were appropriately included on the PVAHCS EWL. However, we
                    also identified over 3,500 additional veterans who were waiting to be
                    scheduled for an appointment. Those 3,500 veterans were not on the EWL
                    as of April 2014; most were on what we determined to be unofficial wait
                    lists.

                    According to VHA Directive 2010-027, VHA Outpatient Scheduling
                    Processes and Procedures, (Appendix G), the EWL is the official VHA wait
                    list for outpatient clinical care appointments. The EWL is used to list
                    patients waiting to be scheduled or waiting to be assigned a PCP. The EWL
                    tracks new patients with whom the primary care or specialty care provider
                    does not have an established relationship, such as the patient has not been
                    seen before in the clinic at that facility.5 The EWL usually consists of newly
                    registered, newly enrolled, or new specialty care consult requests for patients
                    waiting for their first scheduled appointment in a particular clinic. Facilities
                    can establish EWLs for multiple clinics within their facility. No other wait
                    list formats (paper, electronic spreadsheets, or others) are to be used for
                    tracking requests for outpatient appointments.

Unofficial Wait     PVAHCS had over 3,500 individual veterans who were waiting to be
Lists               scheduled for an appointment and were not on the EWL. We identified these
                    veterans from the New Enrollee Appointment Request (NEAR) list, Helpline
                    paper printouts, Schedule an Appointment consults, consults closed without
                    clinical review, and unprocessed enrollment applications. Some of the over
                    3,500 individual veterans were on multiple lists discussed in the following
                    sections.

                    VHA measures new patient wait times from the date a scheduler creates an
                    appointment in the Veterans Health Information Systems and Technology
                    Architecture (VistA), which becomes the appointment create date, with the
                    date the appointment is completed. If an appointment cannot be scheduled
                    due to lack of capacity, the veteran is added to the EWL. The date the
                    scheduler adds the veteran to the EWL becomes the start date in lieu of the
                    appointment create date.       Consequently, the length of time these
                    3,500 veterans will actually wait for appointments prior to being scheduled

                    5
                      A clinic refers to a primary care service or specialty care service within a medical center,
                    such as a primary care clinic, mental health clinic, and urology clinic.

VA Office of Inspector General                                                                                 34
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    or added to the EWL will never be accurately reflected in VA wait time data
                    because PVAHCS staff had not yet scheduled their appointments or added
                    them to the EWL. Until that happens, the reported wait time for these
                    veterans does not start. These veterans were at risk of being lost in
                    PVAHCS’s scheduling processes and thus never obtaining their requested or
                    necessary appointments.

NEAR List           The NEAR list, a computer-generated report, identifies newly enrolled
                    veterans who requested an appointment during the enrollment process.
                    There were approximately 1,800 enrolled veterans on the PVAHCS’s NEAR
                    list who indicated they wanted a Primary Care appointment but were not yet
                    scheduled for one and were not on the EWL. Of the approximately
                    1,800 veterans, nearly 1,700 had been on the NEAR list longer than 30 days.

                    The Health Administration Service (HAS)—an administrative service at
                    PVAHCS that provides support to the patient processing activities, such as
                    enrollment, eligibility verification, and scheduling—did not use the NEAR
                    list to contact veterans for an appointment. Therefore, it became a de facto
                    unofficial wait list because of the inordinate amount of time veterans spent
                    on the list before the facility scheduled the veterans’ appointments or placed
                    them on the EWL. In addition, veterans’ wait times spent on the NEAR list
                    prior to being scheduled for appointments or added to the EWL were not
                    captured in VA wait time data. HAS supervisors stated they were unaware
                    of the existence of the NEAR list until April 2014. However, they should
                    have been aware of the NEAR list because VHA policy and multiple other
                    documents that were available to PVAHCS management and staff discussed
                    the NEAR list.

                       A January 2009 VHA NEAR training guide indicated the NEAR list is
                        available and provided information to enable staff to manage new
                        enrollee appointment requests and their placement on the VistA EWL.
                       A Veterans Integrated Service Network (VISN) 18 site visit in
                        May 2013 recommended that PVAHCS develop appropriate training
                        materials and train staff on the use of the NEAR list.

                    In addition, Mr. Lance Robinson, Associate Director, sent an email in
                    April 2014 to Ms. Sharon Helman, the Director of PVAHCS, and others
                    stating that a management analyst knew about the NEAR list after the VISN
                    team left in May 2013 but failed to continue to run it and utilize it. The
                    management analyst sent an email to Dr. Darren Deering, Chief of Staff; and
                    the Assistant Chief of HAS, in response to the email from Mr. Robinson.
                    The management analyst copied Mr. Robinson; Ms. Michelle Bagford,
                    Associate Chief Nurse; and the Chief of HAS.




VA Office of Inspector General                                                                  35
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




Email From a            I am behind in e-mail and I would like to clarify the statement
Management              below.
Analyst,
May 2, 2014
                        I did not fail to continue to run it [the NEAR list]. I looked at it a
                        few times when I first got here and spoke to [the former Assistant
                        Chief of HAS] about it. . . . I also recall that it came up after the
                        VISN Team left and I told [the former Assistant Chief of HAS] that it
                        had come up in conversation with them and [the former Assistant
                        Chief of HAS] said she was going to talk to Eligibility about it.

Helpline Paper      We identified about 600 screen shot paper printouts from the PVAHCS
Printouts           Helpline representing newly enrolled veterans who called the Helpline to
                    request primary care appointments but were not scheduled for appointments
                    or on the EWL. The 600 printouts consisted of:

                       Compiled printouts from March through April 2014 (530)
                       Printouts found in a drawer in a Primary Care Clinic in June 2014 (70)

                    The supervisor of eligibility and enrollment—a service within HAS—told us
                    that his staff entered veterans’ enrollment form information into VistA,
                    creating an electronic record for the veterans. Instead of scheduling an
                    appointment at the time of enrollment, staff provided the newly enrolled
                    veteran with the phone number to the PVAHCS Helpline—also a service
                    within HAS—to call and request an appointment.

                    According to HAS personnel, when a veteran called the Helpline to schedule
                    an appointment, staff from the Helpline collected patient demographics of
                    the veteran and then printed a screen shot.             From approximately
                    February 2013 through March 2014, the Helpline staff printed the screen
                    shots containing this information directly to printers in HAS’s data
                    management services. HAS personnel from outpatient services periodically
                    collected the screen shot printouts from data management and were supposed
                    to be adding the veterans to the EWL. HAS personnel told us there were
                    often delays before adding the veterans from the printouts to the EWL. This
                    occurred because they did not pick up the printouts every day, and there were
                    only a few staff assigned regularly to add these veterans to the EWL.
                    Although this printout process started around February 2013, HAS staff did
                    not begin to fully use the EWL until around April 2013. HAS staff placed
                    only 1 veteran on the EWL in March 2013, 93 veterans in April 2013, and a
                    little over 850 veterans in May 2013.

                    HAS personnel told us that because the printouts contained personally
                    identifiable information, they destroyed them after they either scheduled the
                    veterans’ appointments or placed the veterans on the EWL. Because staff
                    destroyed the printouts over the course of time this process was in place, we


VA Office of Inspector General                                                                   36
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    could not identify those veterans affected by this process or confirm that they
                    were eventually placed on the EWL or provided an appointment.

                    From the end of March through April 2014, a HAS employee created a daily
                    Portable Document Format (PDF) of compiled printed screen shots and
                    emailed them to responsible outpatient services’ personnel. We obtained
                    those PDF screen shots, which included approximately 550 individual
                    veterans. We determined that 530 of those veterans were not on the EWL as
                    of April 2014 and were still waiting to be scheduled for an appointment.

                    The following example highlights the problem experienced by one of the
                    veterans who was included in the PDF screen shot printouts we identified. A
                    veteran emailed the OIG Hotline on May 14, 2014, and said he enrolled at
                    PVAHCS. According to the veteran’s electronic record, he enrolled on
                    April 3, 2014. At the time he enrolled, he was told by PVAHCS staff he was
                    going to be put on the EWL. He called the medical facility again in May to
                    check on his status, and HAS staff told him they placed him on the EWL on
                    May 6, 2014. The staff member suggested it would be another 3 to 4 months
                    before the veteran would be seen. This veteran’s wait time was unaccounted
                    for during this 1-month period from April to May 2014.

                    In June 2014, a scheduler provided us with about 200 additional paper
                    printouts that identified veterans who called the Helpline around
                    December 2013. She received these printouts from a coworker who found
                    the printouts in a drawer in a Primary Care Clinic. Upon review, the
                    scheduler determined that about 70 of the 200 veterans were not scheduled
                    for an appointment and were not on the EWL. According to the scheduler,
                    she subsequently added the veterans to the EWL in June 2014.

Schedule an         Pending Schedule an Appointment consults represented 307 veterans
Appointment         referred to primary care, but the facility had yet to schedule their
Consults
                    appointments or add them to the EWL as of April 2014. The wait time for
                    patients with pending consults begins when schedulers create the
                    appointments or place the veterans on the EWL. This means the wait time
                    for these veterans prior to being scheduled or added to the EWL was not
                    captured in VA wait time data.

                    PVAHCS ED physicians and inpatient services providers used Schedule an
                    Appointment consults in an attempt to ensure that veterans who did not have
                    a PCP would have a follow-up appointment scheduled post-discharge. These
                    consults were sent to notify HAS staff of a veteran without a PCP in need of
                    a Primary Care appointment. According to HAS staff, if a consult was noted
                    as routine, they would add the veteran to the EWL. If a consult was noted as
                    urgent, they would send it to a provider for review.



VA Office of Inspector General                                                                   37
                                             Review of Alleged Patient Deaths, Patient Wait Times, and 

                                            Scheduling Practices at the Phoenix VA Health Care System 




                      We were told by a HAS employee that no one reviewed Schedule an
                      Appointment consults from approximately August 2013 through
                      December 2013. Although we could not confirm this statement, our review
                      of emails determined there was a significant backlog of 1,300 pending
                      Schedule an Appointment consults as of December 2013.

                      A meeting with a veteran’s family resulted in Dr. Deering realizing the
                      facility did not have an adequate plan to ensure patients leaving the ED
                      obtained timely follow-up appointments. The following excerpt is from a
                      December 14, 2013, email from Dr. Deering to Dr. Christopher Burke, Chief
                      of Primary Care Services; Dr. Timothy Wright, Chief of the Emergency
                      Department; the Nurse Manager of the Emergency Department; Dr. James
                      Felicetta, former Chief of Medical Services; and the Chief of HAS.
                      Mr. Robinson and Ms. Nancy Claflin, Nurse Executive, also received the
                      email.

Email From                I just spent about 45 minutes with a veteran’s family who is very
Dr. Deering,              upset.
December 14, 2013
                          Their father was discharged from the ER [Emergency Room] on
                          September 28th and the ER Doc [doctor] requested a one-week f/u
                          [follow-up] with a PCP.

                          A “scheduled an appointment” consult was placed in CPRS
                          [Computerized Patient Record System].

                          The veteran died on November 30th.

                          Someone called the family on Dec 6th to schedule the appointment.

                          They feel that we were negligent in his care and that earlier
                          intervention would have prolonged his life.

                          They have a copy of his records including the ‘schedule an appt’
                          [appointment] consult that wasn’t addressed for 2 months.

                                                 .   .   .   .   .   .   .

                          My intent is that I need you, as leaders of the ER, Primary Care, and
                          HAS to come together and develop a plan about how we can make
                          sure that patients who are leaving the ER get a follow-up and that
                          the information is communicated to the veteran in a timely manner.
                          Please work on this and let us know what is needed to make this
                          happen or what your plan is by Dec 30th. Although it may not have
                          made a difference in the outcome of this patient, it is a process that
                          needs to be hardwired before it does impact someone.


  VA Office of Inspector General                                                                   38
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




                    On December 19, 2013, Dr. Hamed Abbaszadegan, Chief of Clinical
                    Informatics, sent the following email to Dr. Robbi Venditti, staff physician,
                    discussing new patient scheduling and noting that the Schedule an
                    Appointment consult was a broken process. He also copied a number of
                    other clinical staff, including Dr. Burke, Dr. Wright, Dr. Deering, and
                    Ms. Bagford.

Email From                This week the inspector general was here regarding the issue of new
Dr. Abbaszadegan,         patient scheduling (those without a PCP). Ironically, there has been
December 19, 2013
                          some side conversation regarding this issue this week as well…The
                          consult called “Schedule an Appointment” has >1300 open consults
                          in a pending stage, most coming from the ED. I feel we have a
                          broken process that can be improved. Thus, I am requesting to
                          improve/change this process. I will personally represent informatics
                          to help find a solution to new appointments which is tied to access as
                          well as quick (1-2 week) post-ED visits.
                          Thoughts?

                    We found no evidence that PVAHCS developed a plan to ensure that patients
                    leaving the ED received a follow-up appointment.

New Patient         In October 2012, HAS data management staff identified new patient
Backlog             appointments in Primary Care that were scheduled later than
Redistribution
                    December 1, 2012. Some of these appointments were scheduled for almost a
                    year in the future. This represented a backlog of 2,501 appointments. The
                    goal at the time was to redistribute this backlog of new patient appointments
                    among the PCPs and reschedule these veterans for earlier appointments.
                    HAS data management staff divided the list of 2,501 patients among
                    43 providers. Twenty-eight providers at the main facility were assigned over
                    1,800 patients, with the remainder assigned to providers at the clinics. Most
                    providers received about 67 new patients.

                    Despite the effort to redistribute the veterans to other providers with the
                    intent of getting an earlier appointment, we determined 544 of the
                    2,501 veterans had not received Primary Care appointments as of
                    March 31, 2014. We reviewed 200 of the 544 veterans who had not received
                    an appointment. According to our review of the veterans’ EHRs, 143 of the
                    200 veterans (72 percent) appeared to still be waiting for Primary Care
                    appointments. The other 57 veterans were no longer waiting for care from
                    PVAHCS because they had moved out of the area, could not be reached,
                    decided they no longer wanted VA care, or had died.6 On June 17, 2014, we
                    provided the names of the 544 veterans to Mr. Steve Young, Interim
                    PVAHCS Director, for review and appropriate action with these veterans.


                    6
                        These deaths were included in the case reviews addressed under Question 1.

VA Office of Inspector General                                                                        39
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




Urology             According to Urology staff, from May 2013 through September 2013, two
Consults            urologists left PVAHCS and only one was replaced. This left PVAHCS’s
Closed
                    Urology Service with two urologists and a nurse practitioner.

                    Urology staff told us they informed PVAHCS management of access and
                    staffing issues starting in August 2013. In January 2014, to address the
                    Urology Service’s concerns about providing care to patients with a minimal
                    number of providers, the ability of PVAHCS providers to write new
                    outpatient Urology consults was disabled.            In addition, PVAHCS
                    administratively closed 344 pending Urology consults for 339 individual
                    veterans on 2 separate days without first identifying how the veterans would
                    receive needed care. Following is a January 13, 2014, email Dr. Venditti
                    sent to Dr. Deering that acknowledged the disabling of consults to Urology
                    Services.
Email From                As of last week all outpatient consults for GU [General Urology]
Dr. Venditti,             were disabled. On Friday 250 active and pending consults were
January 13, 2014
                          discontinued. These two actions should eliminate and/or reduce the
                          extra demands placed on the current GU staff. (This left appr.
                          [approximately] 136 scheduled Veterans through March and appr.
                          136 scheduled veterans that did not have a real appointment.)

                          One item on the action plan is to determine who/how the cancelled
                          Veterans are reviewed for ongoing medical needs.

                    We reviewed 115 veterans whose consults were closed and determined
                    68 veterans (59 percent) did not receive a Urology appointment. Of those,
                    eight veterans either transferred to another facility or said they no longer
                    wanted      urology     care    at    PVAHCS,        three   veterans    had
                    died,7 two veterans were in hospice care, and one veteran had a chart review
                    completed and was determined to not need care. The remaining 47 veterans
                    (41 percent) eventually received Non-VA Care Urology appointments but
                    waited an average of 167 days for those appointments (ranging from 21 to
                    396 days). On June 17, 2014, we provided the names of these veterans to
                    Mr. Young for review and appropriate follow-up action with those veterans.
                    Due to the substantial problems with access to care for patients requiring
                    Urology Services at PVAHCS, Urology Services will be the subject of a
                    subsequent OIG report.

Unprocessed         On June 6, 2014, Dr. Katherine Mitchell, the Medical Director of the
Enrollment          PVAHCS OEF/OIF/OND Clinic, provided the OIG with a folder of
Applications
                    69 individual VA enrollment applications. Dr. Mitchell stated that the
                    veterans whose applications were in the folder had not been processed for
                    enrollment. The unprocessed enrollment applications were from veterans

                    7
                        These deaths were included in the case reviews addressed under Question 1.

VA Office of Inspector General                                                                        40
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




                    who enrolled at a PVAHCS outreach effort in late 2013. However,
                    PVAHCS still had not processed their enrollment information over 6 months
                    later. We reviewed the enrollment forms to determine how the applicants
                    answered the question on the form of whether they wanted care. Based on
                    the applicants’ answers, we determined 36 individuals did not want care,
                    18 wanted care, and 15 did not answer that question. On June 9, 2014, we
                    provided the forms to Mr. Young’s office for PVAHCS’s review and
                    appropriate follow-up action with these veterans.

EWL Data            In April 2014, VHA’s national data in the Veterans Health Administration
Entry Issue         Support Service Center (VSSC) showed fewer than 300 veterans waiting for
                    care on PVAHCS’s EWL. However, we found that actually about
                    1,400 veterans were waiting for care, according to PVAHCS’s VistA EWL
                    report. The EWL data obtained from PVAHCS’s VistA system listed a
                    much higher number of veterans than the EWL data we obtained from the
                    VSSC. VHA staff identified a data entry issue that prevented the total
                    number of veterans that were actually on the PVAHCS EWL from being
                    reflected in the national EWL data.

                    We were unable to determine when PVAHCS first became aware that the
                    national EWL data was not capturing all veterans on the wait list. On
                    April 22, 2014, the Chief of HAS told us he was aware the number of
                    veterans on PVAHCS’s EWL showed more than what was reported in
                    national data. According to national information technology support, on
                    April 30, 2014, PVAHCS submitted an information technology trouble
                    ticket, and the data entry issue was fixed the next day.

                    As shown in Figure 1, national data did not reflect the same number of
                    veterans waiting on PVAHCS’ EWL prior to correcting the data entry issue.
                    As of May 1, 2014, the national data reported about 1,400 veterans—the
                    same as the PVAHCS’s EWL.




VA Office of Inspector General                                                                 41
                                           Review of Alleged Patient Deaths, Patient Wait Times, and
                                          Scheduling Practices at the Phoenix VA Health Care System



                                       Figure 1. Veterans on PVAHCS EWL

                                        Veterans on PVAHCS EWL
                      1800
                      1600
                      1400
                      1200                                                                 PVAHCS
                                                                                           VistA
                      1000                                                                 Data
                       800
                       600                                                                 VHA
                                                                                           VSSC
                       400
                                                                                           Data
                       200
                         0




                      Source: PVAHCS EWL data obtained from VistA and VHA national EWL data obtained
                      from VSSC

                    Because PVAHCS’s EWL was not accurately reflected in the national EWL
                    data, the time period during which those veterans were on PVAHCS’s EWL
                    was not captured in VHA wait time data. Accurate wait list information is
                    necessary to provide VHA with the information it needs and the ability for
                    early identification of access issues and determination of the right mix and
                    number of resources needed.

Deceased            A PVAHCS employee told us that coworkers may have changed death
Veterans on         dispositions of veterans who died while on the EWL, causing the veterans to
the EWL
                    reappear on the EWL. In addition, four of the schedulers interviewed stated
                    they were also aware of deceased veterans that they had previously removed
                    from the EWL (because they were told the veterans were deceased) who later
                    reappeared on the EWL.

                    Certain audit controls within VistA were not enabled, which limited our
                    ability to determine whether any malicious manipulation of the VistA data
                    occurred. At our request, VA enabled this audit trail capability at PVAHCS
                    and nationwide. We identified nine veterans whose EWL record indicated a
                    “Date of Death Error.” We were able to review seven of nine veterans’
                    records that had been identified as altered after VA turned on the VistA audit
                    trail function on April 24, 2014. For those seven veterans, the VistA audit
                    trail showed “Postmaster” as the user name. These actions were processed as
                    an electronic action that removed the death disposition and added “Date of


VA Office of Inspector General                                                                     42
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




                    Death Error” to the records. This occurred because there was no date of
                    death recorded in the veteran’s record by PVAHCS. The Postmaster
                    automated routine deletes an EWL “Death” disposition if there is no date of
                    death in the veteran’s record and enters the reopen reason as “Date of Death
                    Error” as an electronic control to prevent errors in reporting deaths.

                    PVAHCS local policy, which refers to deaths inside the facility, states
                    schedulers should notify Decedent Affairs8 or the Administrative Officer of
                    the Day about a veteran’s death. According to a Decedent Affairs employee,
                    upon verification of death, Decedent Affairs should record the veteran’s date
                    of death in the electronic records. We found at least one example in which a
                    scheduler noted a veteran’s death in VistA, but Decedent Affairs did not
                    record the veteran’s date of death in the electronic records until about
                    3 months later. Because the Postmaster automated routine deletes an EWL
                    “Death” disposition if there is no date of death entered in the veteran’s
                    record, we believe it is imperative that staff timely notify Decedent Affairs,
                    and Decedent Affairs staff timely verify and record veteran deaths in VistA.

New Enrollee        We concluded that the scheduling processes for new enrollees used at
Scheduling          PVAHCS contributed to access delays. Prior to February 2013, when new
Process
                    patients to PVAHCS requested an appointment, PVAHCS staff referred them
                    to eligibility and enrollment staff to verify eligibility. The eligibility and
                    enrollment staff scheduled a primary care appointment for the veteran,
                    regardless of the available time frame for an appointment. A prolonged
                    period between the appointment request and the available appointment date
                    was not unusual. Figure 2 depicts the typical scheduling process at the
                    PVAHCS prior to February 2013.

                           Figure 2. PVAHCS Scheduling Process Prior To Using the EWL




                        Source: VA OIG analysis of PVAHCS scheduling processes

                    As part of the restructuring and clinic clean-up process, the Chief of HAS
                    issued a memo requesting the removal of scheduling responsibilities from a
                    list of individuals. This list included eligibility and enrollment staff as well
                    as Helpline staff. As a result, the process to obtain an appointment became

                    8
                      Decedent Affairs staff at PVAHCS are responsible for verifying a veteran’s death and
                    inputting the veteran’s date of death in the electronic records.

VA Office of Inspector General                                                                         43
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                    more complicated for the veteran. Instead of scheduling an appointment for
                    a newly enrolled veteran or adding them to the EWL, eligibility and
                    enrollment staff gave the veteran the Helpline phone number to call to
                    schedule an appointment. The Helpline, in turn, printed screen shots
                    representing veteran appointment requests directly to printers in HAS data
                    management services instead of actually scheduling the appointment. HAS
                    personnel from outpatient services collected the screen shot printouts from
                    data management to place the veterans on the EWL, and eventually contact
                    the veteran to schedule an appointment. Figure 3 depicts the scheduling
                    process at PVAHCS following those changes.

                                 Figure 3. PVAHCS Scheduling Process After EWL




                    Source: VA OIG analysis of PVAHCS scheduling processes

                    Ultimately, new patient primary care appointment requests from enrollment,
                    Helpline, ED, or inpatient providers were funneled to only about three staff
                    responsible (sometimes more staff during overtime work) for adding veterans
                    to the EWL and contacting the veterans to schedule an appointment. This
                    change in process resulted in delays in veterans receiving appointments.

Management          PVAHCS senior management was aware of the existence of access delays, as
Awareness           well as many of the documents that we identified as unofficial wait lists. The
                    following email excerpts provide further insight into what was known and
                    when.

Email From              I would like for Dr. Piatt to provide us with an action plan by next
Ms. Helman to           Monday for all the cbocs [sic] and next steps that need to be taken to
Dr. Deering,
July 2, 2012
                        start getting Veterans in.

                        I want him to address staffing, weekend/evening clinics, blocked
                        admin [administrative] time, etc. This is not just a ‘staffing fix’.

                        The plan needs to have short term and long term fixes.

VA Office of Inspector General                                                                    44
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                        As I mentioned Friday, this wait (a year long in some clinics) is
                        unacceptable and we need to have a plan in place that we are
                        striving towards so that the [sic] we all support and move in the
                        same direction.

Email From          Dr. Burke sent an email to Dr. Deering discussing concerns with the
Dr. Burke to        reasonableness of the standards and the rate of veterans receiving an
Dr. Deering,
February 4, 2014
                    appointment within 14 days looking better than it truly was.

                        The Electronic Waiting List (EWL) is supposed to be used when we
                        cannot get a new pt [patient] appointment within 90 days. Therefore,
                        the fact that we currently have an EWL (with 1000+ pts on it)
                        suggests that we cannot get a new patient appointment within
                        90 days. So how can we get a new patient appointment within
                        14 days? And how can we do it at a 50% rate? Or 40%? Or 30, or
                        20, or even 10%? It makes no sense.
                        Occasionally a pt will cancel an appt [appointment] and this will
                        open up a sooner slot, but this cannot account for 50% of our new
                        pts. There are a couple of possibilities for why our numbers look
                        better than they truly are:
                        	 We are purposely not pulling patients off the EWL until or unless
                           we know we can get them an appointment within 14 days.
                        	 Our EWL is so inefficiently managed that the clerical folks are
                           not able to keep up with it and there are hundreds of future new
                           pt appts sitting empty because they have not been able to move
                           pts into those appts quickly enough.

                        I have asked HAS if clerks have been told to selectively NOT book
                        appts beyond 14 days in order to make us look good and was told no.
                        So my best guess is that the management of the EWL is so poor that
                        even though there are hundreds of open new pt appt slots between
                        now and 90 days, the clerical staff responsible for pulling pts off the
                        EWL and booking those appts is only, at any given time, booking
                        appts in the next ~30 days. The result is that a lot of the appts are
                        actually booked out <14 days, giving the appearance that our access
                        is better than it truly is.

                        If the clerical folks (the “appointment people” as Dr. Corrie might
                        call them) actually got on the ball and started filling all the available
                        appts between now and 90 days from now, our access numbers (as
                        reflected by the 14 day metric) would start to look worse.




VA Office of Inspector General                                                                      45
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                        So when you ask what happened to cause our 14 day number to drop
                        from 50% to 35%, the answer is that the clerical folks started being
                        more efficient and effective in pulling folks off the EWL.

                        All we have done in Primary Care is triple the number of daily new
                        pt slots. Unfortunately we have no control over the daily demand for
                        new pt appts. To get a true representation of our new pt access we
                        need to fill every new pt appt between now and 90 days before we
                        use the EWL.

                        Unfortunately, while this will dramatically shrink our EWL (it might
                        even eliminate it) it will also point out the fact that we continue to
                        have significant new pt access problems.

Email From          A management analyst sent an email to Mr. Robinson and Dr. Deering, and
Management          copied the Chief of HAS,  Dr. Venditti, and Dr. Abbaszadegan. It was
Analyst
March 7, 2014
                    subsequently forwarded to Ms. Helman. This was in response to an email
                    from Ms. Susan Bowers, former VISN 18 Director, regarding VHA’s
                    concern about inappropriately closing open consults, stating VHA has “zero
                    tolerance” for consults open over 90 days. When forwarding Ms. Bowers’
                    message to certain PVAHCS staff, Mr. Robinson asked what the effect was
                    of establishing EWLs if clinics cannot schedule a new patient within 90 days.
                    In response to Mr. Robinson’s email, the management analyst expressed her
                    concerns.

                        Is there the appropriate number of staff to manage an EWL?

                        … I do not feel we can start an EWL in an area unless we know for
                        sure that the clinic capacity really is out 90 days.

                        … Unfortunately, in my humble opinion, I think some of the “pain”
                        staff are feeling in dealing with this is all the incorrect practices that
                        have been occurring: consults not being received, future
                        appointments not being made or placed into Recall; and there has
                        been a great deal of “blind scheduling” (appts [appointments] are
                        made w/o [without] any contact with the pt [patient]) going on at
                        this Facility for some time. Any of the latter, would on the surface
                        appear to make scheduling easy and quick, but for what should be
                        obvious reasons, is not only the wrong thing to do to our patients but
                        is against the Directive.

Email From          A physician at the VA Pacific Islands Health Care System emailed Dr. Burke
Dr. Burke,          to ask how PVAHCS was able to get new patient wait times down to 7 days
March 13, 2014
                    from 238 days. The VA Pacific Islands Health Care System was
                    experiencing a similar scheduling problem with their EWL for new patients.
                    Dr. Burke sent this email to one of his PVAHCS colleagues:

VA Office of Inspector General                                                                       46
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                          Wonderful. Not sure how to answer this. Can I just say smoke and
                          mirrors?

Phoenix             The day after the publication of our May 28, 2014, Interim Report, PVAHCS
Veteran             requested the VA’s Health Resource Center (HRC) contact veterans waiting
Outreach
                    for care. Outreach efforts of HRC were based on the 1,700 veterans’ names
                    we provided to VHA at the time of our Interim Report, as well as additional
                    veterans PVAHCS identified from its own review. After identifying
                    duplicate entries, veterans with no telephone numbers, and deceased
                    veterans, HRC determined that 2,881 veterans needed to be contacted. Out
                    of 2,881 contacts, 11 veterans needed crisis or emergency services,
                    146 veterans requested appointments within 7 days, and 722 veterans
                    requested appointments within 30 days. The remaining 2,002 veterans
                    requested appointments within 90 days, already had an appointment, had
                    transferred to another VA medical facility, requested not to be contacted, or
                    the HRC was not able to contact them. A detailed summary of the results of
                    the Phoenix outreach is in Appendix D.

Conclusion          PVAHCS maintained what we determined to be unofficial wait lists, and
                    used inappropriate scheduling processes, which delayed veterans’ access to
                    health care services. We identified over 3,500 additional veterans who were
                    waiting to be scheduled for appointments. Those 3,500 veterans were not on
                    the EWL as of April 2014; most were on what we determined to be
                    unofficial wait lists. PVAHCS management was aware of many of the
                    documents that we identified as unofficial wait lists and that access delays
                    existed in PVAHCS. Senior PVAHCS administrative and clinical leaders
                    did not effectively address these access problems.

                    Recommendations

                    5.	    We recommended the VA Secretary review all existing wait lists at the
                           Phoenix VA Health Care System to identify veterans who may be at
                           risk because of a delay in the delivery of health care and provide the
                           appropriate medical care. We provided this recommendation to the
                           former VA Secretary in the Interim Report.

                    6.	    We recommended the VA Secretary take immediate action to ensure
                           the Phoenix VA Health Care System reviews and provides appropriate
                           health care to all veterans identified as being on unofficial wait lists.
                           We provided this recommendation to the former VA Secretary in the
                           Interim Report.

                    7.	    We recommended the VA Secretary ensure all new enrollees seeking
                           care at the Phoenix VA Health Care System receive an appointment



VA Office of Inspector General                                                                    47
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                          within the time frames directed by Veterans Health Administration
                          policy.

                    8.	   We recommended the VA Secretary ensure the Phoenix VA Health
                          Care System timely process enrollment applications.

                    9.	   We recommended the VA Secretary ensure the Phoenix VA Health
                          Care System follows VA consultation guidance and appropriately
                          reviews consultations prior to closing them to ensure veterans receive
                          necessary medical care.

                    10.	 We recommended the VA Secretary ensure the Phoenix VA Health
                         Care System staff timely verify and record veteran deaths in the
                         Veterans Health Information Systems and Technology Architecture.

Management          The VA Secretary concurred with our findings and recommendations and
Comments            stated that VHA would implement Recommendations 7, 8, 9, and 10 by
                    August 2015 and that VHA had already implemented Recommendations
                    5 and 6. The Secretary’s entire verbatim response is located in Appendix K.

OIG Response        The VA Secretary’s planned corrective actions are acceptable. We will
                    monitor VA’s progress and follow up on the implementation of our
                    recommendations until all proposed actions are completed. Based on VA’s
                    actions, we consider Recommendation 5 closed.                 We will close
                    Recommendation 6 when VHA provides us documentation it contacted the
                    veterans we identified as being on unofficial wait lists and provided to VHA
                    after June 4, 2014. Also, in response to problems we identified with the
                    consult process at the PVAHCS, Urology Services will be the subject of a
                    subsequent report.




VA Office of Inspector General                                                                  48
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




Question 3          Were PVAHCS Personnel                               Following            Established
                    Scheduling Procedures?

Inappropriate       From interviews with 79 HAS staff involved in the scheduling process,9 we
Scheduling          identified multiple types of scheduling practices not in compliance with
Practices
                    VHA policy. Many of these scheduling schemes are described in the
                    April 2010 Memorandum on Inappropriate Scheduling Practices issued by
                    the then-Deputy Under Secretary for Health for Operations and
                    Management. The stated purpose of the memorandum was to identify and
                    eliminate VHA’s use of inappropriate scheduling practices to improve scores
                    on clinical access performance measures. Manipulating the desired date,
                    using the Clinic Appointment Availability Report to identify and reschedule
                    appointments with wait times greater than 14 days, and using paper printouts
                    were frequently mentioned by schedulers as common practice at PVAHCS.

Desired Date        Schedulers used the incorrect desired date of care, which resulted in
Manipulation        manipulated wait times of established patient appointments. VHA policy
                    states the patient defines the desired date without regard to schedule
                    capacity. Schedulers must not alter the desired date to reflect an appointment
                    date the patient acquiesces to for lack of appointment availability.
                    According to VHA data of completed FY 2013 established patient
                    appointments, PVAHCS veterans ostensibly had a 0-day wait time in
                    66 percent of Primary Care appointments.

                    We asked 40 Primary Care schedulers and supervisors how they determined
                    the veteran’s desired date when scheduling an appointment, and only
                    10 schedulers said they used the date the patient wanted to be seen as the
                    patient’s desire date. The remaining 30 stated they based the desired date on
                    the provider’s availability or next available appointment date. This deviation
                    from VHA’s scheduling policy resulted in appointments showing a false
                    0-day wait time. For example, schedulers would access the scheduling
                    program, find an open appointment, and ask the veteran if that appointment
                    would be acceptable. They would then back out of the scheduling program
                    and enter the open appointment date as the veteran’s desired date of
                    care. This makes the wait time reflect 0 days for an established patient. Ten
                    of the 30 schedulers said they had been taught to determine when the next
                    available appointment is and use that as the purported desired date.




                    9
                      This included 68 Primary Care schedulers and supervisors, 2 data management
                    analysts, 7 Helpline staff, the Chief of Outpatient Services, and the Assistant Chief of HAS.

VA Office of Inspector General                                                                                49
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




Email From             Dr. Felicetta sent an email to Dr. Theresa Nieman, a staff physician, and
Dr. James Felicetta,   copied Dr. Deering and the Chief of HAS. This message was in response to
Former Chief of
Medical Services,
                       the physician protesting increasing specialty clinic appointment slots by
October 16, 2012       10 percent without additional staff to schedule patients in a timely and
                       correct manner. It identifies Dr. Felicetta’s concerns in meeting performance
                       standards and suggests ways to meet the 14-day standard.

                          Teri, you’re correct that there can be no reprieves, because we
                          really do want to meet the national performance standard. Please
                          work as closely as you can with HAS to make sure they NEVER use
                          the next available scheduling function; that is a killer on the
                          98% performance standard. Always give them [patient] a time frame
                          for when any patient, new or established, is to be seen; one month,
                          two months, etc. That date then becomes the desired date, which
                          hopefully you can hit within 14 days; it’s actually a 28-day range,
                          because the appointment can be before or after the desired date. Be
                          sure to discharge as many patients as you possibly can from clinic;
                          don’t accumulate them. Screen those incoming consults very
                          aggressively so that a number of them do not have to be seen face-to-
                          face.

Clinic                 Supervisors told schedulers to review the Clinic Appointment Availability
Appointment            Report in VistA and to review appointments they scheduled with wait times
Availability
Report
                       greater than 14 days. According to one scheduling supervisor’s directions to
                       staff, the report was a tool used to determine clinic access issues by looking
                       at appointments made greater than 14 days, and it was the responsibility of
                       the scheduler to correct any scheduling errors.              We interviewed
                       34 schedulers and supervisors familiar with the Clinic Appointment
                       Availability Report, and 11 told us that they “fixed” or were instructed to
                       “fix” appointments on the report.

                       Schedulers did this by rescheduling the appointment for the same date and
                       time but with a later desired date. This practice can reduce or “0-out” the
                       reported wait time. Schedulers said they felt pressure or were expected to
                       ensure their appointments on their Clinic Appointment Availability Report
                       showed less than a 14-day wait time. Scheduling supervisors told us the
                       report was used to correct scheduling errors. However, one scheduling
                       supervisor said he instructed schedulers to change the desired date to under
                       14 days.

Overwriting            Seven of the 11 staff noted above described a process they used to overwrite
Appointments           existing appointments to reduce the reported wait times. Schedulers created
                       a new appointment for the same date and time as the existing appointment.
                       This eliminated the existing appointment and allowed the scheduler to
                       overwrite the prior desired date to one that is closer to the appointment date.
                       The create date of the appointment is effectively reset, thus reducing the

VA Office of Inspector General                                                                      50
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    reported wait time. Schedulers stated their supervisors instructed them to
                    “address” or “fix” the appointments on the Clinic Appointment Availability
                    Report, and the schedulers used this overwrite process to reduce the reported
                    wait times.

Holding             PVAHCS HAS staff—including Primary Care schedulers, data management
Appointment         staff, and Helpline staff—admitted that around the time the EWL first started
Requests
                    at PVAHCS, the standard process in Primary Care Clinics was to hold paper
                    printouts of patients seeking an appointment. VHA policy states that no
                    other wait list formats (paper, electronic spreadsheets, and so on) are to be
                    used for tracking requests for outpatient appointments. We asked 55 HAS
                    staff about printouts and 28 stated they either printed out or received
                    printouts of patient information for scheduling purposes, representing
                    appointment requests. For example, if a veteran called or walked into a
                    Primary Care Clinic seeking an appointment, schedulers captured their
                    information, took a screen shot, and printed it out instead of scheduling an
                    appointment or placing the patient on the EWL.

                    Of these 28 schedulers, 20 said they handed the printouts off to someone else
                    or held them until someone came to pick them up. Staff said they kept the
                    printouts in their desks for days or sometimes weeks before the veterans
                    were scheduled an appointment or placed on the EWL. One scheduler said
                    she compiled them for about 2 to 3 months. Our review of emails found that
                    in April 2013, a management analyst asked a scheduler if she had any paper
                    printouts she was holding for the EWL. The scheduler responded that she
                    had roughly 200. According to the Northwest Community Based Outpatient
                    Clinic (CBOC) supervisor, the Northwest CBOC Primary Care Clinic was
                    still using this paper printout process in May 2014.

                    In February 2014, Dr. Burke sent an email to Dr. Deering with concerns that
                    PCP schedules were sparsely scheduled.

Email From              [The Chief of HAS] is aware. Every so often I look at random PCP
Dr. Burke,              schedules to see how far out they are scheduled with new pts
February 5, 2014
                        [patients] and I have consistently found that in the timeframe of
                        T+30 [within 30 days] to T+90 [within 90 days] days they are very
                        sparsely scheduled. I bring it up with HAS and they tell me they are
                        working on it, are offering overtime for clerks to work weekends
                        scheduling pts off EWL, are enlisting the team MSA’s, etc. For our
                        part (the provider end of things) we have asked PCP’s to see
                        additional new pts and have communicated this information to [a
                        management analyst] who has updated each PCP’s Vista grid
                        indicating when the new pts are to be scheduled, thus allowing the
                        clerks doing the scheduling to know where to book the pts, but the
                        actual booking of the appts [appointments] is a clerical function for
                        which we depend on them. At times [the Chief of HAS] has

VA Office of Inspector General                                                                  51
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                        mentioned pushback from PCPs but this is a copout because the new
                        pt slots are open for EVERY clerical/HAS person to book.

                     Because VA’s recorded wait times for new patients begins at the time the
                     scheduler creates the appointment or places the veteran on the EWL, wait
                     time data do not capture the wait time that occurs when schedulers hold
                     veterans’ appointment requests. In addition, this practice introduces high
                     and unnecessary risks that veterans seeking an appointment may be forgotten
                     and not provided the access to needed care. HAS personnel told us that
                     because the printouts contained personally identifiable information, they
                     destroyed these printouts after they added the veteran to the
                     EWL. Therefore, we could not identify those veterans, confirm that they
                     were ever provided an appointment, or determine their wait times. This
                     practice also occurred in other clinics as described in the following email.

Email From a            Earlier this morning [a Licensed Practical Nurse] from Orthopedics
Scheduler to Chief      Clinic, came in to the MSA [Medical Support Assistant] area in front
of Outpatient
Services,
                        of the Specialty Clinic looking for paperwork that was supposed to
December 20, 2012       be faxed. She asked [a MSA], new MSA, to look through a drawer at
                        the desk that, up until Monday December 17th, was occupied by [a
                        departed MSA]. When opening the drawer, the new MSA noticed
                        stacks of consults, patient schedules and cancelation lists were
                        shoved in the drawers. There was old rotten food in the drawers-
                        some stuck to the consults. There were consults for the Orthopedic
                        Clinic dating back to September 2012 in the drawer along with other
                        stacks of patient paperwork. We are currently looking through the
                        consults to see if these patients have been scheduled.

PVAHCS               In January 2012, VISN 18 issued a scheduling report finding that facilities
Management           throughout the VISN did not comply with VHA policy. The report described
Aware of
Scheduling
                     issues at PVAHCS that included the incorrect use of desired dates and failure
Practices            to appropriately place patients on the EWL. The report recommended the
                     PVAHCS Director ensure a veteran’s desired date is accurately recorded as
                     the date on which the veteran or provider wants the patient to be seen and
                     ensure the veteran is entered on the EWL when appropriate.

                     In April 2013, Ms. Bowers expressed concerns to Ms. Helman that her
                     facility staff were not following VHA scheduling directives. In addition,
                     Ms. Bowers stated that PVAHCS leadership did not appear to disseminate
                     the previous communication regarding scheduling best practices to all front
                     line staff and supervisors.

                     According to the VISN 18 Executive Officer, VISN 18 conducted another
                     site visit in May 2013 as part of a review of scheduling practices at facilities
                     not currently meeting the minimum score for same-day appointment
                     availability. The review found scheduling requirements were not fully

VA Office of Inspector General                                                                    52
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    implemented as prescribed in VHA policy, including using a systematic
                    process for the identification and avoidance of inappropriate scheduling
                    activities and full implementation of the EWL. The VISN team also noted
                    that their review of PVAHCS was limited by strict oversight from the
                    Assistant Chief of HAS.

                    VISN 18 staff required PVAHCS to submit monthly progress updates
                    beginning in August 2013. On July 7, 2014, PVAHCS was still not in full
                    compliance with the scheduling policy. Specifically, according to
                    VISN 18 staff, PVAHCS had not completely trained their clerks or
                    established EWLs in the clinics.

Training            According to VHA policy, all staff must complete required training prior to
                    obtaining access to VistA scheduling. This did not occur at PVAHCS. VHA
                    requires schedulers to complete a mandatory EES-010 VHA Schedulers
                    Training Curriculum. The training consists of four courses that the employee
                    must complete prior to receiving access to scheduling capabilities in VistA.
                    We analyzed training records of schedulers assigned to Primary Care Clinics
                    and determined only about 53 percent of the schedulers at PVAHCS
                    completed the entire EES-010 VHA Schedulers Curriculum as of
                    May 22, 2014. Although scheduler training is critical, the training provides
                    little value if facility leadership does not ensure schedulers perform
                    scheduling procedures in accordance with VHA policy.

Conclusion          PVAHCS personnel did not always follow established VHA scheduling
                    practices. Some schedulers acknowledged they manipulated appointment
                    dates by using prohibited scheduling practices because of pressure to meet
                    wait time goals imposed by leaders at VHA and PVAHCS. In addition,
                    nearly half of the primary care schedulers at PVAHCS had not completed the
                    entire VHA Schedulers training curriculum.          As a result of using
                    inappropriate scheduling practices, reported wait times were unreliable and
                    the actual wait times were unknown to key stakeholders, to include veterans
                    seeking health care.

                    Recommendations

                    11.	 We recommended the VA Secretary ensure the Phoenix VA Health
                         Care System establish an internal mechanism to perform routine
                         quality assurance reviews of scheduling accuracy.

                    12.	 We recommended the VA Secretary ensure all Phoenix VA Health
                         Care System staff with scheduling privileges satisfactorily complete the
                         mandatory Veterans Health Administration scheduler training.




VA Office of Inspector General                                                                  53
                                        Review of Alleged Patient Deaths, Patient Wait Times, and 

                                       Scheduling Practices at the Phoenix VA Health Care System 




Management          The VA Secretary concurred with our findings and recommendations and
Comments            stated that VHA would implement Recommendations 11 and 12 by
                    August 2015. The Secretary’s entire verbatim response is located in
                    Appendix K.

OIG Response        The VA Secretary’s planned corrective actions are acceptable. We will
                    monitor VA’s progress and follow up on the implementation of our
                    recommendations until all proposed actions are completed.




VA Office of Inspector General                                                                54
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Question 4          Did the PVAHCS Culture Emphasize Goals at the
                    Expense of Patient Care?

Overstated      Despite obvious access issues at PVAHCS, Ms. Helman claimed successful
Accomplishments improvements in access measures during FY 2013. In Ms. Helman’s
                    FY 2013 self-assessment of her Senior Executive Performance Agreement,
                    she claimed the following significant improvements in access to care.

                        . . . I drove tremendous improvement in primary care access in
                        FY 13. At the beginning of the FY, I identified a severe facility
                        weakness in access. I realigned priorities and resources and
                        developed a Wildly Important Goal (WIG) to engage staff and
                        increase access. My leadership to achieve WIG of improving access
                        was realized in the dramatic improvement in multiple measures.
                        7 days for Avg [average] 3rd Next Available appointments for new
                        and existing patients was the facility metric. For new patients, the
                        facility began with an Avg 3rd Next Available improved 1400% from
                        338 days to 22 days. WIG resulted in multiple PACT [Patient
                        Aligned Care Team] improvements from FY12 to FY13 including:
                        70.0% of patients were seen within 7 days to 86%; 24.1% of patients
                        received a same day appointment with their PCP to 49%. . . . In new
                        patients receiving an appointment within 14 days of create date I
                        improved from 32% in FY12 to 50% in FY13.

                    This self-assessment addressed portions of the five critical elements that
                    VA’s Performance Review Board considered in determining Ms. Helman’s
                    performance rating. As a result of her rating, Ms. Helman received a
                    1.5 percent pay increase from $169,900 to $172,449 and a performance
                    award of $8,495. During our review, VA rescinded the 1.5 percent pay
                    increase and performance award of $8,495.

Emphasis on         In 2013, Ms. Helman established a “Wildly Important Goal” (WIG) effort to
Director’s          improve access to Primary Care. According to PVAHCS, the problem to be
“Wildly
Important
                    resolved was that in FY 2012, 2,700 new patients were waiting to access
Goal”               care. The WIG was to have all PCPs have a third-next available appointment
                    of 7 days or less for all patients in Primary Care. The third-next available
                    appointment was selected as a measure for the WIG, as it is commonly used
                    in the private sector to measure access. It is used because the first two
                    available appointment slots may represent openings created by patients
                    canceling appointments and does not always represent true availability.

                    HAS management displayed WIG posters prominently throughout the
                    facility to show each clinic’s success or failure in meeting the WIG. The
                    following email questioned the validity of a WIG chart showing the decline
                    of new patient appointments in April 2013.

VA Office of Inspector General                                                                  55
                                             Review of Alleged Patient Deaths, Patient Wait Times, and 

                                            Scheduling Practices at the Phoenix VA Health Care System 




 Email From an        The administrative assistant sent this email because he questioned why a
 Administrative       veteran who requested to see a PCP on May 17, 2013, had not been
 Assistant,
 June 12, 2013
                      scheduled as of June 10, 2013. He was told the veteran was placed on the
                      EWL on April 8, 2013. The email was sent to a number of staff, to include
                      the Chief of HAS.

                          . . . I also thought it was interesting that a very large chart on the
                          wall in Room D641 shows a steady decline in the number of days to
                          schedule New Patient Appointments. The latest information posted
                          (April 2013) shows the average wait times for a new patient
                          appointment is 36.8 days.            [Veteran’s name removed], a
                          60% service-connected Veteran, has been waiting over 60 days for
                          new patient appointment. Not really noteworthy compared to wait
                          times at the beginning of the year until one considers the latest
                          reported wait time. Why the variance?

                          Has access to new patient appointments significantly diminished
                          since April?

                      The administrative assistant ends his email by giving this warning.

                          Granted, I only have the two (1.25) examples to go off of, but the
                          above raises questions regarding validity of the methodology to
                          calculate the reported numbers. Given the importance of the Access
                          WIG to the facility’s leadership, I do believe it prudent to examine
                          that methodology before the Medical Center Director reports these
                          numbers to a non-PVAHCS entity that may also see a disparity.

                      To achieve the WIG, inappropriate scheduling processes and practices were
                      used prevalently throughout PVAHCS. For example, a scheduler stated that
                      nurses and providers instructed them to cancel patient appointments in an
                      effort to open up appointment slots in order to keep the third-next available
                      appointment slot within the 7-day goal. Following is an August 12, 2013,
                      email string from Dr. Burke to a management analyst requesting third-next
                      available data to update the Primary Care Clinic’s WIG score sheets and
                      highlights the importance of the goal and its link to physician pay.
Email From                [Dr. Burke]: Can you please get me the 3rd next available data for
Dr. Burke                 the weeks of July 22, 29, Aug [August] 5, and 12? Before he left,
August 12, 2013
                          [name removed] had been sending the weekly data to me and I need
                          to update my score sheets. Thanks.

                      After the management analyst replied that she would follow up, Dr. Burke
                      provided the following response.



  VA Office of Inspector General                                                                   56
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                        [Dr. Burke]: Thanks. This is very important not only for the WIG
                        but also because primary care physician’s performance pay is
                        based, in part, on their 3rd next available.

                    Another email excerpt in which Dr. Burke responded to a staff physician
                    expressing concerns with his performance pay and access score of 0 out of
                    10 follows.

Email From              I will be in the clinic tomorrow morning so I will try to find you.
Dr. Burke,              There were 2 goals for access, both heavily weighted (along with
January 9, 2014
                        PACT related stuff, access was a big priority last year). One goal
                        was a facility goal of getting at least 40% of new pt [patient] appts
                        [appointments] completed within 14 days of appt create date. It was
                        worth 10 points and believe it or not we actually met that one,
                        barely. The other access goal was an individual goal of 3rd next
                        available follow up appt slot of <7 days, average weekly value
                        during the 4th quarter (July, August, and Sept), also worth 10 pts
                        [points]. You can see what your (and other Diamond Clinic
                        providers) 3rd next available was on the poster boards in the clinic.
                        Unfortunately you did not average <7 days so you did not meet that
                        goal.

                    In July 2013, Ms. Helman communicated to all staff the “extraordinary”
                    progress made towards the goal of having all PCPs having a third-next
                    available appointment of 7 days or less. She stated that many of the Primary
                    Care teams reached this goal. Subsequently, Ms. Helman changed the WIG
                    to focus on the percentage of new patients in Primary Care who are seen
                    within 14 days, to be in line with VISN and VHA goals and metrics.
                    Specifically, the new WIG was set as, “By September 30th, more than
                    40 percent of our new patients in Primary Care will be seen within 14 days of
                    the date that their appointment is created.” Ms. Helman told staff they were
                    currently at 36.7 percent, which was up from 32 percent just a few months
                    prior.

Third-Next          On her FY 2013 self-assessment, Ms. Helman claimed the third-next
Available           available appointment for new patients in Primary Care improved from
Purportedly
Improved From
                    338 days to 22 days. PVAHCS officials could not provide data to support
338 Days to         that the third-next available appointment ever averaged 338 days for Primary
22 Days             Care.     Facility officials provided an internal report that indicated
                    improvements from an average of 231 days to an average of about 24 days
                    until the third-next available appointment for new patients. We determined
                    the claimed reductions in the third-next available appointment were related
                    to two facility actions.




VA Office of Inspector General                                                                  57
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    	 From October 2012 to November 2012, the third-next available dropped
                       from 231 days to about 129 days. This occurred because the facility
                       began its new patient backlog redistribution for each physician to cancel
                       new patient appointments that were beyond 90 days and provide those
                       veterans with an earlier appointment.
                    	 From February 2013 through May 2013, the third-next available dropped
                       from 111 days to about 18 days. During this period, the facility
                       transitioned to using the EWL in Primary Care, and schedulers admitted
                       to holding new patient appointment requests instead of scheduling the
                       appointments.

                    In addition, providers could achieve a low number of days until their
                    third-next available appointment by not using available appointment slots.
                    An excerpt of an email from Dr. Burke to Dr. William White regarding
                    access issues and the ratio between providers’ third-next available
                    appointment and their current backlog follows. Dr. Burke described to
                    Dr. White what the third-next available measure and backlog represents.
                    Dr. Burke also provided Dr. White his providers’ figures on their third-next
                    available appointment and their current backlog, and concluded the
                    following.

Email From              . . . In looking at this we can see that [7 providers] do pretty well.
Dr. Burke,
February 4, 2013
                        [Provider 8] clearly is an outlier in both 3rd next available and
                        backlog, reflecting pretty poor access. [Provider 9] has a long
                        3rd next available delay and a fairly long backlog. [Provider 10]
                        also has a pretty big backlog for only having a 3rd next available of
                        3 days, but this may reflect a large number of new pts [patients] in
                        her schedule. In the case of [Provider 11] (and especially
                        [Provider12]), their 3rd next available is deceiving because it would
                        suggest that pts can get appts [appointments] within 1-2 days, but
                        their backlog suggests that they are carving out appts. I know
                        [Provider 12] has given his team instructions on how to schedule pts
                        but when I looked back at the last month I found that the majority of
                        the 8:00 [a.m.] slots are not being used, and that raises a red flag.
                        Also it appears that he may not be using the last appt of the day
                        regularly either. Please know that the Pentad is looking at this
                        closely as well and they are aware what the numbers suggest. Can
                        you (discreetly) share this with your providers?

                    By August 2013, when the facility had its lowest average third-next available
                    appointment of about 12 days, it also had about 1,200 veterans on the EWL
                    waiting to be scheduled for an appointment. Figure 4 illustrates PVAHCS’s
                    reported improvements in the average third-next available appointment for
                    new patients. PVAHCS’s WIG target was 7 days.


VA Office of Inspector General                                                                   58
                                                 Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                Scheduling Practices at the Phoenix VA Health Care System 




                                 Figure 4. Average Days Until Third-Next Available Appointment
                                                        for New Patients


                                     250
                                               231

                                     200


                                     150
                      Average Days




                                                     129            111
                                     100


                                      50
                                                                                18              24
                                                                                           12
                                      0




                      Source: PVAHCS

Patient             Ms. Helman claimed 86 percent of all primary care patients were seen within
Appointments        7 days of the patient’s desired date. According to PVAHCS, this was based
Purportedly
Completed
                    on the facility’s performance in June, July, and August 2013. We reviewed a
Within 7 Days       statistical sample of all primary care appointments completed during these
of Desired Date     3 months to determine the earliest indication a patient requested care. Our
                    results estimated only about 59 percent of all Primary Care appointments
                    were completed within 7 days of the patient’s desired date. This analysis
                    considered only those veterans who completed appointments and did not
                    include those veterans who were still waiting for an appointment. Most of
                    the wait time discrepancies occurred because schedulers used the incorrect
                    desired date of care.

New Patient         Ms. Helman claimed 50 percent of new patients received a Primary Care
Appointments        appointment within 14 days in FY 2013. According to PVAHCS, this was
Purportedly
Completed
                    based on the facility’s performance in August 2013. We reviewed a
Within 14 Days      statistical sample of new patient Primary Care appointments completed
                    during August 2013 to determine the earliest indication a patient desired
                    care. We estimated only about 16 percent of new patients received a Primary
                    Care appointment within 14 days. We also reviewed a statistical sample of
                    new patient Primary Care appointments completed during all of FY 2013 and


VA Office of Inspector General                                                                         59
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    estimated only about 13 percent of new patients received a Primary Care
                    appointment within 14 days. This analysis considered only those veterans
                    who completed appointments and did not include those veterans who were
                    still waiting for an appointment. Most of the wait time discrepancies
                    occurred because of delays between the veteran’s requested appointment date
                    and the date the appointment was created.

Ethics              On April 18, 2012, Ms. Helman spoke at a PVAHCS Chiefs and Supervisors
Consultation
Review of the
                    monthly meeting and stated that she wanted everyone to be very ethical.
WIG                 While serving as the Director of Edward Hines Jr. VA Hospital, Ms. Helman
                    recalled hearing Hines providers telling clerks not to schedule veterans. She
                    heard staff telling veterans that they would have to call back because they
                    could not book an appointment within a couple of weeks. Ms. Helman also
                    talked about hearing about unethical behavior involving Medicaid and
                    Medicare while she was the acting director for the Spokane VA medical
                    facility. She said that no one reported it to the OIG or VISN Director
                    because they were fearful for their jobs. Ms. Helman ended her talk saying
                    she did not want an environment like that. Also, she said that if she tells
                    anyone to do something that goes against policies, directives, rules, or laws,
                    they should tell someone about it.

                    On July 3, 2013, the PVAHCS Director’s office sent an email to all
                    PVAHCS staff that publicized extraordinary progress made towards the WIG
                    of having a third-next available appointment within 7 days. In an email on
                    the same date, which later was forwarded to Ms. Helman and Dr. Deering, a
                    PVAHCS program analyst challenged the ethics of calling the WIG a
                    success.

Email From a            I have to say, I think it’s unfair to call any of this a success when
Program Analyst,        Veterans are waiting 6 weeks on an electronic waiting list before
July 3, 2013
                        they’re called to schedule their first PCP appointment. Sure, when
                        their appointment is created, it’s [sic] can be 14 days out, but we’re
                        making them wait 6-20 weeks to create that appointment.

                        That is unethical and a disservice to our Veterans.

                        Even when we were scheduling 8-24 weeks out, at least we could
                        provide ancillary services and they could try coming in as a walk-in
                        to slip into a no-show/cancellation slot. Without a PCP assigned,
                        and that first appointment scheduled out, new or re-establishing
                        Veterans are totally out of luck without going through the
                        Emergency Department or C-STAT [Consultation Stabilization
                        Triage Assessment Team]. I would appreciate it if you passed my
                        sentiments along to Ms. Helman.



VA Office of Inspector General                                                                   60
                                             Review of Alleged Patient Deaths, Patient Wait Times, and 

                                            Scheduling Practices at the Phoenix VA Health Care System 




                    Each facility must establish a local ethics program, led by the facility
                    director, who appoints an Integrated Ethics Program Officer as the
                    day-to-day head of the local program. An ethics consultation meeting was
                    held on July 11, 2013. The attendees discussed the need to provide more
                    information to veterans. They concluded that:

                    	 Important information had been excluded from the July 3, 2013, email,
                       and as a result, it did not provide all of the information necessary for
                       veterans and staff members to make informed decisions.
                    	 By failing to provide all of the information, veterans may believe they
                       will be seen as a new patient sooner than is currently feasible.

                    The ethics consultation report recommended publishing both the wait time
                    successes and the number of patients on the current EWL for new patient
                    appointments to all PVAHCS staff. The report also recommended that HAS
                    develop a clear process for educating veterans regarding enrollment and
                    accessing health care during the wait time until their new patient
                    appointments. The goal of the third recommendation was to provide
                    reasonable expectations to veterans for obtaining new patient appointments.
                    Ms. Helman received the report and recommendations. Our review of emails
                    found that PVAHCS stated it developed a New Veteran Orientation booklet
                    to address recommendations 2 and 3.10 However, according to an email from
                    Ms. Claflin, PVAHCS did not publish the number of veterans on the EWL at
                    that time because the EWL was still being implemented in various clinics.

PVAHCS Work         While conducting our work at PVAHCS, OIG staff and the OIG Hotline
Environment         received allegations of mismanagement, inappropriate hiring decisions,
                    sexual harassment, and bullying behavior by mid- and senior-level managers
                    at this facility. We interviewed or received OIG Hotline complaints from 26
                    current and former staff who specifically reported issues of harassment,
                    bullying, improper use of resources, reprisal, and general fear of losing their
                    jobs. Staff in more than one department called the culture “toxic.”

                    Many of these hostile work environment issues reported to us related to
                    facility management, human resources, and the Chief of HAS. The staff
                    made statements indicating these individuals were aggressive and demeaning
                    toward employees and managed through intimidation, fear, and retaliation.
                    We could not substantiate the allegations because most were anecdotal and
                    based on third-party conversations.




                    10
                      We did not see this booklet during our site visits at PVAHCS and cannot verify whether
                    the contents addressed recommendation 2 and 3.

VA Office of Inspector General                                                                           61
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    The following is an abbreviated email from an LPN sent to Ms. Helman,
                    Dr. Deering, and Mr. Robinson on December 12, 2013, concerning poor
                    treatment of veterans.

Email From LPN,         I have been an LPN at the Thunderbird CBOC since July of this
December 12, 2013       year. I was previously employed at the Northwest CBOC.

                        I have seen some things at this clinic done by the staff that have
                        disturbed me greatly, some of whom are in leadership roles. I would
                        hope that the things that I have witnessed here will not only be
                        disturbing to you as well, but hopefully enough to merit
                        investigating. I have seen, specifically related to my sister team,
                        walk in patients deliberately made to wait in the lobby for at least
                        2 hours, as “punishment” for not scheduling an appointment. (This
                        was told to me directly by the team nurse assistant [name removed],
                        while laughing about it.) I have seen patients come in for RN
                        [Registered Nurse] appointments with our Team Leader, [name
                        removed], and after waiting for nearly two hours to be seen by her,
                        leave the clinic without being seen because they had to wait for so
                        long. Meanwhile, during the time that the patient was waiting,
                        [name removed] was in her Nurse Assistants office discussing
                        costumes to wear to an upcoming retirement party, which I
                        witnessed.

                        . . . I have also reported this behavior not only to my current Nurse
                        Manager at the time, but also to 3 other Nurse Managers, and
                        nobody will take any responsibility for investigating it. In fact, once
                        I did report these things to my Nurse Manager, she then spoke to my
                        team leader about it, which then began a wide array of harassment
                        towards me from her, which I also reported.

                        . . . I have submitted my letter of resignation effective 12/13/13 due
                        to the feeling of being in a hostile work environment with no
                        recourse. I also can no longer sit by and watch our Veterans be
                        treated in the manner in which they are at this facility. It’s very
                        unfortunate to me that this can occur in this day and age and nobody
                        will do anything about it. Please look into it. This is not OK.

                    Ms. Helman sent an email the same day to Dr. Deering and Mr. Robinson
                    saying not to send this out to anyone until they decided together on how to
                    address the issue.

Federal             In late April through June 2013, the Office of Personnel Management asked
Employee            Federal employees to provide input to the 2013 Federal Employee Viewpoint
Viewpoint
Survey
                    Survey to influence change at their agencies. The Federal Employee
                    Viewpoint Survey is a tool that measures employees’ perceptions of whether,

VA Office of Inspector General                                                                    62
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




                    and to what extent, conditions that characterize successful organizations are
                    present in their agencies. The survey included 10 leadership questions,
                    13 agency questions, and 9 satisfaction questions.         For 26 of those
                    32 questions, PVAHCS employees were less positive compared with the
                    overall results of VA and VHA employees. 11 Table 2 provides three
                    examples in which PVAHCS employees were less positive with their
                    leadership’s performance.

                                 Table 2. Federal Employee Viewpoint Survey Results

                                 My organization’s leaders maintain high standards
                                             of honesty and integrity.
                                                Positive                Neutral               Negative
                     VA                          49.3%                  24.9%                  25.8%
                     VHA                         49.6%                  25.0%                  25.4%
                     PVAHCS                      43.6%                  23.8%                  32.6%
                                 How satisfied are you with the policies and practices
                                                of your senior leaders?
                     VA                          40.2%                  29.7%                   30.1%
                     VHA                         40.8%                  29.8%                   29.4%
                     PVAHCS                      35.7%                  27.9%                   36.4%
                         I have a high level of respect for my organization’s senior leaders.
                     VA                          50.3%                  24.4%                   25.3%
                     VHA                         50.5%                  24.5%                   25.0%
                     PVAHCS                      45.5%                  24.5%                   30.0%
                    Source: 2013 Federal Employee Viewpoint Survey

Conclusion          PVAHCS’s emphasis on goals resulted in a misleading portrayal of veterans’
                    access to patient care. Despite Ms. Helman’s claims of successful
                    improvements in access measures during FY 2013, we found those
                    accomplishments were inaccurate and unsupported.

                    Recommendations

                    13.	 We recommended that upon the completion of the investigation the VA
                         Secretary confer with appropriate VA staff and determine whether
                         administrative action should be taken against management officials at

                    11
                      The definitions for the Positive, Neutral, and Negative responses vary in the following
                    ways across the response scales used in the survey. Positive: Strongly Agree/Very Satisfied
                    and Satisfied/Very Good and Good; Neutral: Neither Agree nor Disagree/Neither Satisfied
                    nor Dissatisfied/Fair; Negative: Disagree and Strongly Disagree/Dissatisfied and Very
                    Dissatisfied/Poor and Very Poor.

VA Office of Inspector General                                                                              63
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




                          the Phoenix VA Health Care System and ensure that action is taken
                          where appropriate.
                    14.	 We recommended the VA Secretary ensure the Phoenix VA Health
                         Care System include an employee satisfaction measure and a veteran
                         satisfaction measure in the Phoenix VA Health Care System
                         management’s performance plans and facility goals.

Management          The VA Secretary concurred with our findings and recommendations and
Comments            stated that VHA would implement Recommendation 13 after completion of
                    all external reviews and Recommendation 14 by March 2015. The
                    Secretary’s entire verbatim response is located in Appendix K.

OIG Response        The VA Secretary’s planned corrective actions are acceptable. We will
                    monitor VA’s progress and follow up on the implementation of our
                    recommendations until all proposed actions are completed.




VA Office of Inspector General                                                                 64
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




Question 5          Are Scheduling Deficiencies Systemic Throughout
                    VHA?

                    Inappropriate scheduling practices are a systemic problem nationwide. We
                    identified multiple types of scheduling practices that did not comply with
                    VHA’s policy. VHA missed opportunities to hold senior headquarters and
                    field facility leadership responsible and accountable for implementing action
                    plans that addressed compliance with scheduling procedures. Then in
                    May 2013, the Deputy Under Secretary for Health for Operations
                    Management waived the FY 2013 annual requirement for facility directors to
                    certify compliance with the VHA scheduling directive, further reducing
                    accountability over wait time data integrity and compliance with appropriate
                    scheduling practices. Additionally, the breakdown of the ethics system
                    within VHA also contributed significantly to the questioning of the reliability
                    of wait time data in the scheduling system.

Allegations of      Since the PVAHCS story first appeared in the national media, we have
Inappropriate       received approximately 225 allegations regarding PVAHCS and
Scheduling
Practices
                    approximately 445 allegations of similar issues regarding wait times at other
Found               VA medical facilities through the OIG Hotline, from Members of Congress,
Nationwide          VA employees, veterans and their families, and the media. The VA OIG
                    Office of Investigations has opened investigations at 93 sites of care in
                    response to allegations of wait time manipulations. In particular, we focused
                    on whether management ordered schedulers to falsify wait times and EWL
                    records, or attempted to obstruct OIG or other investigative
                    efforts. Investigations are being worked in coordination with the Department
                    of Justice and the Federal Bureau of Investigation. Our investigations
                    confirmed that wait time manipulations are prevalent throughout VHA.
                    Among the variations of wait time manipulations our ongoing investigations,
                    as of August 2014, at the 93 sites have, thus far, found many medical
                    facilities were:

                    	 Using the next available date as the desired date to “0-out” appointment
                       wait times.
                    	 Canceling appointments and rescheduling them to make wait times
                       appear to be shorter than they actually were. To date, we substantiated
                       that management at one facility directed schedulers to do this.
                    	 Using paper wait lists rather than official EWLs.
                    	 Canceling consults without appropriate clinical review.
                    	 Altering clinic utilization rates to make it appear the clinic was meeting
                       utilization goals.



VA Office of Inspector General                                                                   65
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Wherever we confirm potential criminal violations, we will present our
                    findings to the appropriate Federal prosecutor. If prosecution is declined, we
                    will provide documented results of our investigation to VA for whatever
                    administrative action they deem appropriate. We will do the same if our
                    investigations substantiate manipulation of wait times but do not find
                    evidence of any possible criminal intent. Finally, we have also kept the
                    U.S. Office of Special Counsel apprised of our active criminal investigations
                    as they relate to the U.S. Office of Special Counsel’s numerous referrals to
                    VA of whistleblower disclosures of allegations relating to wait times and
                    scheduling issues.

                    We identified multiple types of scheduling practices that did not comply with
                    VHA policy and a number of types of scheduling schemes in use throughout
                    VHA. Many of these schemes were detailed in the then-Deputy Under
                    Secretary for Health for Operations and Management Memorandum on
                    Inappropriate Scheduling Practices (April 2010), included in this report at
                    Appendix H. The memorandum stated that in order to improve scores on
                    assorted access measures, certain facilities have adopted the use of
                    inappropriate scheduling practices that were not in line with patient-centered
                    care. The following examples are schemes we identified.
Scheduling 
        Schedulers accessed the scheduling program, found an open appointment,
Scheme #1
          and asked the veteran if that appointment would be acceptable. They then
                    backed out of the scheduling program and entered the open appointment date
                    as the veteran’s desired date of care. This made the wait time of an
                    established patient 0 days.
Scheduling 
        Schedulers described a process with the Clinic Appointment Availability
Scheme #2
          Report (or similar report) that supervisors used to identify individual
                    schedulers whose appointments exceeded the 14-day goal. Scheduling
                    supervisors told schedulers to review these reports and correct any
                    appointments with wait times greater than 14 days. At one location, a
                    scheduler told us each supervisor was provided a list of schedulers who
                    exceeded the 14-day goal. To keep their names off the supervisor’s list,
                    schedulers automatically changed the desired date to the next available
                    appointment, thereby showing no wait time.
Scheduling 
        Staff deleted consults without full consideration of the effect on patients.
Scheme #3
          They deleted or canceled provider consults without adequate reviews by
                    clinical staff in an effort to reduce their backlog of consults.
Scheduling 
        Multiple schedulers described a process they used that essentially
Scheme #4
          “overwrites” appointments to reduce the reported wait times. Schedulers
                    made a new appointment on top of an existing appointment of the same date
                    and time and for the same veteran. This removed the existing appointment
                    date but did not record a canceled appointment. This action allowed the
                    scheduler to overwrite the prior desired date and appointment create date
                    with a new desired date. This adjusted the create date to the current date of

VA Office of Inspector General                                                                  66
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    entry and the desired date to the date of the appointment, thus reducing the
                    reported wait time.
Scheduling          Staff created patient appointments without notifying the patient. This is
Scheme #5           commonly referred to as blind scheduling and creates a high likelihood that
                    the patient will be a no-show for their appointment.
Scheduling          Facilities used paper wait lists or other manual systems to track veterans
Scheme #6           waiting for care instead of using the EWL. This action delayed adding the
                    veteran to the EWL or scheduling their appointment, thus not capturing the
                    veteran’s entire wait time in VA data.
VHA Access          At the direction of the former Secretary, VHA conducted an Access Audit
Audit               from May 12, 2014, through June 3, 2014. The audit was to determine
Identified
Scheduling          whether allegations about inappropriate scheduling practices were isolated
Issues              instances of improper practices or if broader, more systemic problems exist.
                    VHA’s Access Audit had a number of audit limitations, such as independent
                    verification of results, time limitations, and lack of establishing leadership
                    and staff accountability. However, despite these and other limitations,
                    VHA’s audit also found that inappropriate scheduling practices were a
                    systemic problem nationwide.

                    The audit was conducted in two phases. Phase One covered VA medical
                    centers and large CBOCs serving at least 10,000 veterans. Phase Two
                    covered additional VA facilities, including PVAHCS. Combined, the two
                    phases covered 731 total facilities, including 140 parent facilities.
                    Ultimately, VA chose to suspend Phase Two data collection after initial
                    assessments restated high consistency with the findings of Phase One. The
                    following are VHA’s Access Audit findings.

                    	 Efforts to meet needs of veterans (and clinicians) led to an overly
                       complicated scheduling process that resulted in a high potential to create
                       confusion among scheduling clerks and front-line supervisors.
                    	 Meeting a 14-day wait time performance target for new appointments
                       was simply not attainable given the ongoing challenge of finding
                       sufficient provider slots to accommodate a growing demand for services.
                       Imposing this expectation on the field before ascertaining the resources
                       required and its ensuing broad promulgation represented an
                       organizational leadership failure.
                    	 The concept of “desired date” is a scheduling practice unique to VA, and
                       difficult to reconcile against more accepted practices such as negotiating
                       a specific appointment date based on provider availability or using a
                       “return to clinic” interval requested by providers.
                    	 Thirteen percent of scheduling staff interviewed indicated they received
                       instruction (from supervisors or others) to enter in the “desired date” field


VA Office of Inspector General                                                                   67
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                        a date different from the date the veteran had requested. At least one
                        instance of such practices was identified in 76 percent of VA facilities.
                    	 Eight percent of scheduling staff indicated they used alternatives to the
                       EWL or VistA package. At least one of such instance was identified in
                       70 percent of facilities.
                    	 Findings indicate that in some cases, pressures were placed on schedulers
                       to use inappropriate practices in order to make wait times (based on
                       desired date and the wait lists) appear more favorable. Such practices are
                       sufficiently pervasive to require VA to reexamine its entire performance
                       management system and, in particular, whether current measures and
                       targets for access are realistic or sufficient.
                    	 Staffing challenges were identified in small CBOCs, especially where
                       there were small counts of providers or administrative support.

White House         On June 27, 2014, the White House published its review of the issues
Review of VA’s      affecting access to timely care at VA medical facilities. The review
Access to
Care
                    uncovered layers of problems that led to extended wait times for veterans to
                    get medical care, including a “corrosive culture,” and little transparency or
                    accountability. The report highlighted five significant issues that needed to
                    be addressed by VA leadership.
                    	 The 14-day scheduling standard is arbitrary, ill-defined, and
                       misunderstood. The manner in which this unrealistic goal was developed
                       and deployed has caused confusion in reporting and, in some cases, may
                       have incentivized inappropriate actions.
                    	 VHA needs to be restructured and reformed. It currently acts with little
                       transparency or accountability with regard to its management of the VA
                       medical structure. The VHA leadership structure often is unresponsive
                       and unable to effectively manage or communicate to employees or
                       veterans.
                    	 A corrosive culture has led to personnel problems that are seriously
                       affecting morale and by extension, the timeliness of health care. VHA’s
                       extensive field structure is exacerbated by poor management and
                       communication structures, a corrosive culture of distrust between some
                       VA employees and management, a history of retaliation toward
                       employees raising issues, and a lack of accountability.
                    	 VA’s failures have generated a high level of oversight. It must be more
                       agile and responsive in transparently addressing all legitimate oversight
                       requirements. There have been a number of problems identified and
                       recommendations made by the OIG, the Government Accountability
                       Office (GAO), the Office of Special Counsel, Congress, and others. VA
                       has not followed through on sufficiently addressing those problems or
                       implementing those recommendations.

VA Office of Inspector General                                                                  68
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                    	 The technology underlying the basic scheduling system used by VA
                       medical facilities is cumbersome and outdated. However, with regard to
                       increasing access to care, the software of the scheduling system is
                       secondary to the need for additional resources to actually schedule, such
                       as physical space; appropriately trained administrative support personnel;
                       and doctors, nurses, and other health professionals.

VHA                 VHA has resisted external review findings. Since July 2005, OIG published
Resistance to       20 oversight reports on VA patient wait times and access to care, and VA has
Change
                    been resistant to change. For example, VHA did not concur with
                    recommendations from the 2007 OIG report Audit of the Veterans Health
                    Administration’s Outpatient Waiting Times to comply with its own policy to
                    create appointments within 7 days or revert to calculating the wait times of
                    new patients based on the desired date of care. VHA disagreed with OIG’s
                    observations that VHA ignores the medical provider’s desired date for new
                    patients, thereby understating actual wait times. In the 2008 OIG report
                    Audit of Alleged Manipulation of Waiting Times in Veterans Integrated
                    Service Network 3, VHA did not concur with the report’s conclusions and all
                    nine recommendations. The Under Secretary at the time stated that the
                    issues OIG reported reflected the need for policy solutions that VHA was
                    already addressing. Therefore, singling out VISN 3 and holding it
                    accountable was counterproductive. The 20 OIG reports are listed in
                    Appendix F.

                    Even when VHA concurred with our recommendations and submitted an
                    action plan, medical facility directors did not always implement VHA’s
                    program directives and policy changes.

                    For example, VA’s recent Accelerating Access to Care Initiative is a critical
                    part of increasing access to care through the use of Non-VA Care. In
                    August 2009, OIG reported that VHA improperly paid 37 percent of
                    outpatient fee claims, resulting in an estimated $225 million in overpayments
                    and $52 million in underpayments in FY 2008 and an estimated $1.1 billion
                    in overpayments and $260 million in underpayments over a 5-year period.12
                    Also, serious weaknesses in the processes for authorizing outpatient fee care
                    resulted in 80 percent of services lacking proper justification or
                    authorization. We recommended that VHA revise and publish fee policies
                    that establish clear requirements for how medical facilities should justify and
                    authorize outpatient fee care. The then-Acting Under Secretary for Health
                    concurred with the recommendation agreeing the current policies should be
                    updated, with clarifying direction that better reflects current organizational
                    responsibilities.


                    12
                     Audit of Veterans Health Administration’s Non-VA Outpatient Fee Care Program (Report
                    No. 08-02901-185, August 3, 2009)

VA Office of Inspector General                                                                        69
                                            Review of Alleged Patient Deaths, Patient Wait Times, and 

                                           Scheduling Practices at the Phoenix VA Health Care System 




                    However, nearly 2½ years after our 2009 report on the Fee Care Program, we
                    reported PVAHCS mismanaged fee care funds and experienced a budget
                    shortfall of $11.4 million, which was 20 percent of the health care system’s
                    FY 2010 fee care program funds.13 One cause of the shortfall was the lack of
                    effective authorization procedures, the same problem we reported in
                    2009. In fact, the facility processed about $56 million in fee claims without
                    adequate review to ensure services were medically necessary.

                    VHA’s awareness of scheduling issues provided it with an opportunity to
                    abolish the systemic culture of inappropriate scheduling practices. However,
                    as it did with prior audit recommendations, VHA did not hold senior field
                    facility leaders responsible or accountable for ensuring compliance with
                    scheduling procedures.

VHA Waived          VHA Directive 2010-027, dated June 9, 2010, required annual certification
Compliance          (through the VISN Director to the Director of Systems Redesign in the
Certification
                    Office of the Deputy Under Secretary for Health for Operations and
                    Management) of full compliance with the content of this directive. Initial
                    certifications were due 6 months following issuance of the directive and then
                    annually thereafter.

                    As part of the directive, facilities are required to ensure completion, using
                    VISN-approved processes and procedures, of a standardized yearly scheduler
                    audit of the timeliness and appropriateness of scheduling actions and of the
                    accuracy of desired dates. They are also required to ensure that identified
                    deficiencies in competency or performance, identified by the annual
                    scheduler audit, are effectively addressed.

                    However, in May 2013, the Deputy Under Secretary for Health for
                    Operations Management waived the FY 2013 annual requirement for facility
                    directors to certify compliance with the VHA scheduling directive, further
                    reducing accountability over wait time data integrity and compliance with
                    appropriate scheduling practices. According to VHA’s Director of Systems
                    Redesign, who was present when the decision was made, there was
                    significant resistance from medical facility directors to certify compliance
                    with the directive. The facility directors were concerned about certifying
                    results that may be later found inaccurate by the OIG. VHA decided that
                    medical facility directors would instead complete a self-review using a
                    standardized scheduling process checklist.

                    In total, there were 128 facility responses. There were 19 scheduling items
                    on the checklist.      The 19 items included identifying and avoiding
                    inappropriate scheduling activities, checking the EWL daily and acting on

                    13
                     Review of Alleged Mismanagement of Non-VA Fee Care Funds at the Phoenix VA Health
                    Care System (Report No. 11-02280-23, November 8, 2011)

VA Office of Inspector General                                                                      70
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    requests received, and creating appointments in response to consult requests
                    using VistA to link the consult to the scheduled appointment. PVAHCS
                    reported it was in compliance with these three items. The remaining
                    127 facilities reported the following.

                    	 Facilities (114) reported compliance with identifying and avoiding
                       inappropriate scheduling activities.
                    	 Facilities (110) reported compliance with checking the EWL daily and
                       acting on requests received.
                    	 Facilities (105) reported compliance with creating appointments in
                       response to consult requests using VistA to link the consult to the
                       scheduled appointment.

Ethical Lapses      VHA’s IntegratedEthics® model, implemented in VHA Handbook 1004.06,
                    dated August 29, 2013, includes three core functions of integrated ethics:
                    (1) ethics consultation, (2) preventative ethics (which is essentially training
                    and issue awareness), and (3) ethical leadership. Although the current
                    handbook is dated Summer 2013, these three core functions date back to at
                    least 2007 in the primer discussed below as well as the earlier
                    2009 handbook. The principles discussed in this section derive from VHA’s
                    IntegratedEthics® program documents. A lapse in any of the three core
                    functions of the ethics model, especially leadership as it influences the
                    organization’s culture and the behavior of individuals, invites ethical failures.

                    To help VA’s senior and middle management provide ethical leadership,
                    VHA’s National Center for Ethics in Health Care published a primer entitled
                    Ethical Leadership: Fostering an Ethical Environment & Culture in 2007.

                    The primer provides this summary of an ethical leader’s responsibilities.

                        Leaders in the VA health care system have unique obligations that
                        flow from VA’s commitment to providing health care to veterans . . .
                        born of the nation’s gratitude to those who have served in its armed
                        services.

                        	 As public servants, VA leaders are specifically responsible for
                           maintaining the public trust, placing duty above self-interest, and
                           managing resources responsibly.
                        	 As health care providers, VA leaders have a fiduciary obligation
                           to meet the health care needs of individual patients in the context
                           of an equitable, safe, effective, accessible, and compassionate
                           health care delivery system.
                        	 As managers, leaders are responsible for creating a workplace
                           culture based on integrity, accountability, fairness, and respect.

VA Office of Inspector General                                                                    71
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                    The primer also discusses the importance that leaders “understand their
                    influence on the organization’s ethical environment and culture.” Leaders
                    can “inadvertently encourage or endorse unethical behavior despite their best
                    intentions and even without being aware they are doing so. This can happen
                    in any of several ways, such as the following:

                    	 “When leaders set unrealistic or unattainable goals they invite employees
                       to game the system or misrepresent results. When leaders fail to take
                       into account organizational barriers to achieving performance
                       expectations, they may inadvertently set up situations in which the only
                       way to “succeed” is by engaging in behavior that employees know is
                       wrong. In such cases, employees are likely to become cynical, especially
                       when they believe that those who are lauded for their performance have
                       compromised their integrity in order to get there.”

                    	 The failure “to link performance incentives to ethical practice” sets the
                       stage for ethical lapses. “Lopsided incentives can leave employees
                       feeling pressured to do whatever it takes to “make the measure” even
                       when doing so raises ethical concerns. Leaders need to incentivize
                       ethical practices just as they incentivize other behaviors.”

                    	 “When leaders care more about good performance numbers than accurate
                       performance numbers, focus on accreditation requirements as simply a
                       compliance burden,” or “issue orders that are impossible to fulfill, . . .
                       they send messages that have powerful effects in shaping the
                       organization’s environment and how staff members perceive the
                       organization, their place in it, and the behaviors that are valued.”
                    	 “Many messages to employees focus on specific performance
                       expectations. But leaders who have a personal commitment to ethics
                       make it clear that they care not only that the results are achieved, but also
                       how. If a leadership directive is expressed in absolute terms or too
                       forcefully, it can create a strong incentive for staff to “game the system,”
                       or to withhold or even misrepresent information, i.e., “fudge the
                       numbers.” ”

                    The systemic underreporting of wait times resulted from many causes, to
                    include the lack of available staff and appointments, increased patient
                    demand for services, and an antiquated scheduling system. The ethical
                    lapses within VHA’s senior leaders and middle managers also contributed to
                    the unreliability of reported access and wait time issues, which went
                    unaddressed by those responsible. As one symptom of the ethics leadership
                    problem, the Chief Ethics Officer for Health Care Ethics position, along with
                    other positions, was removed from VHA’s National Leadership Board in a
                    reorganization in 2011.


VA Office of Inspector General                                                                   72
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Replacing           Since approximately 2000, VA has made a number of unsuccessful efforts to
VHA’s               replace VHA’s VistA scheduling system. In 2009, for example, VA
Scheduling
System
                    canceled the Replacement Scheduling Application (RSA) project. A
                    March 2009 memo from the Under Secretary for Health to the Acting
                    Assistant Secretary for Information and Technology stated that the RSA
                    project had not developed a single scheduling capability it could provide to
                    the field nor was there any expectation of delivering a capability in the near
                    future. The memo also stated that after more than 5 years and a cost of more
                    than $75 million, the RSA failed to deliver a useable product because of
                    ineffective planning and oversight.

                    In August 2009, we published the OIG report, Review of the Award and
                    Administration of Task Orders Issued by the Department of Veterans Affairs
                    for the Replacement Scheduling Application Development Program (RSA)
                    (Report No. 09-01926-207, August 26, 2009). RSA was a multiyear project
                    to replace the system VHA used to schedule medical appointments for VA
                    patients.    Lacking defined requirements, an information technology
                    architecture, and a properly executed acquisition plan, RSA was at
                    significant risk of failure from the start. We suggested that VA needed
                    experienced personnel to plan and manage the development and
                    implementation of complex information technology projects effectively. We
                    also suggested that a system to monitor and identify problems affecting the
                    progress of projects could support VA’s leadership in making effective and
                    timely decisions to either redirect or terminate troubled projects.

                    Since the cancelation of the RSA project, VA has continued to seek solutions
                    to replace its current scheduling system. In December 2011, VA posted a
                    Request for Information for market research purposes to help VA develop
                    requirements and an acquisition strategy. Throughout 2012, VHA and VA’s
                    Technology Acquisition Center reviewed responses from industry and
                    determined it needed more information. In May 2013, VA decided to
                    conduct an America Competes Act Prize Competition. The winners were
                    notified in November 2013 (four prizes at a cost of $3 million). In FY 2013,
                    VA awarded a $5 million contract to assist the VA project manager, a
                    $1.06 million acquisition support contract, and a $5 million Test and
                    Evaluation Contract to create test environments for the prize competition.
                    To date, no solicitations have been issued for a replacement scheduling
                    system.

                    While VHA’s VistA scheduling system is old and cumbersome, the culture
                    of staff manipulating data is VHA’s primary scheduling issue. If managed
                    effectively, a replacement scheduling system may enhance patient scheduling
                    operations.




VA Office of Inspector General                                                                  73
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Recommendations

                    15.	 We recommended the VA Secretary initiate a nationwide review of
                         veterans on wait lists to ensure that veterans are seen in an appropriate
                         time, given their clinical condition. We provided this recommendation
                         to the former VA Secretary in the Interim Report.
                    16.	 We recommended the VA Secretary direct the Health Eligibility Center
                         to run a nationwide New Enrollee Appointment Request report by
                         facility of all newly enrolled veterans and direct facility leadership to
                         ensure all veterans have received appropriate care or are shown on the
                         facility’s Electronic Wait List. We provided this recommendation to
                         the former VA Secretary in the Interim Report.
                    17.	 We recommended the VA Secretary establish veteran-centric goals and
                         eliminate current goals that divert focus away from providing timely
                         quality care to all eligible veterans.
                    18.	 We recommended the VA Secretary take measures to ensure use of
                         “desired date” is appropriately applied.
                    19.	 We recommended the VA Secretary provide veterans needed care in a
                         timely manner and minimize the use of the Electronic Wait Lists.
                    20.	 We recommended the VA Secretary require facilities to perform
                         internal routine quality assurance reviews of scheduling accuracy of
                         randomly selected appointments and schedulers.
                    21.	 We recommended the VA Secretary initiate a process to selectively
                         monitor calls from veterans to schedulers and then incorporate lessons
                         learned into training or performance plans.
                    22.	 We recommended the VA Secretary conduct a review of the Veterans
                         Health Administration’s Ethics Program to ensure the Program’s
                         operational effectiveness, integrity, and accountability.
                    23.	 We recommended the VA Secretary initiate actions to update the
                         Veterans Health Administration’s current electronic scheduling system
                         and ensure milestones and costs are monitored.
                    24.	 We recommended the VA Secretary ensure that the Veterans Health
                         Administration establishes a mechanism to ensure data representing
                         VA’s national performance are validated by an internal group that has
                         direct access to the Under Secretary for Health.
Management          The VA Secretary concurred with our findings and recommendations and
Comments            stated that VHA would implement Recommendations 17–23 by
                    September 2015,     and   that  VHA      had    already     implemented
                    Recommendations 15, 16, and 24. The Secretary’s entire verbatim response
                    is located in Appendix K.

VA Office of Inspector General                                                                  74
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




OIG Response        The VA Secretary’s planned corrective actions are acceptable. We will
                    monitor VA’s progress and follow up on the implementation of our
                    recommendations until all proposed actions are completed. We will not
                    close Recommendation 15 until VHA provides us national data on the
                    number of veterans currently on wait lists to include data on how long the
                    veterans have been on the wait lists.                  We will not close
                    Recommendation 16 until the OIG completes our ongoing audit of the
                    Health Eligibility Center to ensure the data put forth by the Health Eligibility
                    Center are valid. We consider Recommendation 24 closed based on VA’s
                    actions.




VA Office of Inspector General                                                                   75
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




Appendix A          Background

Phoenix VA          PVAHCS serves veterans in central Arizona through its main medical
Health Care         facility, the Carl T. Hayden VA Medical Center in Phoenix, AZ. Veterans
System
                    can be seen at one of the medical center’s four primary care clinics.

                    PVAHCS also has affiliated health care clinics in the communities of
                    Phoenix, Surprise, Gilbert, Payson, Show Low, and Globe.

                    	 The Thunderbird VA Health Care Clinic in Phoenix serves veterans from
                       the communities of North/Central Phoenix, Glendale, Peoria, Scottsdale,
                       Avondale, Sun City, Goodyear, and Surprise.
                    	 The Northwest VA Health Care Clinic in Surprise serves veterans from
                       the communities of El Mirage, Glendale, Peoria, Sun City, Sun City
                       West, Surprise, Wickenburg, and Wittman.
                    	 The Southeast VA Health Care Clinic in Gilbert serves veterans on the
                       east side of the valley including the communities of Ahwautukee,
                       Apache Junction, Casa Grande, Chandler, Coolidge, Florence, Mesa,
                       Superior, and Queen Creek.
                    	 The Payson VA Health Care Clinic in Payson is a contract clinic offered
                       to veterans through a partnership with Health Net Federal Services. The
                       clinic serves veterans in the greater Payson area.
                    	 The Show Low VA Health Care Clinic in Show Low serves veterans in
                       the communities of Show Low, Strawberry, Pine, Payson, Lakeside,
                       Pinetop, Vernon, Concho, St. Johns, Snowflake, Taylor, Springerville,
                       Eagar, Holbrook, Alpine, Greer, and Whiteriver.
                    	 The Globe-Miami VA Health Care Clinic in Globe serves veterans in the
                       surrounding area.




VA Office of Inspector General                                                                 76
                                              Review of Alleged Patient Deaths, Patient Wait Times, and
                                             Scheduling Practices at the Phoenix VA Health Care System



                       Figure 5 is a map of the locations of the PVAHCS clinics.

                                 Figure 5. PVAHCS Community Clinics


                               PVAHCS	COMMUNITY	CLINICS




                                                                                       Payson Clinic 
   Thunderbird Clinic                                                                    (Payson)
       (Phoenix)


                                                                                      Show Low Clinic 
   Northwest Clinic                                                                     (Show Low)
      (Surprise)

                                                                                  Globe‐Miami Clinic 
                                                                                       (Globe)



                                                                                Southeast Clinic 
                                                                                   (Gilbert)




                       Source: Google Maps

Tracking Wait          In February 2002, the then-Deputy Under Secretary for Health sent a memo
Time Data              to the VHA Deputy Chief Information Officer for Health requesting the
                       development of an EWL to track the demand for services at VA medical
                       facilities. The memo indicated that existing wait time measures reflected the
                       experience of veterans already in the system but did not capture the wait time
                       experience of new veteran enrollees or patients without a scheduled
                       appointment. At the time, “ad hoc” written lists of new veteran enrollees
                       waiting to be entered in the scheduling system were known to exist. The
                       memorandum attempted to formalize an EWL in VistA to more consistently
                       and accurately reflect demand across VHA.

                       In November 2002, the EWL package and Phase I enhancement was
                       released. At the time of release, there had been no VHA software to list and
                       track patients waiting for clinic appointments, primary care team
                       assignments, or PCP assignments. The EWL was intended to assist VA

VA Office of Inspector General                                                                          77
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    medical facilities in managing veterans’ access to outpatient health care and
                    assist clinics in identifying patients in need of appointments.

                    In the outpatient setting, patients are assigned a primary care team and
                    provider who are responsible for delivering care, coordinating health care
                    services, and serving as the point of access for specialty care. This is
                    accomplished through VistA. When a patient cannot be assigned to a
                    primary care team or position, the software asks if the patient should be
                    placed on the EWL. Wait list reports assist in the management of patients
                    awaiting a primary care team or provider assignment.

                    The goal of the EWL is to provide care to the patient as quickly as possible.
                    The EWL:

                    	 Keeps track of appointments, clinics, and providers associated with
                       patients on the various EWLs
                    	 Records and updates patient eligibility information and service-connected
                       status
                    	 Runs background programs to determine changes in the veteran’s
                       service-connected percentage and service-connected priority, as well as
                       changes to appointments, clinics, and personnel that affect EWL patients
                    	 Sends messages to assigned mail groups to notify them of such changes
                    	 Produces reports on demand regarding EWL-related activities




VA Office of Inspector General                                                                  78
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Appendix B          Scope and Methodology

Scope               We conducted this review from April through July 2014. We reviewed
                    allegations at PVAHCS that included gross mismanagement of VA
                    resources, criminal misconduct by VA senior hospital leadership, systemic
                    patient safety issues, and possible wrongful deaths. We initiated this review
                    in response to allegations first reported to the VA OIG Hotline. We
                    expanded our work at the request of the former VA Secretary and the
                    Chairman of the HVAC following an HVAC hearing on April 9, 2014, on
                    delays in VA medical care and preventable veteran deaths.

Methodology         Due to the multitude and broad range of issues, we assembled a
                    multidisciplinary team comprising board-certified physicians, special agents,
                    auditors, and health care inspectors. To address our review objectives, we
                    reviewed applicable laws, regulations, policies, procedures, guidelines, and
                    studies. Our review at PVAHCS included the following actions.

                    	 We interviewed over 200 staff, most with direct knowledge of patient
                       scheduling practices and policies. This included scheduling staff, data
                       analysts, supervisors, patient care providers, management staff, and
                       whistleblowers who reported allegations of wrongdoing.
                    	 We interviewed the principal complainants, including Dr. Samuel Foote
                       (retired PVAHCS physician) and Dr. Katherine Mitchell (Medical
                       Director of the PVAHCS OEF/OIF/OND clinic).
                    	 We collected and analyzed voluminous reports and documents from
                       VHA information technology systems related to patient scheduling and
                       enrollment.
                    	 We obtained and reviewed VA and non-VA medical records of patients
                       who died while on a wait list or whose deaths were alleged to be related
                       to delays in care.
                    	 We reviewed performance standards, ratings, and awards of senior
                       PVAHCS staff.
                    	 We reviewed complaints to the OIG Hotline on delays in care, as well as
                       those complaints shared with us by Members of Congress or reported by
                       the media.
                    	 We reviewed prior reports relevant to these allegations, including
                       administrative boards of investigations or reports from VHA’s Office of
                       the Medical Inspector.
                    	 We reviewed over 1 million email messages, approximately 190,000 files
                       from 11 encrypted computers and/or devices, and over 80,000 converted
                       messages from VistA email.


VA Office of Inspector General                                                                  79
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    During the review, we visited the PVAHCS main campus and three large
                    primary care clinics located at the community-based outpatient sites. The
                    review teams used interviews to determine whether PVAHCS personnel
                    followed established scheduling procedures.

                    Since the PVAHCS story first appeared in the national media, we received
                    approximately 225 allegations regarding PVAHCS and approximately
                    445 allegations of similar issues regarding manipulated wait times at other
                    VA medical facilities through the OIG Hotline. We received additional
                    allegations from Members of Congress, VA employees, veterans and their
                    families, and the media. The VA OIG Office of Investigations opened
                    investigations at 93 sites of care in response to allegations of wait time
                    manipulations. In particular, we focused on whether management ordered
                    schedulers to falsify wait times and EWL records, or attempted to obstruct
                    OIG or other investigative efforts. Investigations continue, in coordination
                    with the Department of Justice and the Federal Bureau of
                    Investigation. These investigations, while some are still ongoing, confirmed
                    that wait time manipulations are prevalent throughout VHA. Among the
                    variations of wait time manipulations, our ongoing investigations, as of
                    August 2014, at the 93 sites have thus far found many medical facilities
                    were:

                    	 Using the next available date as the desired date to “0-out” appointment
                       wait times.
                    	 Canceling appointments and rescheduling them to make wait times
                       appear to be less than they actually were. We substantiated that
                       management at one facility directed schedulers to do this.
                    	 Using paper wait lists rather than the EWL.
                    	 Canceling consults without appropriate clinical review.
                    	 Altering clinic utilization rates to make it appear the clinic was meeting
                       utilization goals.

                    Wherever we confirm potential criminal violations, we will present our
                    findings to the appropriate Federal prosecutor. If prosecution is declined, we
                    will provide documented results of our investigation to VA for whatever
                    administrative action they deem appropriate. We will do the same if our
                    investigations substantiate manipulation of wait times but do not find
                    evidence of any possible criminal intent. Finally, we have also kept the
                    U.S. Office of Special Counsel apprised of our active criminal investigations
                    as they relate to U.S. Office of Special Counsel’s numerous referrals to VA
                    of whistleblower disclosures of allegations relating to wait times and
                    scheduling issues.



VA Office of Inspector General                                                                  80
                                          Review of Alleged Patient Deaths, Patient Wait Times, and
                                         Scheduling Practices at the Phoenix VA Health Care System



Patient Lists       During this review, OIG was provided with numerous lists of PVAHCS
                    patients. These patient lists were retrieved by OIG staff while onsite at
                    PVAHCS; obtained from the PVAHCS Quality Management office and
                    related activities; and obtained from external sources such as OIG’s Hotline,
                    the HVAC, other Congressional sources, and media reports. Furthermore,
                    late in the course of this inspection, we found problems with access to care
                    for patients requiring Urology Services. As a result, Urology Services at
                    PVAHCS will be the subject of a subsequent report. In all, OIG examined
                    the EHRs and other information for 3,409 veteran patients identified from
                    the various lists.

Case Reviews:       OIG physicians reviewed the care provided to patients identified on the
EWL, PVAHCS         following lists.
Physician List,
HVAC List,
Hotline List,          EWL—deceased patients between April 2013 and April 2014
Media List,            Former PVAHCS physician list
Institutional          HVAC list
Disclosure List,
NEAR List, and
                       Hotline referrals up to June 1, 2014
Suicides               Media list
                       Institutional Disclosure List for disclosures made in calendar years
                        2012 and 2013
                       Deceased patients on the NEAR list after January 1, 2012
                       Suicides after January 1, 2012
                    Institutional disclosures include discussions of events not associated with
                    substantial harm. For example, PVAHCS would disclose that a patient’s
                    temperature was taken using an oral probe without a protective cover, a
                    minor surgical procedure had to be interrupted because of a power failure, or
                    an X-ray was performed on the wrong patient.

Case Reviews:       Providers at PVAHCS used the Schedule an Appointment consult
Schedule an         mechanism to refer patients for care to other providers, usually in Primary
Appointment
Consult List and
                    Care. For this purpose, a Schedule an Appointment consult was often used.
Paper Wait List     OIG staff performed preliminary reviews for the 2,426 patients on both
                    the Schedule an Appointment consult list and the “Paper Wait” list
                    using a review tool developed by senior physicians.

                    When a delay in patient care was identified, an in-depth EHR review was
                    conducted. This review included researching previous inpatient admissions,
                    reviewing ED visits, admissions at other VA facilities, VA registration data,
                    and correspondence between a patient and PVAHCS. Reviewers used
                    clinical judgment to determine whether, in their opinion, an identified delay
                    could have translated into a harmful outcome or a potentially harmful
                    outcome. When such a situation was identified, the EHR was flagged for an
                    in-depth physician review (“second-level physician review”).


VA Office of Inspector General                                                                  81
                                           Review of Alleged Patient Deaths, Patient Wait Times, and
                                          Scheduling Practices at the Phoenix VA Health Care System



                    Overall, 13 reviewers, selected based on their medical training and patient
                    care experience, performed this initial screening. The reviewers were
                    supervised by a physician.

                    Reviewers referred 341 of the 2,426 patient EHRs for physician
                    review. This second-level review involved reexamination of the
                    available information in the VA EHR, along with a review of any
                    pertinent non-VA treatment records that would help in making an
                    informed assessment regarding the effect of the delay on the veteran’s
                    health care. For many of these secondary evaluations, case review
                    meetings were conducted with senior physician staff to present complex
                    cases and formulate a consensus.
Case Reviews        OIG inspectors obtained a list from the PVAHCS’s former SPC of all patient
for Mental          suicides from May 23, 2010, through May 6, 2014, known to the facility and
Health
                    reported to the VA’s Center of Excellence for Suicide Prevention in
                    Canandaigua, NY. OIG physicians (including two psychiatrists) reviewed
                    the EHRs of 77 patients on the list who committed suicide between
                    January 1, 2012, and May 6, 2014. Thirty of the 77 suicides initially were
                    not known to the SPC but later came to the attention of the SPC from the
                    PVAHCS Quality Management office.

                    OIG inspectors also obtained a spreadsheet of 171 PVAHCS patients on a
                    wait list for psychotherapy services from the Director of Psychology at the
                    PVAHCS. PVAHCS reported that most of the patients on the list were
                    referred for psychotherapy to non-VA providers. These referrals were made
                    in early May 2014 through the TriWest contract. OIG clinician inspectors
                    and an OIG psychiatrist reviewed the EHRs for all patients on the list in
                    order to ascertain an updated status for pending psychotherapy consults. For
                    patients authorized for Non-VA Care through TriWest but still awaiting an
                    appointment per the EHR, we obtained updates as of July 9, 2014.

                    We interviewed the Director of the VA Center of Excellence for Suicide
                    Prevention, the PVAHCS’ former SPC, a facility suicide prevention case
                    manager, the Chief of Primary Care at the PVAHCS, the Chief of the
                    Psychiatry Department, the Director of Psychology Services, the Section
                    Chief for Outpatient Psychiatry, nine psychiatric providers in the Jade/Opal
                    clinic, three psychologist providers in the Jade/Opal clinic, a clinical social
                    worker in the Jade/Opal clinic, five of the clinic’s registered nurses, two
                    nursing assistants, a home telehealth nurse, and three of the Jade/Opal
                    clinic’s medical support assistants.

Records             Patient records were reviewed in VA’s Compensation and Pension Record
                    Interchange database that includes the EHR. Also, as needed, images and
                    additional data were downloaded from VA’s Computerized Patient Record
                    System (CPRS).


VA Office of Inspector General                                                                   82
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    Several patients in cases reviewed herein opted for Non-VA Care at critical
                    junctures. As needed, we obtained the relevant private sector medical
                    records and interviewed caregivers and family members. For all deceased
                    patients reviewed in a second-level physician review, we obtained death
                    certificates from Maricopa County and the State of Arizona, whom we would
                    like to acknowledge for their cooperation and expedience in meeting our
                    request.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           review objectives. The Office of Audits and Evaluations, the Office of
                    Healthcare Inspections, and the Office of Investigations completed this
                    independent, joint review in accordance with the Council of the Inspectors
                    General on Integrity and Efficiency’s Quality Standards for Inspection and
                    Evaluation (January 2012).




VA Office of Inspector General                                                                  83
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Appendix C 	 Statistical Sampling Methodology

                    We selected two random samples of primary care appointments completed at
                    PVAHCS. Both samples were evaluated to determine the reported wait
                    times based on our assessment of the earliest indication a patient desired
                    care.

Populations	        We sampled two populations. The first sample’s population consisted of
                    26,382 primary care appointments for new and established patients that were
                    completed during June through August 2013. The second population
                    consisted of 12,341 primary care appointments for new patients during
                    FY 2013 including 1,352 completed in August 2013.

Sampling            We selected a simple random sample of 80 appointments from the first
Design              population described above. We stratified the second population into eight
                    strata and reviewed a sample of 226 appointments. We stratified the sample
                    based on the month the appointment was completed (August or not August)
                    and based on whether the veteran was ever on the EWL, received a Schedule
                    an Appointment consult, or both.

Weights	            We calculated estimates in this report using weighted sample data. Sampling
                    weights were computed by taking the product of the inverse of the
                    probabilities of selection at each stage of sampling.

Projections         We used a 90 percent confidence interval and the midpoint of our estimates
and Margins         for our projections. The margins of error and confidence intervals are
of Error
                    indicators of the precision of the estimates. If we repeated this audit with
                    multiple samples, the confidence intervals would differ for each sample, but
                    would include the true population value 90 percent of the time.




VA Office of Inspector General                                                                  84
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




                    Table 3 provides our projections and margins of error.

                                   Table 3. Projections and Margins of Error
                                                                90%
                                                                                  90%
                                  Sample         Margin      Confidence
                                                                               Confidence        Sample
        Category                 Estimate        of Error     Interval
                                                                                Interval          Size
                                 (Percent)      (Percent)      Lower
                                                                               Upper 90%
                                                                90%
 New/Established
 Patient Appointments
                                   58.8             9.2           49.5            68.0              80
 Completed in 7 Days
 of Desired Date
 New Patient
 Appointments
 Completed in 14 Days              13.4             8.7            4.8            22.1             226
 of Create Date
 (FY 2013)
 New Patient
 Appointments
 Completed in 14 Days              16.1             7.9            8.3            24.0             107
 of Create Date (August
 2013)
  Source: OIG Analysis




VA Office of Inspector General                                                                      85
                                                 Review of Alleged Patient Deaths, Patient Wait Times, and
                                                Scheduling Practices at the Phoenix VA Health Care System



Appendix D          Phoenix Outreach Campaign, Health Resource Center




                                   DEPARTMENT OF VETERANS AFFAIRS
                                          Health Resource Center
                                        3401 SW 21st St., Building 9
                                             Topeka, KS 66604

               June 30, 2014

                                                                      In Reply Refer To: Director/00

               Mr. Steven Young
               650 E Indian School Road
               Phoenix, AZ 85012

               Mr. Young-

               We were proud to support your facility in identifying Veteran’s needs for potential care.
               Our outbound call campaign has completed, however, there is a chance the data may
               change due to inbound phone calls received by the Health Resource Center (HRC). In
               addition, we understand Phoenix VAMC staff continue to contact the Veterans we were
               unsuccessful in reaching. Please find below a summary of HRC’s efforts.

                                         Phoenix Outreach Campaign
               Executive Overview – The Phoenix VAMC requested the HRC to contact Veterans
               identified by the Phoenix VAMC regarding scheduling appointments for health care.
               The Phoenix VAMC identified 3091 Veterans requiring contact 19 of which were
               duplicated. The list of unique records included 169 records with no phone number
               listed and 41 deceased Veterans leaving a total of 2862 total available records for the
               HRC to contact. In campaign 1 the HRC Contact Representatives (CRs) were able to
               locate an extra 19 Veteran’s phone numbers out of the list of those that did not have a
               phone number listed on the original report increasing the total of available contacts to
               2881. Out of the 2881 contacts 11 of the calls resulted in an urgent priority, 146 of the
               calls were high priority, 722 of the calls were medium priority, and 2002 of the calls
               were low priority. The first campaign began on 5/29/14 and the last campaign ended
               6/10/14. The Health Resource Center was tasked to make three attempts for each
               identified Veteran. All outbound calls were documented according to our internal
               procedures (a service request created for each attempt and a documented disposition).
               The snapshot below is related to a fixed point in time. The reported numbers may
               change due to inbound calls associated with voicemails left by the HRC and inbound
               calls related to mailings by the Phoenix VAMC.




                                                                                      Revised 06/24/2014 12:30 PM CST




VA Office of Inspector General                                                                                          86
                                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                             Scheduling Practices at the Phoenix VA Health Care System 





               Campaign 1 – The Phoenix VAMC originally provided a list of 1704 Veterans to the
               HEC. The list included 19 entries that were determined to be duplicated leaving
               1685 unique Veteran records. The list of unique records included 108 records with no
               phone number listed and 14 deceased Veterans leaving a total of 1563 total available
               records for the HRC to contact. Through the effort of the HRC CRs making the phone
               calls an extra 19 Veteran’s phone numbers were located to be contacted raising the
               number of records to be attempted to 1582. Out of the 1582 contacts 9 of the calls
               resulted in an urgent priority, 112 of the calls were high priority, 529 of the calls were
               medium priority, and 932 of the calls were low priority.

                                                    Phoenix NEAR Outreach Campaign 1
                 Veterans on original NEAR list                                                                       1704
                        Duplicate Entries Found                                                                        19
                 Total Records Received by HRC (excluding duplicates)                                                 1685
                 Total No Phone Number or Deceased Records                                                             122
                        No Phone Number                                                                                108
                        Deceased                                                                                       14
                 Net Veterans requiring Contact                                                                      1563
                                                                 Campaign 1 Metrics
                 Veterans Contacted (PRM Referral Sent)*                                                              1582
                       Urgent (Crisis Call or Emergency Services)                                                       9
                       High (Request Appt. within 7 Days)                                                              112
                       Medium (Request Appt. within 30 Days)                                                           529
                       Low (Request Appt. within 90 Days,
                       wrong/disconnected number, or unsuccessful 3rd
                       attempt)                                                                                        932
                             Requesting Appointment within 90 Days                                                      8
                             Veteran already has appointment                                                           218
                             Unsuccessful in 3 Attempts                                                               508
                             Transferred to another VAMC                                                               27
                             Requesting not to be contacted                                                            164
                             Deceased (Discovered by HRC outbound call)                                                 7
                                                                                                       Current as of June 4, 2014 10:00 AM CST
                  * Defined as: Veterans Verbally Contacted, 3 attempted calls with message left, or wrong/disconnected number




                                                                                                                  Revised 06/24/2014 12:30 PM CST




VA Office of Inspector General                                                                                                                      87
                                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                             Scheduling Practices at the Phoenix VA Health Care System 





               Campaign 2 – The Phoenix VAMC identified an additional 823 Veterans requiring
               contact. The list of unique records included 55 records with no phone number listed and
               23 deceased Veterans leaving a total of 745 total available records for the HRC to
               contact. Out of the 745 contacts 1 of the calls resulted in an urgent priority, 9 of the
               calls were high priority, 127 of the calls were medium priority, and 608 of the calls
               were low priority.

                                                   Phoenix NEAR Outreach Campaign 2
                 Veterans on original NEAR list                                                                       823
                        Duplicate Entries Found                                                                         0
                 Total Records Received by HRC (excluding duplicates)                                                 823
                 Total No Phone Number or Deceased Records                                                             78
                        No Phone Number                                                                                55
                        Deceased                                                                                       23
                 Net Veterans requiring Contact                                                                       745
                                                                 Campaign 2 Metrics
                 Veterans Contacted (PRM Referral Sent)*                                                               745
                       Urgent (Crisis Call or Emergency Services)                                                       1
                       High (Request Appt. within 7 Days)                                                               9
                       Medium (Request Appt. within 30 Days)                                                           127
                       Low (Request Appt. within 90 Days,
                       wrong/disconnected number, or unsuccessful 3rd
                       attempt)                                                                                       608
                             Requesting Appointment within 90 Days                                                     13
                             Veteran already has appointment                                                            16
                             Unsuccessful in 3 Attempts                                                                347
                             Does not want an appointment                                                              164
                             Requesting not to be contacted                                                            57
                             Deceased (Discovered by HRC outbound call)                                                 11
                                                                                                         Current as of June 6, 2014 8:40 AM CST
                  * Defined as: Veterans Verbally Contacted, 3 attempted calls with message left, or wrong/disconnected number




                                                                                                                    Revised 06/24/2014 12:30 PM CST




VA Office of Inspector General                                                                                                                        88
                                                             Review of Alleged Patient Deaths, Patient Wait Times, and
                                                            Scheduling Practices at the Phoenix VA Health Care System



               Campaign 3 – The Phoenix VAMC identified an additional 564 Veterans requiring
               contact. The additional Veterans requiring contact were identified after a comparison
               review was completed between the Veteran contacts received in the previous two
               campaigns and the official Office of Inspector General (OIG) report. The list of unique
               records included 6 records with no phone number listed and 4 deceased Veterans
               leaving a total of 554 total available records for the HRC to contact. Out of the
               554 contacts 1 of the calls resulted in an urgent priority, 25 of the calls were high
               priority, 66 of the calls were medium priority, and 462 of the calls were low priority.

                                                  Phoenix NEAR Outreach Campaign 3
                 Veterans on original NEAR list                                                                       564
                       Duplicate                                                                                       0
                 List Received by HRC (excluding duplicates)                                                          564
                 Veterans (No Phone Number or Deceased)                                                                10
                       No Phone Number                                                                                 6
                       Deceased                                                                                        4
                 Net Veterans requiring Contact                                                                      554
                                                                Campaign 3 Metrics
                 Veterans Contacted (PRM Referral Sent)*                                                              544
                      Urgent (Crisis Call or Emergency Services)                                                       1
                      High (Request Appt. within 7 Days)                                                              25
                      Medium (Request Appt. within 30 Days)                                                           66
                      Low (Request Appt. within 90 Days,
                      wrong/disconnected number, or unsuccessful 3rd
                      attempt)                                                                                        462
                            Requesting Appointment within 90 Days                                                      11
                            Veteran already has appointment                                                           170
                            Unsuccessful in 3 Attempts                                                                153
                            Does not want/need an appointment                                                         45
                            Requesting not to be contacted                                                             5
                            Deceased (Discovered by HRC outbound call)                                                 1
                            Wrong Phone #                                                                              51
                            Disconnected Phone                                                                         17
                            Transferred to another VAMC                                                                9
                                                                                                      Current as of June 11, 2014 11:00 AM CST
                 * Defined as: Veterans Verbally Contacted, 3 attempted calls with message left, or wrong/disconnected number




                      Matthew Eitutis
                      Director, Health Resource Center; (785)350-3742
                                                                                                                           Revised 06/24/2014 12:30 PM CST

                      Cc: Linda Halliday, Assistant IG for Audits; VA Office of Inspector General




VA Office of Inspector General                                                                                                                               89
                                          Review of Alleged Patient Deaths, Patient Wait Times, and
                                         Scheduling Practices at the Phoenix VA Health Care System



Appendix E          Chronology of OIG Oversight of Patient Wait Times

                    For almost a decade, OIG and GAO reviews identified that VHA managers
                    needed to improve efforts for collecting, trending, and analyzing clinical
                    data. The following provides selected highlights in a chronological
                    summary of OIG oversight addressing wait times, scheduling practices, data
                    integrity concerns, and the lack of physician and nurse staffing standards.

                OIG reported, in the Audit of Veterans Health Administration’s Outpatient
                Scheduling Procedures, July 2005, that VHA did not follow established
                procedures when scheduling appointments, resulting in inaccurate wait times and
                lists. OIG found:
      2005         Nationwide electronic wait lists could be understated by as many as
                    10,000 veterans.
                   VHA lacks standardized training programs for scheduling.
                   VHA had insufficient oversight.

                OIG reported in the Review of Access to Care in the Veterans Health
                Administration, May 2006, that VA medical facilities did not have effective
                controls to ensure all newly enrolled veterans in need of care received it and
                within VHA’s goal of 30 days of the desired date of care. Nor did it have
                effective controls to ensure veterans received clinically indicated specialty
                procedures within a reasonable time. OIG recommended VA:
      2006
                   Monitor the demand for non-institutional care.
                   Direct VHA facilities to implement tracking mechanisms to identify newly
                    enrolled veterans.
                   Establish standardized tracking methods and appropriate performance metrics
                    throughout all medical facilities.




VA Office of Inspector General                                                                  90
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 





                OIG performed a follow-up audit, Audit of Veterans Health Administration’s
                Outpatient Waiting Times, September 2007, again concluding the data in the
                scheduling system remained inaccurate. We reviewed 300 consult referrals and
                found more than 180 veterans were not on a wait list, but should have been. In
                addition, only 75 percent of appointments met 30 days for consults.

                	 VHA disagreed and said that patient preference caused the unexplained
                   differences.
                	 Although policy requires schedulers to document patient preferences, VHA
                   felt this was an unreasonable expectation.
                   VHA concluded that the system lacked documentation to support its position.

                Contrary to OIG reports, VA reported high performance in the VA Performance
      2007      and Accountability Reports, even after we had twice reported the scheduling
                system contained inaccurate, incomplete, and unreliable data.

                We testified in December 2007 that these issues go beyond reported wait times.
                Debating whose numbers are more correct only overshadows the primary point of
                both our prior audit reports, which is that the information in the VHA scheduling
                system is incomplete.

                As reported in the Major Management Challenges, OIG reviews have shown
                unacceptably high wait times, and delays remain in obtaining sub-specialty
                procedures and sub-specialty medical diagnoses. OIG continues to identify wait
                times and patient wait lists, a problem about which OIG has reported and sought
                corrective action since 2005. OIG will continue to review medical outcomes and
                quality of care issues.

                In VA’s Major Management Challenges, OIG reported VA made only limited
                progress in addressing the longstanding and underlying causes of problems with
                outpatient scheduling, accuracy of reported wait times, and completeness of
                electronic wait lists. Of concern is VHA’s delay in implementing appropriate
                quality procedures necessary to ensure the reliability of wait times and wait lists.

                The May 2008 OIG report on VISN 3 wait times determined scheduling
      2008      procedures were not followed, which affected the reliability of reported wait times
                and caused inaccuracies in the electronic wait lists. OIG recommended VHA
                establish procedures to routinely test the accuracy of reported wait times and the
                completeness of electronic wait lists, as well as take corrective action when its
                testing shows questionable differences between the desired dates of care and those
                documented in the scheduling system.




VA Office of Inspector General                                                                    91
                                           Review of Alleged Patient Deaths, Patient Wait Times, and
                                          Scheduling Practices at the Phoenix VA Health Care System



                OIG reported that the problems and the causes associated with scheduling, wait
                times, and wait lists are systemic throughout VHA.

                VHA disagreed with the report’s conclusions and all nine recommendations. The
                Under Secretary stated that the issues OIG reported reflected the need for policy
                solutions that VHA was already addressing. Therefore, singling out VISN 3 and
      2008      holding them accountable was counterproductive.
    (cont’d)
                OIG investigated an allegation that VA employees at PVAHCS altered patient
                wait times in an effort to improve their performance measures. OIG found that it
                was an accepted past practice at the medical center to alter appointments to avoid
                wait times greater than 30 days and that some employees still continued that
                practice.


                OIG reported longstanding problems with outpatient scheduling delays, accuracy
                of reported wait times, and incomplete electronic wait lists. OIG recommended
                VHA implement an effective method to accurately measure and report outpatient
                appointments. VA’s response, to address variations in the quality of care, was to
      2009      establish new directives outlining VHA’s leadership and accountability at all
                levels of the organization, and to improve communication throughout VA.

                OIG listed outpatient scheduling, wait times, and EWL data integrity issues as
                OIG’s first “hot issues” paper in Administration transition briefing materials.


                OIG reported VHA lacked the management controls needed to ensure CBOCs
                provided with veterans consistent, quality care. OIG noted that CBOC primary
      2010      care data were inaccurate. VA responded with new directives providing more
                detailed instruction for schedules on correct entry of the desired date and other
                essentials to improve the scheduling of veterans’ appointments.

                OIG testified before the House and Senate Committees on Veterans’ Affairs that
                VHA’s mental health performance data are not accurate or reliable, and its
                measures do not adequately reflect critical dimensions of mental health care
                access.

                The inaccuracies in some of VHA’s data sources presently hinder the usability of
      2012      information by VHA decision makers to fully assess their:
                   Current capacity
                   Optimal resource distribution
                   Productivity across the system
                   Establishment of mental health staffing and productivity standards


VA Office of Inspector General                                                                   92
                                           Review of Alleged Patient Deaths, Patient Wait Times, and 

                                          Scheduling Practices at the Phoenix VA Health Care System 




                In VA’s 2011 Performance Accountability Report, VHA reported 95 percent of
                first-time patients received a full mental health evaluation within 14 days. Our
                analysis of the same information calculated only 49 percent of the first-time
                patient’s initial contact in Mental Health and their full mental health evaluation
                occurred within their goal of 14 days.
                OIG also reported that controls over pre-authorizing of fee care services needed
                improvement. In FY 2011, OIG substantiated an allegation that PVAHCS
                experienced an $11.4 million budget shortfall—20 percent of the non-VA fee care
                programs funded for that year. Health care system management did not have
                sufficient procedural and monitoring controls to establish that:
                   The official designated to pre-authorize fee care thoroughly reviewed requests
                   Clinical staff conducted necessary utilization and concurrent reviews
      2012         Fee staff obligated sufficient funds for fee care
    (cont’d)    As a result, PVAHCS had to obtain additional funds from the National Fee
                Program and VISN 18, and it had to cancel equipment purchases to cover the
                $11.4 million shortfall. OIG concluded that authorization procedures and the
                procedures to obligate sufficient funds to insure it could pay its commitments
                were so weak that PVAHCS processed about $56 million of fee claims during
                FY 2010 without adequate review.
                OIG’s Audit of VHA’s Physician Staffing Levels for Specialty Care Services
                identified the need for VHA to improve its staffing methodology by implementing
                productivity standards. OIG determined VHA had not established productivity
                standards for 31 of 33 specialty care services reviewed, and had not developed
                staffing plans that addressed the facilities’ mission, structure, workforce,
                recruitment, and retention issues to meet current or projected patient outcomes,
                clinical effectiveness, and efficiency. VA agreed to put staffing standards for
                specialty care in place by FY 2015.
                OIG, in the Review of Patient Wait Times, Scheduling Practices, and Alleged
                Patient Deaths at the Phoenix Health Care System - Interim Report,
                May 2014, substantiated serious conditions at PVAHCS. We identified about
                1,400 veterans who did not have a Primary Care appointment but were
                appropriately included on PVAHCS’s EWLs. However, we identified an
                additional 1,700 veterans who were waiting for a Primary Care appointment but
                were not on the EWL. Until that happens, the reported wait time for these
      2014      veterans has not started. Most importantly, these veterans were and continue to be
                at risk of being forgotten or lost in PVAHCS’s convoluted scheduling process.
                Our reviews at additional VA medical facilities provided insight into the current
                extent of these inappropriate scheduling issues throughout the VA health care
                system and have confirmed that inappropriate scheduling practices are systemic.
                OIG testified on VA Data Manipulation and Access to VA health care before the
                HVAC, Subcommittee on Oversight and Investigations.

VA Office of Inspector General                                                                    93
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Appendix F          OIG Oversight Reports on VA Patient Wait Times

                    A list of the published OIG reports follows.

                    1.	   Audit of the Veterans Health Administration’s Outpatient Scheduling
                          Procedures (7/8/2005)

                    2.	   Review of Access to Care in the Veterans Health Administration
                          (5/17/2006)

                    3.	   Audit of the Veterans Health Administration’s Outpatient Waiting
                          Times (9/10/2007)

                    4.	   Audit of Alleged Manipulation of Waiting Times in Veterans Integrated
                          Service Network 3 (5/19/2008)

                    5.	   Audit of Veterans Health Administration’s Efforts to Reduce Unused
                          Outpatient Appointments (12/4/2008)

                    6.	   Healthcare Inspection – Mammography, Cardiology, and Colonoscopy
                          Management Jack C. Montgomery VA Medical Center Muskogee,
                          Oklahoma (2/2/2009)

                    7.	   Audit of Veterans Health Administration’s Non-VA Outpatient Fee
                          Care Program (8/3/2009)

                    8.	   Veterans Health Administration Review of Alleged Use of
                          Unauthorized Wait Lists at the Portland VA Medical Center
                          (8/17/2010)

                    9.	   Healthcare Inspection – Delays in Cancer Care West Palm Beach VA
                          Medical Center West Palm Beach, Florida (6/29/2011)

                    10.	 Healthcare Inspection – Electronic Waiting List Management for
                         Mental Health Clinics Atlanta VA Medical Center Atlanta, Georgia
                         (7/12/2011)

                    11.	 Review of Alleged Mismanagement of Non-VA Fee Care Funds at the
                         Phoenix VA Health Care System (11/8/2011)

                    12.	 Healthcare Inspection – Select Patient Care Delays and Reusable
                         Medical Equipment Review Central Texas Veterans Health Care
                         System Temple, Texas (1/6/2012)

                    13.	 Review of Veterans’ Access to Mental Health Care (4/23/2012)



VA Office of Inspector General                                                                   94
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                    14.	 Healthcare Inspection – Access and Coordination of Care at Harlingen
                         Community Based Outpatient Clinic VA Texas Valley Coastal Bend
                         Health Care System Harlingen, Texas (8/22/2012)

                    15.	 Healthcare Inspection – Consultation Mismanagement and Care
                         Delays Spokane VA Medical Center, Spokane, Washington (9/25/2012)

                    16.	 Healthcare Inspection – Delays for Outpatient Specialty Procedures
                         VA North Texas Health Care System Dallas, Texas (10/23/2012)

                    17.	 Audit of VHA’s Physician Staffing Levels for Specialty Care Services
                         (12/27/2012)

                    18.	 Healthcare Inspection – Patient Care Issues and Contract Mental
                         Health Program Mismanagement Atlanta VA Medical Center Decatur,
                         Georgia (4/17/2013)

                    19.	 Healthcare Inspection – Gastroenterology Consult Delays William
                         Jennings Bryan Dorn VA Medical Center Columbia, South Carolina
                         (9/6/2013)

                    20.	 Review of Patient Wait Times, Scheduling Practices, and Alleged
                         Patient Deaths at the Phoenix Health Care System - Interim Report
                         (5/28/2014)




VA Office of Inspector General                                                                   95
                                                   Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                  Scheduling Practices at the Phoenix VA Health Care System 


Appendix G           VHA Directive 2010-027: VHA Outpatient Scheduling
                     Processes and Procedures, June 9, 2010


       DEPARTMENT OF VETERANS AFFAIRS                                      VHA DIRECTIVE 2010-027
       VETERANS HEALTH ADMINISTRATION
       WASHINGTON, DC 20420                                                                JUNE 9, 2010

                 VHA OUTPATIENT SCHEDULING PROCESSES AND PROCEDURES

       1. PURPOSE: This Veterans Health Administration (VHA) Directive provides policy for
       implementing processes and procedures for the scheduling of outpatient clinic appointments and
       for ensuring the competency of staff directly or indirectly involved in any, or all, components of
       the scheduling process.
        2. BACKGROUND

            a.   It is VHA’s commitment to provide clinically appropriate quality care for eligible
       Veterans when they want and need it. This requires the ability to create appointments that meet
       the patient’s needs with no undue waits or delays. Wait times for patients to be seen through
       scheduled appointments in primary care and specialty care clinics are monitored. In addition,
       patients (both new and established) are surveyed to determine if they received an appointment
       when they wanted one.
           b. VHA is mandated to provide priority care for non-emergent outpatient medical services
       for any condition of a service-connected (SC) Veteran rated 50 percent or greater or for a
       Veteran’s SC disability. Priority scheduling of any SC Veteran must not impact the medical care
       of any other previously scheduled Veteran. Veterans with SC disabilities are not to be prioritized
       over other Veterans with more acute health care needs. Emergent or urgent care is provided on an
       expedient basis. Emergent and urgent care needs take precedence over a priority of service
       connection.
            c.   The assurance of timely access to care requires consistent and efficient use of Veterans
       Health Information Systems and Technology Architecture (VistA) in the scheduling of outpatient
       clinic appointments.
           d. Tracking and assessing the utilization and resource needs for specialty care also require
       use of the Computerized Patient Record System (CPRS) electronic consult request package.
           e.    Definitions
          (1) Desired Date. The desired appointment date is the date on which the patient or provider
       wants the patient to be seen. Schedulers are responsible for recording the desired date correctly.
           (2) Emergent and Urgent Care
            (a) Urgent Care is care for an acute medical or psychiatric illness or for minor injuries for
       which there is a pressing need for treatment to manage pain or to prevent deterioration of a
       condition where delay might impair recovery. For example, urgent care includes the follow-up
       appointment for a patient discharged from a Department of Veterans Affairs (VA) medical facility
       if the discharging physician directs the patient to return on a specified day for the appointment.


                               THIS VHA DIRECTIVE EXPIRES JUNE 30, 2015




VA Office of Inspector General                                                                              96
                                                     Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                    Scheduling Practices at the Phoenix VA Health Care System 



       VHA DIRECTIVE 2010-027
       June 9, 2010


            (b) Emergency care is the resuscitative or stabilizing treatment needed for any acute medical
       or psychiatric illness or condition that poses a threat of serious jeopardy to life, serious impairment
       of bodily functions, or serious dysfunction of any bodily organ or part.
           (3) Provider. A provider is an individual licensed to deliver health care and services to
               patients.
           (4) Service-Connected (SC). Service connection or “service-connected” means that VA
       has determined that a condition or disability was incurred in, or has been aggravated by, military
       service.
           (5) Non-Service Connected (NSC). NSC refers to a condition or disability VA has not
       determined was incurred in, or has been aggravated by, military service.
           (6) New Enrollee. A new enrollee is a previously non-enrolled Veteran who applies for VA
       health care benefits and enrollment by submitting VA Form 10-10EZ, Application for Health
       Benefits, is determined to be eligible, and is enrolled.
           (7) New Enrollee Appointment Request (NEAR) Call List. The NEAR Call List is a tool
       to be used by enrollment staff to communicate to Primary Care Management Module (PCMM)
       Coordinators or schedulers, at the Veteran’s designated preferred location, that a newly enrolled
       Veteran has requested an appointment during the enrollment process.
            (8) Appointment Type. Using VistA, an outpatient appointment requires the selection of at
       least one appointment type, which combined with the “Purpose of Visit” code creates one of 40
       unique appointment types. Appointment types can be critical when scheduling different types of
       appointments. Examples of appointment types include: regular, employee, collateral of Veteran,
       sharing agreement, etc. For a complete list of appointment types, see the Patient Appointment
       Information Transmission (PAIT) Release Notes and Installation Guide Patch SD*5.3*333 at
       http://www.va.gov/vdl/documents/Clinical/Patient_Appointment_Info_Transmission/sd_53_p33
       3_rn.doc.
           (9) Newly registered Patient to the Facility. A newly registered patient to the facility is a
       Veteran who is enrolled with VHA, but who has not been registered at a specific facility.
           (10) New Patient as Defined for VHA Wait Time Measurement Purposes. For VHA
       Wait Time Measurement purposes, a “new patient” is any patient not seen by a qualifying
       provider type within a defined stop code or stop code group at that facility, within the past 24
       months.
       NOTE: See data definitions at http://vssc.med.va.gov/WaitTime/New_Patient_Monitor.asp# . This
       is an internal VA Web site not available to the public. In order to access this site, VA staff may
       need to go first to http://vssc.med.va.gov and accept the VHA Support Service Center Data Use
       Agreement.




       2




VA Office of Inspector General                                                                                   97
                                                     Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                    Scheduling Practices at the Phoenix VA Health Care System 



                                                                               VHA DIRECTIVE 2010-027
                                                                                          June 9, 2010

            (11) Electronic Wait List (EWL). The EWL is the official VHA wait list. The EWL is
       used to list patients waiting to be scheduled, or waiting for a panel assignment. In general, the
       EWL is used to keep track of patients with whom the clinic does not have an established
       relationship (e.g., the patient has not been seen before in the clinic).
            (12) Service Agreement. A service agreement is a written agreement defining the work
       flow rules between any two or more services that send work to one another. Ideally, this
       document is developed based on discussion and consensus between the two or more involved
       services. The document is signed by service chiefs from involved services. If the agreement is
       between services at separate facilities, as with inter-facility consult service agreements, it needs to
       be signed by the Chiefs of Staff of each involved facility.
           (13) Encounter. An encounter is a professional contact between a patient and a provider
       vested with responsibility for diagnosing, evaluating, and treating the patient’s condition.
            (a) Contact can include         face-to-face   interactions   or   those   accomplished     using
       telecommunications technology.
           (b) Encounters are neither occasions of service nor activities incidental to an encounter for a
       provider visit. For example, the following activities are considered part of the encounter itself and
       do not constitute encounters on their own: taking vital signs, documenting chief complaint,
       giving injections, pulse oximetry, etc.
           (c) Use of e-mail is limited and does not constitute an encounter. E-mail communications
       are not secure and e-mails must not contain patient specific information. NOTE: Secure
       messaging communication is available through the My HealtheVet (MHV) personal health record
       (PHR). These communications may meet the definition of an encounter, based on type of message
       and content.
            (d) A telephone contact between a practitioner and a patient is only considered an encounter
       if the telephone contact is documented and that documentation includes the appropriate elements
       of a face to face encounter, namely, history and clinical decision-making. Telephone encounters
       must be associated with a clinic that is assigned one of the Decision Support System (DSS)
       Identifier telephone codes and are designated as count clinics.
           (14) Occasion of Service. Formerly known as ancillary service, an “occasion of service” is
       a specified identifiable instance of an act of technical and administrative service involved in the
       care of a patient or consumer, which is not an encounter and does not require independent clinical
       judgment in the overall diagnosing, evaluating, and treating the patient's condition(s).
            (a) Occasions of service are the result of an encounter. Clinical laboratory tests,
       radiological studies, physical medicine interventions, medication administration, and vital sign
       monitoring are all examples of occasions of service.
           (b) Some occasions of service, such as clinical laboratory and radiology studies and tests,
       are automatically loaded to the Patient Care Encounter (PCE) database from other VistA
       packages.




                                                                                                            3




VA Office of Inspector General                                                                                   98
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



       VHA DIRECTIVE 2010-027
       June 9, 2010

            (15) Count. The term “count” refers to workload that meets the definition of an encounter
       or occasion of service.
            (16) Count versus Non-Count Clinics. In the creation of Clinic Profiles, clinics are
       designated as either Count Clinics or Non-Count Clinics. Count Clinics are transmitted to PCE as
       encounters. Non-Count Clinics are not transmitted to PCE. There are generally two reasons why
       a clinic might be designated as non-count: if the clinic is administrative in nature and therefore
       not providing patient care; and if the workload associated with the clinic is transmitted to PCE
       automatically through another means (a VistA package other than Scheduling) then the clinic is
       setup as non-count to avoid sending duplicate workload to PCE (for example, occasions of
       service.)
           (17) DSS Identifiers. DSS Identifiers are used to measure workload for all outpatient
       encounters. They are the single designation by which VHA defines clinical work units for costing
       purposes. In some, but not all cases, DSS Identifiers are defined to be used only for specific Non-
       Count Clinics assigned to a clinic profile. In these cases, DSS rules must be followed. As a
       specific example: when a clinic’s Primary Stop Code is 674, that clinic is explicitly defined to be a
       Non-Count Clinic and that is the only way it should be used.
           (a) Primary Stop Code. The first three numbers of the DSS Identifier represent the primary
       stop code. The primary stop code designates the main clinical group responsible for the care.
       Three numbers must always be in the first three characters of a DSS Identifier for it to be valid.
            (b) Secondary Stop Code. The last three numbers of the DSS Identifier contain the
       secondary or credit stop code, which the VA medical center may use as a modifier to further
       define the primary work group. For example, a flu vaccination given in Primary Care is
       designated by 323710. The secondary stop code modifier may also represent the type of provider
       or team. For example, a Mental Health Clinic run by a social worker can be designated 502125.
           (c) Credit Pair. A DSS Identifier Credit Pair is the common term used when two DSS
       Identifiers, a primary code and a secondary code, are utilized when establishing a clinic in the
       VistA software. Some specific credit pairs are listed in the DSS Identifier References.
       3. POLICY. It is VHA policy that all outpatient clinic appointments, meeting the definition of
       an encounter, are made in Count Clinics using the VistA Scheduling software in a fashion that
       best suits patients’ clinical needs and preferences; this includes, but is not limited to: appointments
       made for clinic visits; VA provided home care; consultations; and medical, surgical, dental,
       rehabilitation, dietetic, nursing, social work, and mental health services and procedures.

       NOTE: The Count Clinic requirement does not include: non-VA care paid through VistA Fee;
       procedures performed in the operating room and recorded in the VistA Surgery Software;
       instances where encounters are generated based on unscheduled telecommunication; and
       occasions of service, such as clinical laboratory, radiology studies, and tests that are
       automatically loaded to the PCE database. An exception from the requirement of using VistA




       4




VA Office of Inspector General                                                                                   99
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



                                                                             VHA DIRECTIVE 2010-027
                                                                                        June 9, 2010

       Scheduling software is also extended to providers and programs such as Care Coordination
       Home Telehealth when encounters are generated based on unscheduled communication.
       4. ACTION

           a.    Director of Systems Redesign. The Director, VHA Systems Redesign, within the
       Office of the Deputy Under Secretary for Health for Operations and Management (10N), is
       responsible for oversight of implementation of requirements of this Directive, to include
       measurement and monitoring of ongoing performance.
           b. Veterans Integrated Service Network (VISN) Director. The VISN Director, or
       designee, is responsible for the oversight of enrollment, scheduling, processing, consult
       management, and wait lists for eligible Veterans.
           c.    Facility Director. The facility Director, or designee, is responsible for:
           (1) Ensuring that when outpatients are seen for what constitutes an encounter on a “walk-in”
       basis without an already scheduled appointment, an appointment is recorded in a Count Clinic
       with the “Purpose of Visit” entered in the VistA Scheduling Software as “unscheduled.” NOTE:
       Since unscheduled visits include no entry of “desired date” for wait time measurement, desired
       date is equated to appointment creation date. In addition, applicable profiles need to be designed
       to ensure sufficient capacity to accommodate unscheduled “walk-in” patients. Unscheduled
       encounters that occur via telephone will not be used in the VistA Scheduling Software.
            (2) Ensuring outpatient appointments for diagnostic laboratory and imaging services are not
       made using count clinics. Non-Count clinics may be used to schedule laboratory and imaging
       appointments. Requests for laboratory and imaging services must be made by provider orders
       (not consult requests). Orders transmit directly to the laboratory or radiology software
       applications. Work performed in response to such orders triggers transmission of encounter data
       via the VHA PCE software application. NOTE: The use of Count Clinics for diagnostic services
       is inappropriate in part because it would generate duplicate workload reports.
          (3) Defining “standard work” for the clinic teams to most efficiently operate the clinic. This
       work includes:
           (a) Ensuring clinic flow occurs in a standardized manner including patient check-in with
       scheduling staff, nurse interview, provider visit, and check-out.
           (b) Ensuring providers document orders in CPRS and explain rationale and timeframes for
       medications, diagnostic tests, laboratory studies, return appointments, consultations, and
       procedures before the patient leaves the examination room.
       (c) Ensuring a check out process occurs following each clinic visit. The check-out process may
       consist of: nurse-administered patient education; clinical pharmacist education and review of
       prescription orders; collection of patient feedback; scheduling of diagnostic studies; consultations;
       and follow-up visits. The check-out process must also include verifying that the




                                                                                                          5




VA Office of Inspector General                                                                                 100
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



       VHA DIRECTIVE 2010-027
       June 9, 2010

          disposition of the appointment in the VistA Appointment Management system has been
       completed.
           (d) Ensuring standardized systems are in place to balance supply and demand for outpatient
       services including continuous forecasting and contingency planning.
           (e)   Ensuring each clinic follows these additional business rules for standardizing work.
             1. Schedules must be open and available for the patient to make appointments at least
       three to four months into the future. Permissions may be given to schedulers to make
       appointments beyond these limits when doing so is appropriate and consistent with patient or
       provider requests. Blocking the scheduling of future appointments by limiting the maximum days
       into the future an appointment can be scheduled is inappropriate and is disallowed.
            2. Synchronize internal provider leave notification practices with clinic slot availability to
       minimize patient appointment cancellations.
             3. Strive to make follow-up appointments “on the spot” for patients returning within the 3
       to 4 month window.
            4. Use the Recall/Reminder Software application to manage appointments scheduled
       beyond the 3 to 4 month scheduling window.
       NOTE: Backlog must be eliminated and demand and supply balanced for the above suggestions
       to be successful.
           (f)   Using the preferred strategy for initiating scheduling which involves:
            1. Having the referring providers’ team schedule clinical consultation appointments as
       soon as possible on the day the consult is ordered, before the patient leaves the referring provider
       team area.
             2. Having the treating provider’s team either schedule an appointment or, if the timeframe
       specified by the provider is several months into the future, record in the Recall/Reminder
       Software application the need for the patient to return to clinic, before the patient leaves the
       treating provider team area.
             a. When a patient needs a follow-up appointment but cannot be immediately scheduled,
       this need is to be recorded in the Recall/Reminder Software application.
             b. The patient must be advised to expect to receive a reminder to contact the clinic to
       actually schedule an appointment a few weeks prior to the return to clinic timeframe that the
       provider has specified.
            c. The patient needs to be provided information for contacting the clinic at the
       appropriate time to make the appointment.




       6




VA Office of Inspector General                                                                                101
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



                                                                             VHA DIRECTIVE 2010-027
                                                                                        June 9, 2010

            3. Having registration or enrollment staff obtain contact information and initiate
       scheduling action while in direct contact with a newly enrolled or newly registered patient.
           (4) Ensuring correct entry of “desired date” for an appointment. The goal is to schedule an
       appointment on, or as close to the desired date as possible.
           (a)   For New Patients
            1. The scheduler needs to ask the patient: "What is the first day you would like to be
       seen?" The date the patient provides is the desired date.
             2. The desired date is defined by the patient without regard to schedule capacity. Once the
       desired date has been established, it must not be altered to reflect an appointment date the patient
       acquiesces to accept for lack of appointment availability on the desired date.
            3. The third step is to offer and schedule an appointment on or as close to the desired date
       as possible.
          (b) For Established Patients’ Return Appointments: A specific or a general timeframe is
       communicated by the provider and the actual desired date is established by the patient.
             1. In order for the provider and scheduler to have a clear understanding of the intent for a
       return appointment, the provider must document the return date in CPRS, preferably through an
       order. The provider must specify if the return appointment request is for a specific day, or a
       general timeframe.
             2. In order to establish the actual desired date correctly, the scheduler needs to tell the
       patient that the provider wants to see them again, giving the patient either the provider’s specified
       date or general timeframe, and asking when the patient would like to be seen. The date the patient
       provides is the desired date.
             3. The desired date needs to be defined by the patient without regard to schedule capacity.
       Once the desired date has been established, it must not be altered to reflect an appointment date
       the patient acquiesces to accept for lack of appointment availability on the desired date.
            4. The scheduler is to offer and schedule an appointment on or as close to the desired date
       as possible. If there is a discrepancy between the patient and provider desired date, the scheduler
       must contact the provider for a decision on the return appointment timeframe.
           (c)   For Patients Scheduled in Response to Intra and Inter Facility Consults
            1. The provider specified timeframe for the appointment needs to be the date of the
       provider request, unless otherwise specified by the provider.




                                                                                                          7




VA Office of Inspector General                                                                                 102
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



       VHA DIRECTIVE 2010-027
       June 9, 2010

             2. In order to establish the actual desired date correctly, the scheduler informs the patient
       of the provider's specified date or general timeframe and asks the patient "What day would you
       like to be seen?" The date the patient provides is the desired date.
             3. The desired date needs to be defined by the patient without regard to schedule capacity.
       Once the desired date has been established, it must not be altered to reflect an appointment date
       the patient acquiesces to accept for lack of appointment availability on the desired date.
             4. The scheduler offers and schedules an appointment on or as close to the desired date as
       possible. If the provider has specified a desired date (or “soonest appropriate date”) and there is a
       discrepancy between the patient and provider specified desired date, the scheduler must contact
       the provider for a decision on the appointment timeframe.
            5. In creating an appointment in response to a CPRS consult request, the scheduler must
       use VistA menu options to link the CPRS consult request to the scheduled appointment.
           (5) Ensuring that when an appointment is cancelled and rescheduled by the clinic, the
       scheduler enters as the desired date for the new appointment the desired date for the original
       appointment.
           (6) Ensuring that if the patient must be contacted to create an appointment, policies are in
       place that outline actions to be taken to make contact, the number of attempts necessary, and
       documentation required.
            (7) Monitoring telephone access and taking action, as needed, to minimize patient problems
       in accessing providers, teams, and schedulers by phone.
          (8) Implementing standardized processes for enrollment, and the scheduling, processing, and
       management of appointments, consults, and wait lists for eligible Veterans.
            (9) The creation and maintenance of a Master List of all staff members that have any of the
       VistA Scheduling options that may be used for scheduling patients: PCMM menu options for
       primary care team or for provider assignments, menu options for entries onto the EWL, and the
       direct supervisors of all such individuals.
            (10) Ensuring successful completion of VHA Scheduler Training by all individuals on the
       Master List. Menu options for creating outpatient appointments are not to be provided to new
       schedulers without proof of their successful completion of this training. To retain these menu
       options, all individuals must complete newly released training for schedulers within 120 days of it
       being announced. NOTE: Details regarding the availability of this training will be posted on the
       Mandatory Training Web page located at: http://vaww.ees.lrn.va.gov/mandatorytraining . This is
       an internal Web site and is not available to the public.
            (11) Ensuring all individuals on the Master List have their position description or functional
       statement include specific responsibilities relative to scheduling, PCMM assignments, and entries
       into EWL.




       8




VA Office of Inspector General                                                                                 103
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



                                                                            VHA DIRECTIVE 2010-027
                                                                                       June 9, 2010

            (12) Ensuring all individuals on the Master List have, on file with their supervisor, an annual
       competency assessment that includes their responsibilities relative to scheduling, PCMM
       assignments, and entries into EWL.
           (13) Ensuring completion, using VISN-approved processes and procedures, of a
       standardized yearly scheduler audit of the timeliness and appropriateness of scheduling actions,
       and of the accuracy of desired dates.
           (14) Ensuring that identified deficiencies in competency or performance, identified by the
       annual scheduler audit, are effectively addressed.
           (15) Ensuring that all clinic profiles are current at all times and subject to an annual review.
       This review must include compliance in requirements for use of Count versus Non-Count clinics.
           (16) Ensuring full compliance by all involved services with Service Agreements. Service
       agreements must be reviewed and, if necessary, re-negotiated regularly (at least annually).
           (17) Measuring and tracking all unused outpatient appointments in count clinics including
       those from no shows, patient cancellations, and unscheduled appointment slots.
            (18) Ensuring that when appointments become available and the facility has at least 3 days to
       give patients notice, scheduling personnel offer appointments to patients who are either on the
       EWL waiting for appointments, or currently have appointments more than 30 days past the
       desired dates of care. NOTE: This applies to management of scheduling in Count Clinics.
          (19) Ensuring that the following Business Rules for Scheduling Outpatient Clinic
       Appointments are followed.
           (a) Patients with emergent or urgent medical needs must be provided care, or be scheduled to
       receive care, as soon as practicable, independent of SC status and whether care is purchased or
       provided directly by VA.
            (b) Generally, patients with whom the provider does not yet have an established relationship
       and cannot be scheduled in target timeframes must be put on electronic waiting lists (EWL).
       VHA’s EWL software is used to manage these requests, which usually consist of newly
       registered, newly enrolled, or new consult requests for patients waiting for their first scheduled
       appointment. No other wait list formats (paper, electronic spreadsheets) are to be used for
       tracking requests for outpatient appointments. When patients are removed from the EWL, except
       for medical emergencies or urgent medical needs, Veterans who are SC 50 percent or greater, or
       Veterans less than 50 percent SC requiring care for a SC disability must be given priority over
       other Veterans.
           (c) Facilities are required to provide initial triage evaluations within 24 hours for all
       Veterans either self-requesting or being referred for mental health or substance abuse treatment.
       Additionally, when follow-up is needed, it must include a full diagnostic and treatment




                                                                                                         9




VA Office of Inspector General                                                                                104
                                                    Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                   Scheduling Practices at the Phoenix VA Health Care System 



       VHA DIRECTIVE 2010-027
       June 9, 2010

       evaluation within 14 days. NOTE: VHA leadership may mandate specific timeframes for special
       categories of appointments.
            (d) PCMM Coordinators or Scheduling Coordinators must check the Primary Care EWL
       daily and act on requests received. Schedulers in all clinics at all locations (substations) must
       review the EWL daily to determine if newly enrolled or newly registered patients are requesting
       care in their clinic at their location.
           (e) A wait list for hospice or palliative care will not be maintained as VHA must offer to
       provide or purchase needed hospice or palliative care services without delay.
           (f) A patient currently or formerly in treatment for a mental health condition, who requests
       to be seen outside of the clinician desired date range, needs to be seen or contacted within 1
       working day by the treatment team for evaluation of the patient's concern.
            (g) The VHA Class I Recall/Reminder Software application is used for patients with whom
       the service has an established relationship. This software application is typically used when the
       requested follow-up appointment date is more than 3 to 4 months into the future. These patients
       include those that have either been seen initially in a given VA clinic and need to return in the
       future; or those who have been seen initially through purchased non-VA care with a plan to be
       seen in follow-up at the VA clinic. NOTE: Even though a patient seen initially through
       purchased non-VA care may be new to a facility clinic, the organization has committed to this
       relationship, so Recall/Reminder scheduling may be appropriate.
            (h) Non-VA care may be utilized in accordance with regulatory authority when service is
       not available in a timely manner within VHA due to capability, capacity, or accessibility.
       Availability of non-VA care and access to VA care must be taken into account before non-VA
       care is authorized. An analysis of costs of care needs to be undertaken at appropriate intervals to
       determine if services could be more efficiently provided within VA facilities. Use of purchased
       care may only be considered when the patient can be treated sooner than at a VA facility and the
       service is clinically appropriate and of high quality. Purchased care must only be considered when
       the request for care can be resolved efficiently, including having results available to the referring
       facility in a timely manner.
           (i) Patients provided authorization for continued non-VA care need to be tracked and
       brought back within VHA as capacity becomes available. This needs to be from the oldest
       authorization moving forward, as clinically indicated.
            (j) Clinic cancellations, particularly when done on short notice, are to be avoided whenever
       possible. If a clinic must be canceled or a patient fails to appear for a scheduled appointment, the
       medical records need to be reviewed to ensure that urgent medical problems are addressed in a
       timely fashion. Provisions need to be made for necessary medication renewals and patients need
       to be rescheduled as soon as possible, if clinically appropriate.
           (k) When a patient does not report (“no-show”) for a scheduled appointment, the
       responsible provider, surrogate, or designated team representative needs to review the patient’s


       10




VA Office of Inspector General                                                                                 105
                                                   Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                  Scheduling Practices at the Phoenix VA Health Care System 



                                                                          VHA DIRECTIVE 2010-027
                                                                                     June 9, 2010

       medical record, including any consult or procedure request received or associated with the
       appointment and then determine and initiate appropriate follow-up action. NOTE: It may be
       useful for the facility to assign a case manager to the patient with multiple “no-shows” to
       determine the best method to manage the patient’s pattern of repetitive “no-shows.”
            (l) Facility leadership must be vigilant in the identification and avoidance of inappropriate
       scheduling activities. NOTE: For further guidance, please see the Systems Redesign
       Consultation Team Guidebook available on the Systems Redesign Web site at Systems Redesign
       Consultation Team Guide 2008 (https://srd.vssc.med.va.gov/Pages/default.aspx). This is an
       internal VA Web site not available to the public.
            (20) Providing annual certification through the VISN Director to the Director, Systems
       Redesign, in the Office of the Deputy Under Secretary for Health for Operations and Management,
       of full compliance with the content of this Directive. Initial certifications are due 6 months
       following issuance of this Directive and then annually thereafter.
       5. REFERENCES

           a.   Public Law 104-262.
           b.   Title 38 United States Code (U.S.C.) Sections 1710, and 1703, 1705.
           c. Code of Federal Regulations, § 17.52, 17.100, 17.36, 17.37, 17.38, and 17.49.
        6. FOLLOW-UP RESPONSIBILITY: The Deputy Under Secretary for Health for Operations and
           Management (10N) is responsible for the contents of this Directive. Questions may be directed to
           the Director, Systems Redesign Program at 605-720-7174.

        7. RESCISSIONS:          VHA Directive 2009-070 is rescinded.           This VHA Directive expires
           June 30, 2015.




                                                   Robert A. Petzel, M.D.
                                                   Under Secretary for Health

       DISTRIBUTION:         E-mailed to the VHA Publications Distribution List 6/9/2010




                                                                                                      11




VA Office of Inspector General                                                                                106
                                                  Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                 Scheduling Practices at the Phoenix VA Health Care System 




Appendix H 	 Memorandum From the Deputy Under Secretary for
             Health for Operations and Management, April 26, 2010,
             Titled: Inappropriate Scheduling Practices



                   Department of                                  Memorandum
                   Veterans Affairs

           Date:    April 26, 2010

           From:    Deputy Under Secretary for Health for Operations and Management (10N)

           Subj:    Inappropriate Scheduling Practices

             To:    Network Director (10N1-23)

                    1. The purpose of the memorandum is to call for immediate action within every
                    VISN to review current scheduling practices to identify and eliminate all
                    inappropriate practices including but not limited to the practice specified below.

                    2. It has come to my attention that in order to improve scores on assorted
                    access measures, certain facilities have adopted use of inappropriate scheduling
                    practices sometimes referred to as "gaming strategies." Example: as a way to
                    combat Missed Opportunity rates some medical centers cancel appointments for
                    patients not checked-in 10 or 15 minutes prior to their scheduled appointment
                    time. Patients are informed that it is medical center policy that they must check in
                    early and if they fail to do so, it is in the medical center's right to cancel that
                    appointment. This is not patient centered care.

                    3. For your assistance, attached is a listing of the inappropriate scheduling
                    practices identified by a multi-VISN workgroup charted by the Systems Redesign
                    Office. Please be cautioned that since 2008, additional new or modified gaming
                    strategies may have emerged, so do not consider this list a full description of all
                    current possibilities of inappropriate scheduling practices that need to be
                    addressed. These practices will not be tolerated.

                    4. For questions, please contact Michael Davies, MD, Director, VHA Systems
                    Redesign (Michael.Davies@va.gov) or Karen Morris, MSW, Associate Director
                    (Karen.Morris@va.gov).




                    William Schoenhard, FACHE


                    Attachment




VA Office of Inspector General                                                                             107
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




  ATTACHMENT

                Scheduling Practices to Avoid: Strategies leading to poor customer service and
                           misrepresentation of Performance Measures/Monitors

                                                   Introduction

  The purpose of this chapter is to provide assistance in ensuring scheduling accuracy during consultative site
  visits. It will provide an outline for consultants to better assess scheduling practices and recommend
  improvements.
  As we strive to improve access to our veterans we must ensure in fact that improvement does not focus or
  rely on workarounds. Workarounds have the potential to compromise the reliability of the data as well as
  the integrity and honesty of our work.
  Workarounds may mask the symptoms of poor access and, although they may aid in meeting performance
  measures, they do not serve our veterans. They may prevent the real work of improving our processes and
  design of systems.
  We need to speak in a unified voice when interacting with staff at all levels. Our expectations are that there
  will be no workarounds, and that access will continue to improve with integrity and honesty in all the work
  that we do.
  Systems Redesign principles provide us with the opportunity to improve not only access, but also quality,
  because without access there can be no quality; satisfaction, because waiting is a huge source of
  dissatisfaction; and cost of care because, delay creates waste and waste costs money. Please review the
  practices below to better equip you and your team during your upcoming site visits.
                                         Scheduling Practices to Avoid

    	   Limiting/Blocking appointment scheduling to 30-day booking. Clinic profiles are created to allow for
         no more than 30-day scheduling. When patients require appointments beyond the 30 days,
              o	 they are told to call back another month to make their request, or
              o	 staff holds the appointments without scheduling until capacity opens within 30 days.
              o	 Evaluation Method: Ask the scheduler to make an appointment past 30 days. Review the use
                   of recall system and EWL.
    	   Use of a log book or other manual system. Using this method, appointments are scheduled in VistA
         at a later date instead of placing patients on the EWL. This has been observed in mental health and in
         other clinics. The use of log books are now prohibited.
             o	 Evaluation Method: Interview clinical staff and scheduling staff, especially in
                  mental health. Ask specifically about whether log books are used and ask whether
                  patients schedule directly with the scheduler or if they must schedule with the
                  clinician. Check Display Clinic Availability listing to assure the patients are being
                  scheduled in VISTA.
    	   Creation and cancellation of New patient visits: A New patient visit is created for a date within 30
         days. This visit is cancelled by the clinic; however, it is entered in Appointment Management as
         "cancelled by patient" instead of "cancelled by clinic" and rescheduled for another date within 30
         days of the cancellation. The performance measure would show a wait time under 30 days, though it
         should have been calculated at >30 days if entered correctly as "cancelled by clinic." There are
         several ways this has been observed:

VA Office of Inspector General                                                                               108
                                                 Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                Scheduling Practices at the Phoenix VA Health Care System 




             o	 Scheduling the New patient visit at a time the patient would prefer not to come in and then
                  re-scheduling.
             o	 Creating a New patient appointment without notifying the patient. This creates a very high
                  likelihood that the patient will no-show which allows for another rebooking with a restarted
                  wait time.
             o	 Sites may also appropriately enter "cancelled by clinic" in Appointment Management, but
                  inappropriately reschedule the appointment 1+ days later, which restarts the wait time clock.
             o	 Evaluation Method: Conduct random audits of patient appointments, sampling a variety of
                  clinics. Critically assess the scheduling process using both CPRS and Appointment
                  Management. Check performance measure clinics with unusually low no show rates and
                  wait times.
    	   Auto-Rebooking: This scheduling option removes critical scheduling data (including Desired Date)
         from the Appointment Management scheduling package, which prevents us from verifying that the
         patient was scheduled within 30 days. Recommend against using this option.
             o	 Evaluation Method: Conduct random audits of patient appointments. Enter "Expanded
                  Profile" in Appointment Management on the "*** Clinic Wait Time Information ***" screen
                  and make sure that the "Request Type" does not state "AUTO REBOOK" (see screenshot
                  below):




    	   Use of the recall system to "hold" patients until slots within 30 days open up.
             o	 Evaluation Method: Conduct random audits of patient appointments entered in the recall
                  system. If recall is being used properly, there should be evidence in the CPRS Progress
                  Notes supporting the appointment date in the recall system.
    	   Use of slot for Test Patient so that this slot cannot be used but then cancelling the Test Patient and


VA Office of Inspector General                                                                                109
                                                 Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                Scheduling Practices at the Phoenix VA Health Care System 




         scheduling a patient in the appointment slot. Some providers also use the Test Patient to book up
         their clinics if they are going on vacation so they do not have to cancel their clinic.
              o	 Evaluation Method: Interview schedulers and randomly look at the future clinic grids (e.g., t
                   + 90 days) to see if test patients are scheduled.
    	   Block scheduling: Numerous patients are scheduled at one block of time (e.g., 8:00-12:00 pm) and
         have to wait a long time to be seen. Each patient should have his/her own appointment slot.
              o	 Evaluation Method: Randomly look at the future clinic grids to see if several patients are
                   scheduled at one time. If so, ask the respective schedulers whether block scheduling is being
                   used. Note: Clinics often legitimately schedule 2+ patients in each appointment slot because
                   they are staffed with enough clinicians to manage patients 1:1.
    	   Cancelling patients before the appointment time has passed if:
              o the patient does not confirm the appointment in response to a reminder call/letter, or if
              o the patient does not show up 15 minutes before the appointment time.
         This strategy inappropriately eliminates the patient from the Missed Opportunity measure and is
         misleading to patients who will show up for their appointments.
              o	 Evaluation Method: Interview schedulers to determine if this practice occurs. Clinics with
                   unusually low Missed Opportunity rates should be investigated more closely.
    	   For established patients, entering a Desired Date that is later than what the provider/patient agreed
         upon in order to fit the patient in within 30 days.
              o	 Evaluation Method: Cross-reference the provider's desired date from CPRS (i.e., progress
                   note) with the Desired Date entered in Appointment Management. Also interview schedulers
                   to determine if this practice occurs. Verify that the dates on routing slips (if used) match the
                   Desired Date entered in Appointment Management.
    	   Allowing providers to request RTC dates in windows (e.g., 4-6 months). This practice allows the
         scheduler to enter a Desired Date based on clinic availability instead of when the patient needs to be
         seen.
              o	 Evaluation Method: Cross-reference the provider's Desired Date from CPRS (i.e., progress
                   note) with the Desired Date entered in Appointment Management. Also interview schedulers
                   and providers to determine if this practice occurs. Some facilities may have a policy
                   allowing schedulers to make appointments within 2 weeks before and after the provider's
                   date. Interview staff and request the policy if this is occurring. If this occurs, there needs to
                   be an entry in the "Comments" section of Appointment Management describing the
                   provider's/patient's preference.
    	   For Established patients, allowing the Desired Date not to be documented prevents sites from
         knowing whether the patient was given an appointment within 30 days:
              o	 For call-ins and walk-ins, schedulers should enter patient requests into the "Comments" field
                   in VistA's Appointment Management system.
              o	 For normal RTC appointments, providers should document the Desired Date using
                   electronic orders in CPRS. These orders must include the provider's name, the clinic name,
                   and the requested RTC date. It is recommended that routing slips not be used, as they are
                   shredded daily and the information is lost. Instead, some sites require providers to complete
                   their treatment plan progress note before patients leave, which documents the RTC date in a
                   CPRS progress note.
              o	 Evaluation Method: Interview schedulers in various clinical areas to determine whether
                   routing slips are being used for RTC appointments. Also, randomly sample appointments to


VA Office of Inspector General                                                                                 110
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




                  determine whether adequate documentation exists for call-ins, walk-ins, and standard RTC
                  appointments.
    	   Basing the Desired Date on clinic availability: When a provider writes RTC in 3 weeks, the clerk
         enters +3W to find the availability of future appointments. Once a date/time is found, the clerk exits
         the system and then starts over using the identified date/time as the Desired Date.
              o	 Evaluation Method: Cross-reference the provider's Desired Date from CPRS (i.e., progress
                  note) with the Desired Date entered in Appointment Management to ensure they match.
                  Also, witness schedulers making appointments, watching for this practice.
    	   When clinics are cancelled and the patients need to be rescheduled, patients will be called and
         offered the next available appointment for that clinic. If they accept it, the scheduler will enter that
         date as the Desired Date as per patients' request, instead of next available.
              o	 Evaluation Method: Try to observe the way appointments are rescheduled following a clinic
                  cancellation. Interview schedulers to determine whether this is happening. One option is to
                  call a sampling of scheduled patients and ask how their future appointment was offered to
                  them.
    	   Patients (New and Established) are offered appointments beyond 30 days, but they are documented
         as being >30 days per patient request.
              o	 New patient appointments will still fail the performance measure because the clock starts on
                  the Creation Date. Nevertheless, this strategy misrepresents the patient's Desired Date.
                  Patients should be asked when they would like an appointment and that date should be
                  entered as the Desired Date for Established patients and entered in the Comments field for
                  New patients.
              o	 Evaluation Method: The team can interview front-line schedulers, asking for the wording
                  used to schedule an appointment with patients. The best method for evaluating, however,
                  would be to directly observe schedulers/patients while appointments are being scheduled.
                  One option is to call a sampling of scheduled patients and ask how their future appointment
                  was offered to them.
    	   Access data and Performance Measures meet the standard but when you view the clinic schedules,
         they are full for the next 30+ days. This suggests the site may be gaming the system.
              o	 Evaluation Method: Examine random clinic grids 30 days into the future to determine
                  whether there are any open slots. If not, ask the respective schedulers and/or service chiefs
                  how they are able to meet the 30-day standard when the grids are booked 30+ days.
              o	 It is possible that they are legitimately meeting the measure if they are feeing out all New
                  patients who cannot get an appointment within 30 days, or if they open clinics for extended
                  hours on an as needed basis to increase supply.
    	   Not including the patient in scheduling the appointment. This occurs most often in specialty clinics
         when scheduling New patients off consults. It creates poor customer service, a high Missed
         Opportunity rate, and considerable rework to reschedule these missed appointments.
              o	 Evaluation Method: For specialty services, interview schedulers and other staff to determine
                  how consults are processed and scheduled. Is there clinical review of the consults? If a
                  clinician reviews the consult, does he/she reschedule the appointment him/herself? Does a
                  nurse review the consult and schedule the appointment him/herself? Ask staff if they include
                  patients in scheduling initial appointments and, if possible, observe their practices.




VA Office of Inspector General                                                                               111
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




    	   Consult management:
            o	 When clinics are full within 30 days, consults are Cancelled or Discontinued with comments
                 for the requesting provider to re-submit at a later date. This practice makes wait times
                 appear shorter than they are and compromises patient care.
                       Evaluation Method: Interview Consult Manager to determine how consults are
                          managed when no appointments within 30 days are available. Also, run the
                          consult tracking report (Service Consults By Status [GMRC RPT CONSULTS BY
                          STATUS]) to assess whether an unusually high percentage of consults are being
                          Cancelled or Discontinued. If yes, investigate closer. This strategy may be
                          occurring. The service may also have a Service Agreement in place that isn't
                          working.
            o	 Holding a consult without scheduling the visit but marking the consult as completed. This
                 method does not give the patient timely care, yet it allows the service to pass the 7-day
                 monitor to act upon a consult.
                       Evaluation Method: Use the Completion Time Statistics ([GMRC COMPLETION
                          STATISTICS]) report. This will display how many consults are completed
                          without results or without a note attached.
            o	 Completing the consult when the appointment is scheduled rather than when the patient is
                 seen.
                       Evaluation Method: Look in the Comments of the consult request. You will see
                          that the appointment was made for a future date and the consult status is
                          completed.
            o	 Discontinuing/Cancelling consults for simple reasons, forcing the consult to go back and
                 forth between the requester and specialist until the clinic has availability within 30 days.
                       Evaluation Method: Run the consult tracking report to assess whether an
                          unusually high percentage of consults are being discontinued or cancelled.
                          Services with poor access are more likely to use this method to decrease their
                          demand. Also, randomly select discontinued/ cancelled consults from the consult
                          tracking report and examine them in CPRS to determine if they appear legitimate.
            o	 Not linking the consult to a scheduled appointment. If the patient no-shows or cancels, it
                 would have to be manually recorded on the consult to make it active again. If it were
                 attached, the consult would automatically return to an "active status for no-shows or
                 cancellations and show as incomplete. Thus, not linking the consult properly will falsely
                 improve your compliance with the timeliness of acting on a consult.
                       Evaluation Method: Use the Completion Time Statistics ([GMRC COMPLETION
                          STATISTICS]) report. This will show how many appointments are not linked to a
                          consult.
            o	 Cancelling and re-establishing consults on the day of the appointment. This practice
                 effectively makes it appear that there are no outstanding consults and no wait times for
                 consults to be "acted on."
                      Evaluation Method: Run the consult tracking report and randomly select consults
                          to review. Verify in CPRS that consults weren't being cancelled and re­
                          established, as above. Auditors can also verify that the requesting physician of the
                          consult did not belong to the service receiving the consult.
            o	 Consults are not "acted on" within 7 days, which delays the start of the wait time measure.
                 Sites should develop a process to monitor this.
                       Evaluation Method: Run the VSSC New and Established Wait Time report. This
                          will tell you the number of days between the consult request date and the
                          appointment creation date.
                       Below is a Fileman Template for Action on a Consult, developed in VISN 12, that
                          can help sites monitor this:

VA Office of Inspector General                                                                            112
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




     SORT TEMPLATE:
     OUTPUT FROM WHAT FILE: REQUEST/CONSULTATION//
     SORT BY: FILE ENTRY DATE// @'DATE OF REQUEST
     START WITH DATE OF REQUEST: FIRST// T-7             (MAR 25, 2008)
     GO TO DATE OF REQUEST: LAST// T      (APR 01, 2008)
     WITHIN DATE OF REQUEST, SORT BY: (CPRS STATUS ["ACTIVE")! (CPRS STATUS ["PENDING")
     WITHIN (CPRS STATUS ["ACTIVE")!(CPRS STATUS["PENDNING"), SORT BY: TO SERVICE:
     REQUEST SERVICES FIELD: ASSOCIATED STOP CODE        (multiple)
     ASSOCIATED STOP CODE SUB-FIELD: ASSOCIATED STOP CODE:
     CLINIC STOP FIELD: @AMIS REPORTING STOP CODE
     START WITH AMIS REPORTING STOP CODE: FIRST// 303
     GO TO AMIS REPORTING STOP CODE: LAST// 303
     WITHIN AMIS REPORTING STOP CODE, SORT BY:
     STORE IN 'SORT' TEMPLATE: 	  DE CONSULTS NOT ACTED ON
                                  (Apr 01, 2008@07:47) User #673 File #123        SORT OUTPUT
     FROM WHAT FILE:
     SHOULD TEMPLATE USER BE ASKED 'FROM'-'TO' RANGE FOR 'DATE OF REQUEST'? NO//YES

     SHOULD TEMPLATE USER BE ASKED 'FROM'-'TO' RANGE FOR 'AMIS REPORTING STOP CODE'?
     NO//YES

     PRINT TEMPLATE:
     FIRST PRINT FIELD: PATIENT NAME;L25
     THEN PRINT FIELD: TO SERVICE;L20
     THEN PRINT FIELD: DATE OF REQUEST;L20
     THEN PRINT FIELD: CPRS STATUS
     THEN PRINT FIELD: TO SERVICE://
     THEN PRINT REQUEST SERVICES FIELD: ASSOCIATED STOP CODE


     OUTPUT:

     PATIENT NAME           TO SERVICE           DATE OF REQUEST           CPRS STATUS
     ASSOCIATED STOP CODE
     ------------------------------------------------------------------------------------------

     TEST      TEST        ECHOCARDIOGRAM – IRO       MAR 17,2008     12:12        PENDING CARDIOLOGY
     TEST      TEST        ECHOCARDIOGRAM – IRO       MAR 17,2008     14:34        PENDING CARDIOLOGY



            o	 Not scheduling consults for Established patients within 30 days. Sites may schedule only
               New patients within 30 days, even if the Established patient is presenting with a new
               problem. This practice provides untimely care to Established patients simply because they
               have been seen within the past 2 years.
                    Evaluation Method:
                           - Search consults for Established patient and lookup the appointment
                               information in Appointment Management. Verify that the Desired Date
                               was not entered for a date into the future. If so, the service is not providing
                               timely care to these Established patients with new problems.
                           -	 The VSSC new and Established Wait Time Report will give you a list of
                               established patients that have a consult linked to the appointment. You will
                               need real SSN access to drill down to patient names.




VA Office of Inspector General                                                                            113
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




Appendix I          OIG Testimony on VA Patient Wait Times

                    The following testimony provides a broad overview of OIG’s oversight and
                    reporting to Congress on patient wait times.

                     Congressional Testimony - 6/9/2014 - Statement of Richard J. Griffin,
                     Acting Inspector General, Office of Inspector General, Department of
                     Veterans Affairs, Before the Committee on Veterans’ Affairs, United States
                     House of Representatives, Hearing on “Data Manipulation and Access to
                     VA Healthcare”

                     Congressional Testimony - 5/15/2014 - Statement of Richard J. Griffin,
                     Acting Inspector General, Office of Inspector General, Department of
                     Veterans Affairs, Before the Committee on Veterans’ Affairs, United States
                     Senate, Hearing on “The State of VA Health Care”

                     Congressional Testimony - 4/9/2014 - Statement of John D. Daigh, Jr.,
                     M.D., Assistant Inspector General for Healthcare Inspections, Office of
                     Inspector General, Department of Veterans Affairs, Before the Committee
                     on Veterans’ Affairs, United States House of Representatives, Hearing on
                     “A Continued Assessment of Delays in VA Medical Care and Preventable
                     Veteran Deaths”

                     Congressional Testimony - 8/7/2013 - Statement of Michael L. Shepherd,
                     M.D., Senior Physician, Office of Healthcare Inspections, Office of
                     Inspector General, Department of Veterans Affairs, Before the Committee
                     on Veterans’ Affairs, United States Senate, Field Hearing: “Ensuring
                     Veterans Receive the Care They Deserve: Addressing VA Mental Health
                     Program Management”

                     Congressional Testimony - 3/13/2013 - Statement of Linda A. Halliday,
                     Assistant Inspector General for Audits and Evaluations, Office of Inspector
                     General, Department of Veterans Affairs, Before the Subcommittee on
                     Health, Committee on Veterans’ Affairs, United States House of
                     Representatives, Hearing on “Meeting Patient Care Needs: Measuring the
                     Value of VA Physician Staffing Standards”

                     Congressional Testimony - 2/13/2013 - Statement of Office of Inspector
                     General, Department of Veterans Affairs, to the Committee on Veterans’
                     Affairs, United States House of Representatives, Hearing on “Honoring The
                     Commitment: Overcoming Barriers to Quality Mental Health Care for
                     Veterans”

                     Congressional Testimony - 9/14/2012 - Statement of Office of Inspector
                     General, Department of Veterans Affairs, to Subcommittee on Health


VA Office of Inspector General                                                                 114
                                          Review of Alleged Patient Deaths, Patient Wait Times, and 

                                         Scheduling Practices at the Phoenix VA Health Care System 




                     Committee on Veterans’ Affairs, United States House of Representatives,
                     Hearing on “VA Fee Basis: Examining Solutions to a Flawed System”

                     Congressional Testimony - 5/8/2012 - Statement of Office of Inspector
                     General, Department of Veterans Affairs, Before the Committee on
                     Veterans’ Affairs, United States House of Representatives, Hearing on “VA
                     Mental Health Care Staffing: Ensuring Quality and Quantity”

                     Congressional Testimony - 4/25/2012 - Statement of Office of Inspector
                     General, Department of Veterans Affairs, Before the Committee on
                     Veterans’ Affairs, United States Senate, Hearing on “VA Mental Health
                     Care: Evaluating Access and Assessing Care”

                     Congressional Testimony - 11/15/2011 - Statement of Belinda J. Finn,
                     Assistant Inspector General for Audits and Evaluations, Office of Inspector
                     General, Department of Veterans Affairs, Before the Committee on
                     Veterans’ Affairs, United States House of Representatives, Hearing on
                     “Potential Budgetary Savings Within VA: Recommendations From
                     Veterans Service Organizations”

                     Congressional Testimony - 3/9/2011 - Statement of Richard J. Griffin,
                     Deputy Inspector General, Office of Inspector General, Department of
                     Veterans Affairs, Before the Subcommittee on Military Construction,
                     Veterans Affairs, and Related Agencies; Committee on Appropriations,
                     United States House of Representatives, Hearing on “The State of the
                     Department of Veterans Affairs”

                     Congressional Testimony - 9/10/2009 - Statement of Maureen T. Regan,
                     Counselor to the Inspector General, Office of Inspector General,
                     Department of Veterans Affairs, Before the Subcommittee on Economic
                     Opportunity, Committee on Veterans’ Affairs, United States House of
                     Representatives, Hearing on “The Review of SPAWAR and VA’s
                     Interagency Agreement”

                     Congressional Testimony - 5/6/2008 - Statement of Michael Shepherd,
                     M.D., Senior Physician, Office of Healthcare Inspections, Office of
                     Inspector General, Department of Veterans Affairs, Before the Committee
                     on Veterans’ Affairs, United States House of Representatives, Hearing on
                     “Veterans’ Suicides”

                     Congressional Testimony - 2/27/2008 - Statement of the Office of Inspector
                     General, Department of Veterans Affairs, Before Subcommittee on Military
                     Construction, Veterans Affairs, and Related Agencies; Committee on
                     Appropriations, United States House of Representatives, Hearing on “The
                     Fiscal Year 2009 Budget for the Office of the Inspector General,
                     Department of Veterans Affairs”

VA Office of Inspector General                                                                 115
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




                     Congressional Testimony - 2/13/2008 - Statement of Jon A. Wooditch,
                     Deputy Inspector General, Department of Veterans Affairs, Before the
                     Subcommittee on Oversight and Investigations, Committee on Veterans’
                     Affairs, United States House of Representatives, Hearing on “The
                     FY 2009 Budget for the Office of Inspector General”

                     Congressional Testimony - 12/12/2007 - Statement of Belinda J. Finn,
                     Assistant Inspector General for Auditing, Office of Inspector General,
                     Department of Veterans Affairs, Before the Subcommittee on Oversight and
                     Investigations and the Subcommittee on Health, Committee on Veterans’
                     Affairs, United States House of Representatives, Hearing on “Veterans
                     Health Administration’s Outpatient Waiting Times”

                     Congressional Testimony - 10/3/2007 - Statement of Larry Reinkemeyer,
                     Director, Kansas City Audit Operations Division, Office of Inspector
                     General, Department of Veterans Affairs, Before the Special Committee on
                     Aging, United States Senate, Hearing on “Audit of the Veterans Health
                     Administration’s Outpatient Waiting Times”




VA Office of Inspector General                                                                116
                                        Review of Alleged Patient Deaths, Patient Wait Times, and 

                                       Scheduling Practices at the Phoenix VA Health Care System 




Appendix J 	 Congressional Requests

                    House Committee on Veterans’ Affairs
                    Hon. Jeff Miller, Chairman
                    Hon. Mike Michaud, Ranking Member

                    Subcommittee on Oversight and Investigations, House Committee on
                     Veterans’ Affairs
                    Hon. Mike Coffman, Chairman
                    Hon. Ann Kirkpatrick, Ranking Member

                    House Committee on Appropriations
                    Hon. Harold Rogers, Chairman 

                    Hon. Nita Lowey, Ranking Member


                    Subcommittee on Military Construction, Veterans Affairs, and Related
                     Agencies, House Committee on Appropriations
                    Hon. John Culberson, Chairman
                    Hon. Sanford D. Bishop, Jr., Ranking Member


                    Senate Committee on Appropriations
                    Hon. Barbara Mikulski, Chairwoman
                    Hon. Richard Shelby, Ranking Member

                    Subcommittee on Military Construction, Veterans Affairs, and Related
                     Agencies, Senate Committee on Appropriations
                    Hon. Tim Johnson, Chairman 

                    Hon. Mark Kirk, Ranking Member




US Senate	          Hon. Kelly Ayotte                       Hon. Amy Klobuchar
                    Hon. Michael Bennet                     Hon. John McCain
                    Hon. Richard Blumenthal                 Hon. Lisa Murkowski
                    Hon. Dianne Feinstein                   Hon. Brian Schatz
                    Hon. Jeff Flake                         Hon. Jeanne Shaheen
                    Hon. Charles Grassley                   Hon. Tom Udall
                    Hon. Dean Heller                        Hon. Mark Udall
                    Hon. Mazie Hirono                       Hon. David Vitter
                    Hon. Mark Kirk




VA Office of Inspector General                                                               117
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




US House of         Hon. Joe Barton                          Hon. Sam Johnson
Representatives
                    Hon. Jaime Herrera Beutler               Hon. Jack Kingston
                    Hon. Kevin Brady                         Hon. Ann Kirkpatrick
                    Hon. Michael Burgess                     Hon. Kenny Marchant
                    Hon. John Carter                         Hon. Michael McCaul
                    Hon. Mike Conaway                        Hon. Tim Murphy
                    Hon. John Culberson                      Hon. Randy Neugebauer
                    Hon. Mike Doyle                          Hon. Pete Olson
                    Hon. Tammy Duckworth                     Hon. Ted Poe
                    Hon. Blake Farenthold                    Hon. Pete Sessions
                    Hon. Bill Flores                         Hon. Kyrsten Sinema
                    Hon. Pete Gallego                        Hon. Lamar Smith
                    Hon. Louie Gohmert                       Hon. Mac Thornberry
                    Hon. Paul Gosar                          Hon. Dina Titus
                    Hon. Kay Granger                         Hon. Randy Weber
                    Hon. Al Green                            Hon. Ed Whitfield
                    Hon. Ralph Hall                          Hon. Roger Williams
                    Hon. Jeb Hensarling




VA Office of Inspector General                                                                118
                                                       Review of Alleged Patient Deaths, Patient Wait Times, and
                                                      Scheduling Practices at the Phoenix VA Health Care System



Appendix K                VA Secretary Comments



                 Department of                                           Memorandum
                 Veterans Affairs
         Date:          August 18, 2014
        From:           Secretary of Veterans Affairs (00)

         Subj:          OIG Draft Report, Review of Alleged Patient Deaths, Patient Wait Times, and
                        Scheduling Practices at the Phoenix VA Health Care System

          To:           Acting Inspector General (50)


                 1. 	   VA is in the midst of a very serious crisis. As we now tackle nationwide challenges
                        to timely Veteran access to health care while also fixing our scheduling system, our
                        priorities are clear: 1) to get Veterans off wait lists and into clinics; 2) to address
                        VA’s cultural issues, which includes holding people accountable for willful
                        misconduct or management negligence, and creating an environment of openness
                        and transparency; and 3) to use our resources to consistently deliver timely, high-
                        quality health care to our Nation’s Veterans.
                 2. 	   We sincerely apologize to all Veterans and we will continue to listen to Veterans,
                        their families, Veterans Service Organizations and our VA employees to improve
                        access to the care and benefits Veterans earned and deserve.

                 3. 	   We concur with all the recommendations in the draft final report and will use them to
                        hone the focus of VA’s actions moving forward.

                 4. 	   We appreciate OIG’s in-depth investigation into a whistleblower’s allegation that
                        40 Veterans died waiting for an appointment. OIG pursued this allegation, but the
                        whistleblower was unable to provide OIG with a list of 40 patient names. It is
                        important to note that while OIG’s case reviews in the report document substantial
                        delays in care, and quality of care concerns, OIG was unable to conclusively assert
                        that the absence of timely quality care caused the death of these Veterans.
                 5. 	   VA took immediate and ongoing actions to address the deficiencies identified in the
                        Interim Report. Attached are our specific responses to address the
                        24 recommendations contained in the OIG report. If you have any concerns
                        regarding this memorandum, please email Karen Rasmussen, M.D., Director,
                        Management Review Service (10AR) at VHA10ARMRS2@va.gov.




                        Carolyn Clancy, M.D.                           Robert A. McDonald
                        Interim Under Secretary for Health             Secretary of Veterans Affairs

                        Attachment




VA Office of Inspector General                                                                                    119
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




                            VETERANS HEALTH ADMINISTRATION (VHA)

                                        Action Plan 



OIG Draft Report, Review of Alleged Patient Deaths, Patient Wait Times, and Scheduling Practices
at the Phoenix VA Health Care System

Date of Draft Report: July 28, 2014
____________________________________________________________________________________
Recommendations/                    Status              Completion Date
Actions

Recommendation 1. We recommended the VA Secretary direct the Veterans Health
Administration to review the cases identified in this report to determine the appropriate response
to possible patient injury and allegations of poor quality of care. For patients who suffered
adverse outcomes, Phoenix VA Health Care System should confer with Regional Counsel
regarding the appropriateness of disclosures to patients and families.

VHA Comments: Concur.

The Phoenix VA Health Care System (PVAHCS) has reviewed all cases identified in the OIG Report.
Final determinations regarding the appropriate responses, including disclosures to patients and families,
is underway. Over 70 clinical staff have been formally trained to conduct disclosure discussions, which
consistently involve clinical leadership, such as the Chief of Staff or Nurse Executive. These discussions
and this process are used to develop opportunities for improvement for the facility. Regional Counsel will
be included in these discussions. In response to identified issues, the PVAHCS reviewed the records of
over 1,200 patients who were determined to be waiting for an appointment. When issues were identified
relating to quality of care, those individual cases were referred for additional review and action, when
appropriate. PVAHCS completed five protected peer reviews and one institutional disclosure prior to the
release of this report. If additional Disclosures are warranted, they will be completed as quickly as
possible taking into account the needs and preferences of Veterans and their family members.

                                              Status:                 Target Completion Date:
                                              In progress             November 30, 2014


Recommendation 2. We recommended the VA Secretary require the Phoenix VA Health Care
System to ensure continuity of mental health care, improve delays in assignments to a dedicated
provider, and expand access to psychotherapy services.

VHA Comments: Concur.

The (PVAHCS) has taken action to address this recommendation as outlined below and in the draft OIG
report.

PVAHCS leadership began making significant changes in Mental Health services in the past year. In
October 2013, there were 13 Psychiatry vacancies and limited Mental Health services in the Emergency
Department. A new Chief of Psychiatry was hired and all but 3 of the Psychiatry vacancies are filled.
Four additional Social Workers were hired to support the Emergency Department and six of the seven
vacant Psychology positions have now been selected.

Prior to the release of the Interim OIG Report, PVAHCS Mental Health leadership began to convert the
urgent walk-in Mental Health clinic (CSTAT) into a multi-disciplinary, team –based clinic (Behavioral
Health Interdisciplinary Program team model) that significantly improved provider assignments for

VA Office of Inspector General                                                                         120
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




Veterans as well as continuity and coordination of care. Not only are these changes already showing a
considerable improvement in patient access, but they have improved the process by which Veterans are
assigned a Mental Health Treatment Coordinator (MHTC). Since the release of the Interim OIG Report,
Mental Health leadership has reached out to over 2,000 mental health patients who did not have MHTCs
assigned to ensure that they were reassigned a MHTC and given an appointment in Mental Health if they
desired. Patients who could not be seen within 30 days in Mental Health were offered the option of
obtaining Mental Health care in the community via purchased care. PVAHCS will conduct audits to
evaluate the new Behavioral Health Interdisciplinary Program model to ensure continuity of care occurs
as intended. Results from these audits will be reported to Medical Center leadership on a quarterly basis
for one year.

PVAHCS conducted a Community Summit with 25 community partners and 18 PVAHCS staff. Mental
Health Summits help build and sustain collaborative efforts to enhance mental health well-being for
Veterans and their families.

PVAHCS is working to obtain an emergency bridge lease to provide an additional 30,000 square feet of
clinical space to support mental health and primary care operations, until a new Health Care Clinic is
built. The major lease for the Health Care Clinic is pending Congressional approval.

In addition, we will hire additional staff to enhance access to psychotherapy, including services for Military
Sexual Trauma, recovery model programming, addiction services and marriage and family therapy
services. Additional VHA Human Resources support has been dedicated to support and streamline the
hiring process.

                                               Status:                   Target Completion Date:
                                               In progress               August 15, 2015


Recommendation 3. We recommended the VA Secretary require the Phoenix VA Health Care
System to reevaluate and make the appropriate changes to its method of providing veterans
primary care to ensure they provide veterans timely and quality access to care.

VHA Comments: Concur.

PVAHCS has already initiated action to address this recommendation as outlined below:

PVAHCS leadership received approval to increase Primary Care staffing by 53 additional full-time
equivalent employees. All services – Physicians, Nursing and Clerks – have increased staffing in primary
care clinics and Community Based Outpatient Clinics. Aggressive recruitment and hiring processes have
been implemented to speed this process. Local contracts are being secured to utilize Primary Care
physicians through locum tenens agencies.

Mobile medical units were deployed from three other VA facilities to provide additional space. PVAHCS
leadership requested permission to delay a minor construction project to remodel the Community Living
Center, which was approved. This delay provided additional swing space in the facility to create an
additional 27 examination rooms to temporarily accommodate new staff. This space has provided relief
until an emergency bridge lease can be secured. PVAHCS is expediting procurement of two new
Community Based Outpatient Clinics as well as obtain an emergency bridge lease to provide an
additional 30,000 square feet of clinical space to support mental health and primary care operations.
This additional space will allow expanded clinical operations until a new Health Care Clinic is built.

Other modalities of care, such as tele-health and extended clinic hours are being utilized to help expand
capacity. These will be further expanded once the new additional Primary Care staff has been hired.



VA Office of Inspector General                                                                            121
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




Ongoing training and education is provided to scheduling staff regarding proper scheduling processes
and compliance with the VHA scheduling directive.

PVAHCS leadership has been working with the Arizona Congressional delegation and Veterans Service
Organizations to increase outreach efforts in the community. Since May 1, 2014, PVAHCS has
participated in three community outreach events focused on Veteran’s access to care.

                                              Status:                 Target Completion Date:
                                              In progress             August 15, 2015


Recommendation 4. We recommended the VA Secretary direct the Veterans Health
Administration to establish a process that requires facility directors to notify, through their chain
of command, the Under Secretary of Health when their facility cannot meet access or quality of
care standards.

VHA Comments: Concur.

Issues related to access no longer solely depend on local leadership raising the concern up through a
chain of command. VHA is transparent by making these data available and easily accessible to the
public and the entire organization. Transparency of data facilitates timely, honest, and open discussion
throughout the organization, among leadership peers, among employees, and among Veterans.

Twice monthly, VHA publishes data on access to care on a public website
(http://www.va.gov/health/access-audit.asp). Leadership at all levels use the same data to determine
trends, foretell access shortfalls, and address underlying issues that impede Veterans’ access. This data
includes: the number of appointments scheduled at each facility; the number of requested appointments
that are on each facility’s Electronic Wait List; the number of newly enrolled patients who have not yet
been scheduled by facility; and average wait times for mental health, primary care, and specialty care at
each facility, for both new and established patients.

Additionally, VHA publishes a scorecard model for internal quality of care benchmarking. Strategic
Analytics for Improvement and Learning (SAIL) Value Model assesses 25 quality measures in areas such
as mortality, complications, and customer satisfaction, as well as overall efficiency. SAIL benchmark
tables can be found at http://www.hospitalcompare.va.gov/docs/SAILData.pdf

                                              Status:                 Target Completion Date:
                                              Completed               Implemented


Recommendation 5. We recommended the VA Secretary review all existing wait lists at the
Phoenix VA Health Care System to identify veterans who may be at risk because of a delay in the
delivery of health care and provide the appropriate medical care. We provided this
recommendation to the former VA Secretary in the Interim Report.

VHA Comments: Concur.

PVAHCS – with support from VHA’s Health Resource Center (HRC) – has reached out to all Veterans
identified as being on unofficial lists or the facility Electronic Waiting List (EWL). Those Veterans, in
addition to the new daily Veteran enrollments, have resulted in over 7,300 new patients being addressed
by PVAHCS. Over 3,200 appointments have been made in Primary Care for new patients since this
initiative began. As of August 5, 2014, there were 87 Veterans on the EWL at PVAHCS, of which 60 had
received three telephone calls and a certified letter, leaving only 27 Veterans remaining on the EWL.



VA Office of Inspector General                                                                         122
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




PVAHCS is now scheduling the vast majority of patients directly into a Primary Care appointment when
enrollment/registration occurs.

This has been accomplished by leveraging VISN 18 and VHA resources to support PVAHCS. An
Incident Command Center was established and lead by the facility Chief of Staff. The Disaster
Emergency Medical Personnel System was activated to mobilize VHA staff nationally to Phoenix. In
addition, the VHA Interim Staff Program was utilized to mobilize additional nurses and providers to
Phoenix. To date, over 70 staff have arrived on station to assist and many more (Human Resources,
Patient Advocates, etc.) have helped through virtual means.

                                               Status:                  Target Completion Date:
                                               Implemented              Completed


Recommendation 6. We recommended the VA Secretary take immediate action to ensure the
Phoenix VA Health Care System reviews and provides appropriate health care to all veterans
identified as being on unofficial wait lists. We provided this recommendation to the former VA
Secretary in the Interim Report.

VHA Comments: Concur.

PVAHCS took immediate actions to contact all Veterans identified by OIG as being on unofficial waitlists;
they were all contacted by June 4, 2014. This was accomplished by leveraging resources provided by
the VHA Health Resources Center (HRC) located in Topeka, KS, in conjunction with PVAHCS scheduling
staff. The campaign was later expanded to include all Veterans remaining on the PVAHCS New
Enrollees Appointment Request (NEAR) list, and resulted in 1,057 scheduled appointments. Of the
Veterans not scheduled, all had been contacted and either indicated they did not want an appointment or
did not respond to at least three telephone calls and a certified letter offering the opportunity to schedule
an appointment. This aggressive campaign concluded on June 10, 2014. PVAHCS now monitors all
new Veterans to ensure timely access to care.

                                               Status:                  Target Completion Date:
                                               Implemented              Completed


Recommendation 7. We recommended the VA Secretary ensure all new enrollees seeking care at
the Phoenix VA Health Care System receive an appointment within the time frames directed by
VHA policy.

VHA Comments: Concur.

Nationally, VHA expeditiously mobilized staff and resources from around the country to help PVAHCS
identify patients waiting for care, and cleared the way for them to get the care they needed. We have
completed the immediate and urgent work and are publicly publishing data on our progress.

Locally, PVAHCS implemented process changes to ensure all new enrollees seeking care receive an
appointment when desired. In May of 2014, the New Enrollee Appointment Request (NEAR) list reached
levels of over 1,900 Veterans potentially waiting for care. As of July 2014, fewer than 10 Veterans were
in a pending status on the NEAR list. To ensure continued success, the Electronic Wait List (EWL) and
NEAR List are reviewed daily and reported to facility and VISN leadership.

                                               Status:                  Target Completion Date:
                                               In progress              December 2014



VA Office of Inspector General                                                                           123
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 





Recommendation 8. We recommended the VA Secretary ensure the Phoenix VA Health Care
System timely process enrollment applications.

VHA Comments: Concur.

Nationally, VHA is developing an automated system for monitoring enrollment processing at every VA
facility.

Locally, PVAHCS is hiring dedicated staff to complete on-line enrollment processing and are
implementing an ongoing review of the NEAR list with daily reports of Veteran status to medical center
leadership. Tele-health enrollment was implemented at all Community Based Outpatient Clinics to
provide patients with an enrollment option close to their home. At the VISN-level, the Network Director is
evaluating trends at PVAHCS on a monthly basis.

                                               Status:                  Target Completion Date:
                                               In progress              August 2015


Recommendation 9. We recommended the VA Secretary ensure the Phoenix VA Health Care
System follows VA consultation guidance and appropriately reviews consultations prior to
closing them to ensure veterans receive necessary medical care.

VHA Comments: Concur.

PVAHCS established a consult management committee to ensure appropriate processes follow VA
consultation policy. The initial focus of their work was to address aging consults to ensure Veterans
received care in a timely manner. This initiative lead to the PVAHCS having less than 1 percent of all
submitted consults being open greater than 90 days as of May 1, 2014. The facility continues to report
weekly consult status reports to Medical Center Leadership.

Since the Accelerating Care Initiative (ACI) began, resources have been provided to continue to work
down the number of open consults even further. Since the beginning of the ACI, over $16.9 million has
been used to obtain care for over 3,100 unique Veterans in the community via purchased care.

Consults are reviewed prior to closing to ensure Veterans receive necessary medical care. The facility is
following nationally established standards, making telephone contacts and sending letters when
telephone contacts are not successful. However, additional education for providers is needed to come
into full compliance. The Chief of Staff will provide leadership oversight of this educational effort in the
next 90 days.

Over the past year, PVAHCS lost several Urology providers. An action team was established to address
this crisis which ultimately determined that no additional new consults could be seen by Urology Service.
A decision was made to discontinue all of the active or pending status Urology consults (approximately
280 Veterans). These consults were sent back to their Primary Care providers for review and referral to
Non-VA Care if Urology care was still warranted. Instructions were provided to the Primary Care
providers by the Chief of Staff as well as the Chief of Primary Care prior to these consults being
discontinued. PVAHCS has hired two new Urologists, a Nurse Practitioner and two Physician Assistants
to support future Urology needs for patients. An offer has been extended to another Urologist.

                                               Status:                  Target Completion Date:
                                               In process               December 31, 2014




VA Office of Inspector General                                                                           124
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 




Recommendation 10. We recommended the VA Secretary ensure the Phoenix VA Health Care
System staff timely verify and record veteran deaths in Veterans Health Information Systems and
Technology Architecture.

VHA Comments: Concur.

To address timeliness of acting on notifications of death by the Decedent Affairs Office, PVAHCS trained
two additional staff members to serve as Decedent Affairs Clerks to provide cross-coverage to the
Decedent Affairs Office, as needed. This additional resource has proven sufficient to provide timely
processing of death notifications. In addition, VA will address the technical issues that have caused
delays in sharing information about Veteran deaths across different information systems.

                                               Status:                  Target Completion Date:
                                               In progress              October 30, 2014


Recommendation 11. We recommended the VA Secretary ensure the Phoenix VA Health Care
System establish an internal mechanism to perform routine quality assurance reviews of
scheduling accuracy.

VHA Comments: Concur.

Locally, the PVAHCS Acting Medical Center Director visited all facility and CBOCs in July, 2014. During
these visits, the facility Director emphasized to scheduling staff that everyone needs to follow scheduling
policies and procedures to ensure we are delivering timely care to Veterans. All front line supervisors
received training on auditing schedulers’ work. The monthly audit process includes a mechanism to
randomly identify appointments for review. Over 10 items per appointment are reviewed. Results are
used in regular feedback for schedulers and in performance reviews.

Nationally, VHA is developing a “Scheduling accuracy” database to compliment front line audits. The
national database consists of 4 measures that audit elements of appointments available in centralized
data sets. The national audits will provide insight into scheduling accuracy and process reliability.

                                               Status:                  Target Completion Date:
                                               In progress              August 2015


Recommendation 12. We recommended the VA Secretary ensure all Phoenix VA Health Care
System staff with scheduling privileges satisfactorily complete the mandatory Veterans Health
Administration scheduler training.

VHA Comments: Concur.

Nationally, between May 27, 2014 and June 6, 2014, the Access and Clinic Administration Program
Office and the Employee Education System held individual training sessions for all 21 VISNs. Each
session trained on a number of elements related to patient access including: new patient definitions,
EWL, recall reminder, and the NEAR list. To date, 8,248 employees across the VHA System have been
trained including 764 at Phoenix.

PVAHCS now requires review by the Health Administration Service (HAS) to ensure all staff requesting
scheduling privileges have taken the mandatory scheduling training. All staff members that have any of
the VistA scheduling options are also now identified on a Master List required by the VHA Scheduling
Directive. In addition to the monitoring of the mandatory training and adherence to maintaining a Master
List, PVAHCS offered face-to-face refresher training that was attended by more than 450 staff members

VA Office of Inspector General                                                                          125
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




in July 2014. Finally, to ensure staff members are fully trained and compliant with scheduling policies
and procedures moving forward, the PVAHCS began an intensive, week-long scheduling training for all
new dedicated schedulers, as well as those individuals requesting remedial training. This training
includes hands-on experience for staff members and results in a local certification of scheduling
competency.

                                              Status:                  Target Completion Date:
                                              In progress              August 2015


Recommendation 13. We recommended that upon the completion of the investigation the VA
Secretary confer with appropriate VA staff and determine whether administrative action should be
taken against management officials at the Phoenix VA Health Care System and ensure that action
is taken where appropriate.

VHA Comments: Concur.

Following completion of all external reviews, VA will charge an internal group to convene an
Administrative Investigation Board (AIB) responsible for conducting a focused review of Phoenix VA
Health Care System managers’ culpability for the deficiencies identified in the OIG report. Additionally,
the internal group will coordinate the issuance of appropriate proposals or actions should the AIB report
determine that management accountability actions are warranted.

                                              Status:                  Target Completion Date:
                                              In progress              To be determined after completion
                                                                       of all external reviews


Recommendation 14. We recommended the VA Secretary ensure Phoenix VA Health Care System
include an employee satisfaction measure and a veteran satisfaction measure in Phoenix VA
Health Care System management’s performance plans and facility goals.

VHA Comments: Concur.

VHA Senior Executive performance plans communicate the priorities of VA and VHA. The Executive
plans are used to inform the performance expectations for subordinate leaders and workforce.

The lessons of Phoenix have provided a major impetus for VHA to reexamine its entire process of setting
performance expectations for its leaders and managers. We are taking vigorous action to ensure that a
“data driven” approach does not have the unintended impact of diverting attention from our primary goal
of providing Veterans with personalized, proactive, patient-driven health care. To ensure that
operational indicators of access promote the correct behaviors, we are committed to having all
performance plans emphasize an ethical organizational culture that promotes constructive and engaged
relationships between Veterans and their health care teams. The performance plans will align the entire
staff of our health care system to support that goal.

Accordingly, beginning in fiscal year (FY) 2015, the performance plans and goals for management at
Phoenix, and across VHA, will emphasize the importance for all leaders to engage deeply with Veterans
and staff. VHA currently has an ongoing Survey of Health Experiences of Patients (SHEP) and an
annual All Employee Survey (AES) that elicit the perspectives of Veterans and staff, respectively, about
the factors that promote or hinder a healing environment and a healthy organization. No later than the
2nd quarter of FY 2015, VHA leadership will be expected to share the results of both surveys with all
employees during town halls, staff meetings, and other venues. AES results will be made available at
the workgroup level so that individual workgroups and departments can prioritize what changes are


VA Office of Inspector General                                                                         126
                                              Review of Alleged Patient Deaths, Patient Wait Times, and 

                                             Scheduling Practices at the Phoenix VA Health Care System 




needed, develop an action plan based on those priorities, and follow through with actions designed to
improve the workplace. SHEP results, including an analysis of the key drivers of Veteran experience of
Access, will similarly be provided at the level of facility, division, and CBOC as a reliable Veteran-
generated indicator of progress towards meeting Veteran needs.

The VHA 2015 Senior Executive Performance Plan is currently in development. Upon approval of the
Senior Executive Performance Plan by VHA senior leadership, management performance plans and
facility goals at Phoenix will include an expectation that senior executives demonstrate action to address
the results identified by local AES and SHEP survey data. Facility, network, and national results will be
published internally to document progress as well as ensure that appropriate technical support and
resources are provided. Additionally, the agency will provide an annual summary report of progress for
our stakeholders and the public upon completion of the performance period.

                                              Status:                  Target Completion Date:
                                              In progress              March 2015


Recommendation 15. We recommended the VA Secretary initiate a nationwide review of veterans
on wait lists to ensure that veterans are seen in an appropriate time, given their clinical condition.
We provided this recommendation to the former VA Secretary in the Interim Report.

VHA Comments: Concur.

VHA has taken aggressive steps at the national and local levels to address recent reports of
unacceptable delays in access to care. The Accelerating Care Initiative (ACI), a coordinated, system-
wide initiative designed to increase timely access to care for Veteran patients; decrease the number of
Veteran patients on the EWL longer than 30 days for their care; and standardize the process and tools for
ongoing monitoring and access management at VA facilities was implemented in June 2014. The ACI is
a process where network and health care facility leadership teams reviewed where Veterans were either
waiting too long for care or where Veterans did not yet have appointments. ACI identified requirements
for over $400 million to support care delivery requirements. These funds have been used to support
overtime for clinical and administrative support and for acquiring health care services for Veterans in the
community through non-VA care. As of August 6, 2014, VA has obligated $128 M in funding and
authorized non-VA care for 83,000 Veterans. The success of ACI ensures it will be among the
remediation options made available to medical center directors through this process.

                                              Status:                  Target Completion Date:
                                              Completed                Implemented


Recommendation 16. We recommended the VA Secretary direct the Health Eligibility Center to
run a nationwide New Enrollee Appointment Request report by facility of all newly enrolled
veterans and direct facility leadership to ensure all veterans have received appropriate care or are
shown on the facility’s electronic wait list. We provided this recommendation to the former VA
Secretary in the Interim Report.

VHA Comments: Concur.

The Health Eligibility Center, in connection with the Veterans Health Administration Support Services
Center, developed a report to identify those individuals currently waiting on the NEAR list.

As of May 15, 2014, approximately 64,000 Veterans were currently pending on the NEAR list.

As of July 15, 2014, approximately 2,100 individuals remained on the NEAR list.

VA Office of Inspector General                                                                         127
                                                 Review of Alleged Patient Deaths, Patient Wait Times, and 

                                                Scheduling Practices at the Phoenix VA Health Care System 




A preliminary analysis of the 61,900 Veterans removed from the NEAR list show:
     	   20 percent cancelled their request for an appointment
     	   11 percent scheduled an appointment
     	   2 percent were placed on the Electronic Wait List
     	   7 percent requested and were referred to other VA services
     	   7 percent were in the early stages of eligibility and verification
     	   VA has made several attempts to contact the remaining Veterans (52%) by phone. After
          verifying mailing addresses, VA sent certified letters to every Veteran who could not be reached
          by phone.

                                                 Status:                   Target Completion Date:
                                                 Completed                 Implemented


Recommendation 17. We recommended the VA Secretary establish veteran-centric goals and
eliminate current goals that divert focus away from providing timely quality care to all eligible
veterans.

VHA Comments: Concur.

VHA will establish Veteran-centric goals for the agency as a whole as well as its operating executives.
VHA will review and modify all current performance plans to remove measures related to waiting time
goals. VA will work with the Office of Management and Budget to remove wait time goals from the FY15
Agency Performance Plan.

                                                 Status:                   Target Completion Date:
                                                 In progress               September 30, 2014

VHA will develop additional Veteran-centric measures for access to care and responsiveness and have in
place validated indicators and goals.

                                                 Status:                   Target Completion Date:
                                                 In progress               September 30, 2015

Recommendation 18. We recommended the VA Secretary take measures to ensure use of
“desired date” is appropriately applied.

VHA Comments: Concur.

VA will take measures to ensure use of “desired date” is appropriately applied. VA has suspended the
use of Desired Date performance metrics for the Agency Performance Accountability Report as well as in
all individual performance plans. To date, over 8,200 employees have undergone additional scheduler
training. Additionally, VISN and VA Medical Center Directors have conducted over 2,000 in-person site
visits to review understanding of scheduling practices. As part of ongoing efforts to reinforce proper use
of the “desired date,” the Acting Deputy Under Secretary for Health for Operations and Management
issued a memorandum on August 15, 2014, to all VISN directors titled, “Clarification of Certain
Scheduling Definitions.”

                                                 Status:                   Target Completion Date:
                                                 In progress               August 2015


VA Office of Inspector General                                                                         128
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




Recommendation 19. We recommended the VA Secretary provide veterans needed care in a
timely manner that minimizes the use of the electronic wait list.

VHA Comments: Concur

VHA’s policy is that patients requesting new appointments in a clinic where they have not been seen in
the last 24 months are placed on the EWL if an appointment cannot be made within 90 days. In some
cases, appointments are made beyond 90 days rather than placed on an EWL (for example, patients
without a phone). The value of the EWL is that it allows staff to see the volume of appointment request
backlog, secure appointment supply or make a decision to use Non-VA care, and then make the
appointment with the patient once (rather than cancel and reschedule). Since VA tracks waiting times for
each appointment whether a patient is on the EWL or in a scheduled appointment, VA can track
appointment backlog and wait times in either case.

VHA seeks to provide care within 30 days. EWL volume in general signals clinics with waiting times of
over 90 days for new appointments. To minimize wait times, VHA has created the Accelerating Care
Initiative, which requires facilities to reach out to patients waiting more than 90 days and offer them more
timely care within VA, or Non-VA care. As of August 6, 2014, VHA had contacted over 150,000 patients.
In addition, VHA is expanding the number of providers in facilities and the use of Non-VA care to meet
demand. VHA will report on effectiveness of the ACI in providing timely care to Veterans and appropriate
minimal usage of the EWL.

                                                Status:                   Target Completion Date:
                                                In progress               August 2015


Recommendation 20. We recommended the VA Secretary require facilities to perform internal
routine quality assurance reviews of scheduling accuracy of randomly selected appointments and
schedulers.

VHA Comments: Concur.

VHA has developed and deployed a leadership scheduling audit process. VA medical center directors
and VISN directors are completing face-to-face audits of their facilities’ scheduling practices. Additionally,
VHA will seek independent external reviews by The Joint Commission at all facilities. These external
reviews will assess VHA processes and accreditation standards directly related to timely access to care;
identify processes that may potentially indicate delays in care and diagnosis; review continuity of care
and patient flow; and review the environment of care and those standards that assess organizational
leadership and culture.

                                                Status:                   Target Completion Date:
                                                In progress               August 2015


Recommendation 21. We recommended the VA Secretary initiate a process to selectively monitor
calls from veterans to schedulers and then incorporate lessons learned into training or
performance plans.

VHA Comments: Concur

VHA Telephone infrastructure is diverse. Some lines of the business are served by professional call
centers that have up-to-date equipment, well trained staff, and the capability to selectively monitor calls
and incorporate lessons learned into training and performance plans. Some facilities have established
call centers at a facility or network level on a pilot basis. However, the majority of facilities have either

VA Office of Inspector General                                                                              129
                                                Review of Alleged Patient Deaths, Patient Wait Times, and 

                                               Scheduling Practices at the Phoenix VA Health Care System 




small or non-existent call centers and decentralized staff that answer calls in addition to their other duties.
Many facilities have outdated telephone equipment and simply do not have the infrastructure to
automatically distribute or monitor calls. In any case, VHA Scheduling Audit Training Materials currently
include selective call monitoring as an option for scheduler performance review. Practically, compliance
with the recommendation is most likely in selected facilities and services with the most up-to-date
infrastructure.

VHA will convene a workgroup to fully understand the complexities of the widely variable telephone
systems used in each of the facilities and CBOCs across the country. This workgroup will also assess
applicable regulation, statute, and labor management agreements regarding call monitoring. The
workgroup will be charged with providing recommendations to the Under Secretary for Health regarding
feasible options for auditing telephone systems for answered calls, dropped calls, and unanswered calls.

                                                Status:                  Target Completion Date:
                                                In progress              August 2015


Recommendation 22. We recommended the VA Secretary conduct a review of the Veterans
Health Administration’s Ethics Program to ensure the Program’s operational effectiveness,
integrity, and accountability.

VHA Comments: Concur.

VA strongly believes that the agency’s core values of integrity, commitment, advocacy, respect and
excellence are critical elements in VA’s overall pledge to serve all Veteran’s and must be embodied by all
employees and incorporated into all operational processes. Many factors promote effectiveness,
integrity, and accountability for ethical behavior, and leadership commitment, human resource processes,
staff engagement, and performance expectations must work in synergy to promote an ethical culture. To
ensure the presence and alignment of the proper elements needed for an ethical culture, VHA will
establish a work group, to include external experts and facilitation, to conduct a holistic review, including
the proper role and functions of the National Center for Ethics in Health Care. VHA will expect the review
to provide recommendations on essential structural elements necessary for reinforcing a strong ethical
culture: such as how to select and hire ethical leadership and staff; how to communicate expectations
around ethical behavior, and the proper organizational structures and processes for eliciting and
responding to ethical concerns.

                                                Status:                  Target Completion Date:
                                                In progress              January 15, 2015


Recommendation 23. We recommended the VA Secretary initiate actions to update the Veterans
Health Administration’s current electronic scheduling system and ensure milestones and costs
are monitored.

VHA Comments: Concur.

VA Office of Information and Technology and VHA will implement incremental changes to the VISTA
Scheduling Package via the VistA Scheduling Enhancement Project. These Milestones are identified
below:

Planning                       7/21/2014 – 9/15/2014
Development & Testing          9/15/2014 – 1/16/2015
Initial Operating Capability   1/20/2015 – 5/19/2015
Integration/Deployment         5/20/2015 – 8/18/2015

VA Office of Inspector General                                                                             130
                                               Review of Alleged Patient Deaths, Patient Wait Times, and 

                                              Scheduling Practices at the Phoenix VA Health Care System 





                                               Status:                  Target Completion Date:
                                               In progress              August 2015


Recommendation 24. We recommended the VA Secretary ensure that the Veterans Health
Administration establishes a mechanism to ensure data representing VA’s national performance
are validated by an internal group that has direct access to the Under Secretary for Health.

VHA Comments: Concur.

VA has created SAIL, the Strategic Analytics for Improvement and Learning Value Model, to distill salient
information from a large number of individual metrics. SAIL is a web-based, balanced scorecard model
that the Department of Veterans Affairs (VA) is developing and continuously improving to measure,
evaluate and benchmark quality and efficiency at medical centers. SAIL is designed to offer high-level
views of health care quality and efficiency, enabling executives and managers to examine a wide breadth
of existing VA measures. The underlying data on which SAIL is based are identical to those available
through other Veterans Health Administration (VHA) sources such as: Linking Knowledge and Systems
(LinKS), ASPIRE, VA Inpatient Evaluation Centers (IPEC), Performance Management, and Office of
Productivity, Efficiency, and Staffing (OPES).

SAIL assesses 25 Quality measures in areas such as mortality, complications, and customer satisfaction,
which are organized within eight domains (See Appendix A for full list). In addition, SAIL includes
another measure to assess overall efficiency (the Efficiency domain). SAIL draws data from existing
measures prepared by VHA Program Offices and VA national databases for inpatient and outpatient
encounters and facility characteristics. SAIL is VA-specific and intended to suggest areas of focus. While
many of the measures are consistent with those reported in the private sector, others are unique to VA
and have not been as thoroughly validated. SAIL allows individual VAMCs to assess their performance
for each measure by comparing their results with those achieved by similar facilities by percentile ratings.
The benchmark is the performance achieved by the top 10 percent of similar facilities.

As part of the largest integrated health care system in the United States, each VAMC is organized slightly
differently to best serve Veterans’ health care needs, and SAIL is designed accordingly. SAIL’s quality
and efficiency measurements take into account the complexity level of each medical center (e.g., patient
volume, number of residents, complex clinical programs, and research dollars) when assessing
performance. Unlike most other health industry report cards which are updated annually, SAIL is
updated quarterly to allow medical centers to more closely monitor the quality and efficiency of the care
delivered to our Veterans. SAIL is produced by a unit of VHA that is independent of VHA operations
(VISNs/Medical Centers) whose leader has direct access to the Under Secretary for Health and the
Deputy Secretary of the Veterans Affairs.

                                               Status:                  Target Completion Date:
                                               Completed                Implemented




VA Office of Inspector General                                                                          131
                                       Review of Alleged Patient Deaths, Patient Wait Times, and 

                                      Scheduling Practices at the Phoenix VA Health Care System 




Appendix L          Office of Inspector General Contact

                      OIG Contact 	           For more information about this report, please
                                              contact the Office of Inspector General at
                                              (202) 461-4720.




VA Office of Inspector General                                                              132
                                         Review of Alleged Patient Deaths, Patient Wait Times, and 

                                        Scheduling Practices at the Phoenix VA Health Care System 




Appendix M          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    All Members of the United States Congress




              This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                133
